<html>
<title> - FAILED FEDERAL FOREST POLICIES: ENDANGERING JOBS, FORESTS AND SPECIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         FAILED FEDERAL FOREST

                      POLICIES: ENDANGERING JOBS,

                          FORESTS AND SPECIES
=======================================================================



                        OVERSIGHT FIELD HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

             Monday, May 21, 2012, in Longview, Washington

                               __________

                           Serial No. 112-112

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
74-531                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, May 21, 2012.............................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Herrera Beutler, Hon. Jamie, a Representative in Congress 
      from the State of Washington...............................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Connaughton, Kent, Regional Forester, Pacific Northwest 
      Region, U.S. Forest Service, U.S. Department of 
      Agriculture, Portland, Oregon..............................    32
        Prepared statement of....................................    34
    Fox, Tom, President, Family Forest Foundation, Ethel, 
      Washington.................................................    10
        Prepared statement of....................................    12
    Friedman, Mitch, Executive Director, Conservation Northwest, 
      Bellingham, Washington.....................................    36
        Prepared statement of....................................    38
    Kreps, Kelly, Kreps Ranch LLC, White Salmon, Washington......    46
        Prepared statement of....................................    48
    Mealey, Stephen P., Vice President of Conservation, Boone & 
      Crockett Club, Leaburg, Oregon.............................    23
        Prepared statement of....................................    25
    Nelson, Tom, Washington Timberlands Manager, Sierra Pacific 
      Industries, Mount Vernon, Washington.......................    50
        Prepared statement of....................................    51
    Niemi, Ernie, Senior Economist, ECONorthwest, Eugene, Oregon.    40
        Prepared statement of....................................    41
    Pearce, Hon. Paul, Commissioner, Skamania County, Washington, 
      on behalf of the National Forest Counties and Schools 
      Coalition..................................................     7
        Prepared statement of....................................     9
    Salwasser, Dr. Hal, Cheryl Ramberg and Allyn C. Ford Dean, 
      College of Forestry, Oregon State University, Corvallis, 
      Oregon.....................................................    17
        Prepared statement of....................................    18
    U.S. Department of the Interior, Statement submitted for the 
      record.....................................................    65

Additional materials supplied:
    List of documents retained in the Committee's official files.    69
                                     


     OVERSIGHT FIELD HEARING ON ``FAILED FEDERAL FOREST POLICIES: 
                ENDANGERING JOBS, FORESTS AND SPECIES.''

                              ----------                              


                          Monday, May 21, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                          Longview, Washington

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:00 a.m., at 
the Cowlitz County Expo and Conference Center, 1900 7th Avenue, 
Longview, Washington, Hon. Doc Hastings presiding.
    Present: Representatives Hastings and Herrera Beutler.
    The Chairman. The Subcommittee on National Parks, Forests, 
and Public Lands will come to order. I'm Congressman Doc 
Hastings. I'm the Chairman of the Committee on Natural 
Resources. I come from the other side of the State. What you 
are experiencing here with rain we call inventory on our side 
of the State so thank you for doing that. I'm very pleased to 
be in the Third Congressional District, and I'm very pleased to 
have here with me Congresswoman Jamie Herrera Beutler. Without 
objection, she will sit with me at the table.
    The Subcommittee on National Parks, Forests and Public 
Lands meets today to hear testimony on a hearing entitled 
``Failed Federal Forest Policy: Endangering Jobs, Forests and 
Species.''
    Can you hear me by the way? Is that better? Is that better? 
OK. I apologize for that. I won't start over. I could start 
over, but I won't start over. But we are here today to hear 
testimony on a hearing entitled ``Failed Federal Forest 
Policies: Endangering Jobs, Forests and Species,'' but, first, 
before we start, I want to defer to my distinguished colleague, 
the Congresswoman from the Third Congressional District for the 
purposes of flag and introductions.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. Thank you for 
being here. We're privileged to have, and I'm going to read 
their names, Steven Wallace, Alex Wallace, Dane Kitchens for 
Boy Scout Troop 319, and Eric Kolditz and Carl Kolditz from Boy 
Scout Troop 883 to post the colors and lead us in the Pledge of 
Allegiance, so please stand.
    [Pledge of Allegiance.]

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Before hearing from our panel, I and 
Congresswoman Herrera Beutler will have an opening statement. I 
want to thank Congresswoman Herrera Beutler for hosting this 
and for joining me here today. This hearing comes more than 20 
years following approval of a Northwest Forest Plan and after 
the Northern Spotted Owl was listed as endangered under the 
Endangered Species Act.
    To put it simply, the Northwest Forest Plan has failed. It 
has failed on health of national forests, it has failed on the 
economic well-being in rural counties and schools, it has cost 
tens of thousands of Northwest timber-related jobs and the 
closure of hundreds of mills and affected wood product 
industries, and it has failed, probably more importantly, to 
recover the Spotted Owl.
    Nationwide, Federal agencies are not managing the land that 
they are required to manage. Amidst our nation's $15.5 trillion 
debt, the Interior Department and Forest Service's own 
estimates reveal $22 billion in maintenance backlogs for lands 
managed by the Forest Service, the Bureau of Land Management, 
the U.S. Parks Service and the U.S. Fish and Wildlife Service. 
Worse, since the Northwest Forest Land, an average of 355,000 
acres per year of Northwest national forests has been destroyed 
by wildfires; yet agencies continue to request and spend more 
money to contain wildfires and acquire even more land.
    In the State of Washington, the Forest Service is already 
responsible for managing over 9 million acres of forest land 
contained within seven national forests. Timber harvest of 
those forests has declined by 84 percent over the last decade, 
84 percent, resulting in a loss of jobs and economic certainty 
and a breach of the Federal Government's commitment to rural 
forest communities.
    Each year Washington's national forests grow three times 
faster than they die. The Forest Service harvests just 2 
percent of new growth, which yields about $13 million in 
revenue. In contrast, the State of Washington, which manages 
the trust about one-fourth the size of the Forest Service 
lands, produces seven times more revenue than the Forest 
Service for their local communities and, of course, those funds 
go to our universities and school construction fund.
    Despite the Administration's promises to streamline 
regulations on Federal lands, it instead finalized the National 
Forest Planning Group that de-emphasizes active management and 
statutory multiple use requirements.
    Let me just interrupt here for a moment to say when I 
became Chairman of the Natural Resources Committee, which has 
broad jurisdiction over all Federal lands, I viewed my 
responsibility to uphold what I think was the first reason for 
having public lands to be multiple use unless Congress 
designated otherwise, and unfortunately, we have gotten away 
from that notion, and multiple use, by the way, is not confined 
just to recreation. It also means commercial activity.
    The EPA has also failed to define its longstanding rule 
exempting forest management activities from the Clean Water Act 
permitting requirements and is pressing ahead with imposing yet 
another damaging and burdensome regulation on forest 
management.
    Most concerning, the Fish and Wildlife Service issued 
sweeping critical habitat proposals for the Spotted Owl that 
amount to a huge land grab in Washington, Oregon and 
California, some 13 million acres, including nearly 2 million 
acres of private property. The proposals of these largely 
outdated data from the '90s, they don't include an economic 
impact analysis and they do little, if anything, to address the 
concern of the Spotted Owl's decline, mainly another predatory 
owl called the Barred Owl.
    Earlier this year Secretary Salazar toured an ``ecological 
pilot timber sale project'' as part of the Bureau of Land 
Management's ``Western Oregon Strategy.'' The project, ``Pilot 
Joe,'' produced only enough timber to run a single mill for a 
week. I expected to inquire about the status of the BLM sales 
but BLM, unfortunately, declined to participate in this 
hearing.
    One constant undercurrent is the Endangered Species Act. 
Extreme groups file lawsuit after lawsuit to block human or job 
creating economy activity tied to the forest, yet the results 
are more catastrophic wildfires, more diseased and dying trees, 
and destruction of the owl and the species' habitat.
    Private landowners seeking safe harbor either can't afford 
or don't trust the Federal Government's discretion, which 
appears driven by the constant threat of more lawsuits, so 
action must be taken to protect rural communities and private 
property from these burdensome regulations.
    I look forward to hearing from our witnesses today and 
receive constructive input on how to go forward to improve our 
forests' health and to recover the Spotted Owl.
    With that, I'll recognize the gentlelady from Washington, 
as we say in the other Washington, Ms. Herrera Beutler.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    I thank Congresswoman Herrera Beutler for joining me here today. 
This hearing comes more than twenty years following approval of the 
Northwest Forest Plan and after the Northern Spotted Owl's listing 
under the Endangered Species Act.
    To put it simply, the Northwest Forest Plan has failed. It has 
failed the health of national forests. It has failed the economic well-
being of rural counties and schools, has cost tens of thousands of 
Northwest timber-related jobs and the closure of hundreds of mills and 
affected wood-products industries. And, it has failed to recover the 
Spotted Owl.
    Nationwide, federal agencies are not managing the land they are 
required to manage. Amidst our nation's current $15.7 trillion debt, 
the Interior Department's and Forest Service's own estimates reveal $22 
billion in maintenance backlogs for lands managed by the Forest 
Service, Bureau of Land Management, U.S. Park Service and the U.S. Fish 
and Wildlife Service.
    Worse, since the Northwest Forest Plan, an average of 355,000 acres 
per year of Northwest national forests has been destroyed by wildfire. 
Yet, agencies continue to request and spend more money to contain 
wildfires and acquire even more land.
    In Washington, the Forest Service is already responsible for 
managing over 9 million acres of forest land contained within seven 
national forests. Timber harvests of those forests declined 84 percent 
over the past decade, resulting in a loss of jobs and economic 
certainty, and a breach of the federal government's commitments to 
rural forest communities.
    Each year, Washington's national forests grow three times faster 
than they die. The Forest Service harvests just 2 percent of new 
growth, yielding about $13 million in revenue. In contrast, the State 
of Washington, which manages in trust about one-fourth the amount of 
the Forest Service's lands, produces seven times more revenue than the 
Forest Service for local governments, universities and state school 
construction.
    Despite the Administration's promises to streamline regulations on 
federal lands, it instead finalized a National Forest Planning Rule 
that de-emphasizes active management and statutory multi-use 
requirements. The EPA has also failed to defend its longstanding rule 
exempting forest management activities from Clean Water Act permitting 
requirements and is pressing ahead with imposing yet another damaging 
and burdensome regulation on forest management.
    Most concerning, the Fish and Wildlife Service issued sweeping 
critical habitat proposals for the Spotted Owl that amount to a huge 
land grab in Washington, Oregon and California--13 million acres--
including nearly 2 million acres of private property. The proposals are 
based largely on outdated data from the 1990's, don't include an 
economic impact analysis, and do little, if anything, to immediately 
address the main cause of the owl's decline--another predatory owl--the 
Barred Owl
    Earlier this year, Secretary Salazar toured an ``ecological pilot 
timber sale project'' as part of the Bureau of Land Management's 
``Western Oregon Strategy.'' The project--``Pilot Joe'' produced only 
enough timber to run a single mill for a week. I expected to inquire 
about the status of BLM's sales,'' but BLM unfortunately declined to 
participate in today's hearing.
    One constant undercurrent is the Endangered Species Act. Extreme 
groups file lawsuit after lawsuit to block human or job-creating 
economic activity tied to the forests, yet the results are more 
catastrophic wildfires, more diseased and dying trees, and destruction 
of owl and species habitat. Private landowners seeking ``safe harbor'' 
either can't afford or don't trust the federal government's discretion, 
which appears driven by the constant threat of more lawsuits.
    Action must be taken now to protect rural communities and private 
property from these burdensome regulations. I look forward to hearing 
from our witnesses today and to receive constructive input on how, 
going forward, we can improve forest health, create jobs and recover 
the Spotted Owl.
                                 ______
                                 

         STATEMENT OF THE HON. JAMIE HERRERA BEUTLER, 
   A REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Ms. Herrera Beutler. Thank you, Mr. Chairman, and thank you 
for your leadership on this issue. This is incredibly important 
to my region and I appreciate you taking time and effort to 
bring this congressional hearing to Cowlitz County.
    I want to welcome everyone. This is our home, so welcome to 
the folks who aren't from here to Southwest Washington. And I 
want to start really quickly by recognizing the elected 
officials and dignitaries who have joined us today. If I say 
your name, please stand so that I know I've got you. I don't 
mean got you, but got you.
    The first one is Washington State Representative Ed Orcutt; 
Skamania County Commissioner Paul Pearce, who is one of our 
witnesses; Lewis County Commissioner Lee Grose; Cowlitz County 
Commissioner George Raiter; Cowlitz County Commissioner Mike 
Karnofski; Cowlitz County Commissioner Jim Misner, Wahkiakum 
County Commissioner Dan Cochran; and a government official from 
the Cowlitz Tribe, Chairman William Iyall. Thank you all for 
joining us.
    Now, today we're going to consider the policies and 
practices that affect our forests, our wildlife, our economy 
and the entire communities that surround this region. Those 
things make up our identity, and folks across the spectrum are 
recognizing that those things that we value are in jeopardy. 
That's why we're here today.
    Almost 20 years ago, the Northwest Forest Plan was written 
into law. I was entering high school. The stated goals of the 
plan were very laudable: Balance a healthy forest economy with 
the protection of wildlife. Makes sense. But before a new plan 
is adopted that doubles down on the current practices, we need 
an honest science-based assessment of how the plan has worked 
over the past two decades.
    What we'll hear today will be based on science, expert 
analysis and the testimony of community members who have been 
left to deal with the consequences of these policies. I believe 
what we'll hear is that the reality has been very far 
different, far removed from what even the plan's architects had 
intended.
    Former U.S. Forest Service Chief Jack Ward Thomas was the 
primary author of the Northwest Forest Plan. Ten years after he 
stated that the plan is not working and has failed to fulfill 
its promises to the people as well as the to environment he 
stated, quote, ``I've got real terrible concern whether we're 
taking care of the land.''
    Here's what we've seen: Federal forests like the Gifford 
Pinchot have been locked away from the economic activity and 
species like the Spotted Owl have plummeted in number. Setting 
aside 80 percent of our forests in some places has still failed 
to protect the Spotted Owl. Plans to undertake environmentally 
sound forest harvest projects and even very small projects have 
been arrested by lawsuits and a thicket of Federal laws and 
hoops to jump through and a failure of the U.S. Forest Service 
to defend those projects.
    Those I hear from, regardless of political party, want a 
better plan for management of our forests and sustaining our 
community. They're not asking for anything unreasonable, just a 
plan that's based on science that manages for all the wildlife 
species, including the one that's most important to me, which 
is the endangered American wage earner.
    Unfortunately, mismanagement by the U.S. Fish and Wildlife 
Service has led to the decline of species like elk, deer and 
multiple species of bird that are dependent on the diversity of 
habitat. In the Northwest for generations, use of our forest 
for economic activity has been part of who we are. We have 
necessarily adopted and changed to become more sustainable and 
responsible. That's great.
    I've worked with Members of Congress from both parties to 
protect common sense in our forest economy. For instance, my 
colleague who wasn't able to join us today Kurt Schrader from 
Oregon and I are working to keep 35 years of forest and water 
protection in place instead of allowing the onerous Forest 
Roads Rule from locking up even more of our forest economy. 
I've worked with business, labor, Republicans, Democrats on 
this issue because make no mistake about it, jobs are at stake, 
communities will be affected.
    I look forward to hearing from our witnesses today about 
the need for better science and more balance in our forest 
management practices. For two decades the mismanagement of our 
beautiful forests have put them at grave risk of destruction 
from disease, insect devastation and catastrophic wildfires.
    Just last December the U.S. Fish and Wildlife Service 
admitted during a congressional briefing that managing for one 
species only has harmed other wildlife, it hasn't protected the 
Spotted Owl and it most certainly hasn't protected the jobs 
that our community so desperately needs, so I believe we can do 
better. Our wildlife and economy can both be protected. 
Treating those two goals as mutually exclusive simply hasn't 
worked. Our forests and our communities are sounding the alarm 
and it's time for us to listen, so with that I look forward to 
the testimony.
    The Chairman. I thank the gentlelady.
    [The prepared statement of Ms. Herrera Beutler follows:]

           Statement of The Honorable Jamie Herrera Beutler, 
       a Representative in Congress from the State of Washington

    I want to welcome everyone to my home, Southwest Washington.
    I'd like to start by recognizing those elected officials who took 
the time to join us today.
    Today we consider the policies and practices that affect our 
forests, wildlife, economy, and entire communities in this region. 
Those things make up our identity. And folks across the spectrum are 
recognizing that those things that we value are in jeopardy.
    Almost twenty years ago, the Northwest Forest Plan was written into 
law. The stated goals of the plan were laudable: balance a healthy 
forest economy with the protection of wildlife.
    But before a new plan is adopted that doubles-down on the current 
practices, we need an honest, science-based assessment of how they have 
worked over the last 2 decades.
    What we'll hear today will be based on science, expert analysis, 
and the testimony of community members who have been left to deal with 
consequences of these policies. I believe what we'll hear is that 
reality has been far different from what even the plan's architects 
intended.
    Former U.S. Forest Service Chief Jack Ward Thomas was a primary 
author of the Northwest Forest Plan. Ten years after, he stated that 
the plan is not working and has failed to fulfill its promise to the 
people, as well as the environment. He stated: ``I've got real terrible 
concern whether we are taking care of the land.''
    Here's what we've seen: federal forests like the Gifford Pinchot 
have been locked away from economic activity, and species like the 
Spotted Owl have plummeted in number. Setting aside 80% of our forests 
in some places have still failed to protect the Spotted Owl.
    Plans to undertake environmentally sound forest harvest projects, 
even very small projects, have been successfully arrested by lawsuits 
and a thicket of federal laws and hoops to jump through, and a failure 
of the U.S. Forest Service to defend these projects.
    Those who I hear from, regardless of political party, want a new 
plan for managing our forests and sustaining our communities. They're 
not asking for anything unreasonable; just a plan based on science that 
manages for all of the wildlife species. Unfortunately, mismanagement 
by the US Fish and Wildlife Service has led to the decline in species 
like deer, elk, and multiple species of birds that are dependent on 
diversity of forest habitat.
    In the northwest for generations, use of our forests for economic 
activity has been part of who we are. That has necessarily adapted and 
changed to become more sustainable and responsible. But I have worked 
with Members of Congress from both parties to protect common sense in 
our forest economy. For instance, my friend Kurt Schrader from Oregon 
and I are working hard to keep 35 years of forest and water protection 
in place, instead of allowing the onerous ``Forest Roads Rule'' from 
further locking up our forest economy. I've worked with business, 
labor, Republicans and Democrats on this issue because, make no mistake 
about it, jobs will be lost. Communities will be harmed.
    I look forward to from hearing from our witnesses about the need 
for better science and more balance in our forest management practices. 
For two decades, mismanagement of our beautiful forests have put them 
at grave risk of destruction from disease, insect devastation, and 
catastrophic wildfire.
    Just last December, the U.S. Fish and Wildlife Service admitted 
during a congressional briefing that managing for one species has 
harmed other wildlife. It hasn't protected the Spotted Owl, and it most 
certainly hasn't protected the jobs that our community so badly needs.
    I believe we can do better. Our wildlife and our economy can be 
protected. Treating those two goals as mutually exclusive simply hasn't 
worked.
    Our forests and our communities are sounding the alarm. It is time 
for us to listen and respond.
                                 ______
                                 
    The Chairman. And I do want to remind the audience that--
first of all, let me thank all of you for being here, but this 
is an official congressional hearing and for any of you that 
would like to submit testimony, we would absolutely welcome 
that testimony, and if you have any questions on precisely how 
that process comes about, you can contact any of the people up 
here that are part of the community. So we look forward to your 
testimony. The idea of this Committee is to get testimony from 
various people.
    We do have a distinguished panel here, and let me introduce 
them. First you have, who's already been introduced, The 
Honorable Paul Pearce who's the Skamania County Commissioner. 
Mr. Tom Fox is the President of the Family Forest Foundation, 
and starting from your left to the right--I guess it would be 
from my right to the left, which probably I prefer to do it 
that way, third we have Dr. Hal Salwasser, Dean of College of 
Forestry for Oregon State University; Mr. Steve Mealey, Vice 
President of Conservation Boone and Crockett Club; Mr. Kent 
Connaughton, Pacific Northwest Regional Forester U.S. Forest 
Service; Mr. Mitch Friedman, the Executive Director of 
Northwest Ecosystem Alliance; Mr. Ernie Niemi, Senior Economist 
of EcoNorthwest; Mr. Kelly Kreps from Kreps Ranch, LLC; and Mr. 
Tom Nelson, the Washington Timberlands Manager of the Sierra 
Pacific Industries.
    Let me explain for those of you that have not testified in 
front of the Congressional Committee, first of all, your full 
statement will appear in the record, and in every case, I 
think, of the statements that I have reviewed, your statements 
are longer than five minutes, which is fine, but your full 
statement will appear in the record, but you have in front of 
you a device that we call a timing light. It's on a five-minute 
clock, and I hope that you keep your remarks to five minutes, 
and the way that works is, when the green light is on, that 
means you're doing extremely well. When the yellow light comes 
on, it means you have one minute left, and I'd like you to wrap 
up your remarks. And then when the red light comes on, you 
really don't want to know what happens at that point. But if 
you can confine yourself to that timing light, I'd very much 
appreciate it. Obviously, if you're in a thought toward the 
end, that discretion will be there, and I certainly do 
recognize that.
    So with that, let me start the testimony, and I'll 
recognize Committee and County Commissioner Paul Pearce. Paul, 
you're recognized for five minute.

 STATEMENT OF THE HON. PAUL PEARCE, CHAIRMAN, SKAMANIA COUNTY 
              COMMISSIONER, STEVENSON, WASHINGTON

    Mr. Pearce. Thank you very much. Good morning, Chairman 
Hastings and Congresswoman Herrera Beutler. Thank you for the 
opportunity to appear on behalf of the National Forest Impacted 
County Control.
    Skamania County is over 90 percent impacted by Federal Land 
management. Since the listing of the Northern Spotted Owl we've 
witnessed the wholesale destruction of an industry and economy. 
From 1970 to 1990 Gifford Pinchot Forest produced on average 
350 million board feet of timber yearly. The forest growth rate 
is 1.1 million board feet and the mortality rate is 218 million 
board feet.
    In 1990 there were 1,200 jobs in the Gifford Pinchot, 350 
with the Forest Service employees. We had four mills operating 
in the county. Today there are few timber jobs and one mill. 
They import mostly non-Federal logs from outside the county. 
From the Canadian border to mid California you hear the same 
stories from national forest impacted counties.
    1992 saw Congress pass Owl Guaranteed payments for the 
counties and schools hit with the loss of their economy to 
allow agencies to plan for resuming some level of sustainable 
harvest. This did not happen. SRS/County payments was passed 
from 2000 through to the last payment in 2012. The payments 
kept the county governments and the schools operating but also 
turned many of us into the largest employers in our community.
    Skamania's general fund budget this year was reduced from 
$14.5 million to $10 million. We face another $4 million cut 
next year. Our budget is 80 percent people. We have very little 
land available for property tax. Our school districts are 
facing a similar fate. Enrollment has dropped by 28 percent 
over 20 years. We average 60 percent free and reduced lunch, 
which is a key indicator of poverty, and on top of that, three 
counties in Oregon currently face insolvency.
    With Fish and Wildlife Services' suggestion of doubling 
critical habitat from 6 million to 14 million acres, the 
counties have simply had enough, especially when the Service 
indicates that the greatest peril to the Spotted Owl is from 
the Barred Owl. My county in Washington, Douglas County in 
Oregon, Siskiyou County in California are the lead counties of 
this fight on behalf of all affected communities in our state.
    First, the counties have requested of the Secretary a 90-
day extension of the public comment deadline. We've had no 
official reply. The Service tells us they will not have their 
economic or environmental report done until late May, leaving 
barely 30 days to comment only because they moved their 
deadline 30 days. Their economic impact report will begin with 
this new Critical Habitat and will not look at historical 
impacts.
    The Service complained an extension is impossible because 
they're under court-ordered deadline of November 15th. This is 
a gross misstatement of fact, as a quote from the Federal 
Register shows. On October 12, 2010, the Court remanded the 
2008 Critical Habitat rule and adopted the Service's proposed 
schedule to issue a new rule for public comment by November 15, 
2011, and a final rule by November 15, 2012.
    The Service created the schedule, missed the deadline for 
public comment by seven months, moved the deadline 30 days and 
can certainly move the comment deadline an additional 90 days.
    Second, the counties have no faith in this economic study 
and have commissioned our own at the cost of the county. In the 
'92 Final Plan, the Service estimated that only 27,000 jobs 
would be lost. Oregon alone has lost in excess of 40,000. The 
estimated impact to the Federal Treasury is $50 million per 
year. The number is closer to $700 million per year.
    Third, this morning the counties filed for legal 
recognition as cooperating agencies on the final habitat plan. 
We're closer to the social and economic issues surrounding this 
proposal than any other Federal agency which would, without our 
expertise, be acting in a vacuum again. I want to note that 
this Critical Habitat Plan would make the provisions of 
Chairman Hastings' bill impossible to implement across the 
landscape, and as said by Chairman Hastings', DNR has 23 
percent of the acreage and harvests 465 percent of the volume.
    Finally, as I speak to public lands impacted, County 
Commissioners, I find that no matter their political 
persuasion, for the most part they have the same message: No 
more wilderness or other set-asides of these public lands until 
we've settled the active management and significant economic 
questions before us.
    Thank you.
    The Chairman. Thank you very much for your testimony, 
Commissioner Pearce.
    [The prepared statement of Mr. Pearce follows:]

Statement of The Honorable Paul Pearce, Commissioner, Skamania County, 
   Washington, on behalf of the National Forest Counties and Schools 
                               Coalition

    Good morning Chairman Hastings and Congresswoman Herrera Beutler. 
Thank you for the opportunity to appear before you as National Forest 
Counties and Schools Coalition Vice President, NACo's Public Lands 
Steering Committee Vice Chair, and most importantly as the Chair of the 
Skamania County Board of Commissioners, a county 90% impacted by 
Federal Land management.
    Since the listing of the Northern Spotted Owl we have witnessed the 
wholesale destruction of an industry and economy. From 1970 to 1990 
Gifford Pinchot Forest alone produced on averaged 350 million board 
feet of timber yearly. The forests mortality rate is 218 million board 
feet and the growth rate is 1.1 billion board feet. Harvest even at 
that level barely surpassed the mortality rate.
    Beginning in 1992 with Critical Habitat, followed by the 1994 
Northwest Forest Plan we saw the continued loss of timber jobs and 
infrastructure at an incredible rate. In 1990 there were 1200 jobs on 
the Gifford Pinchot Forest, 350 of them were forest service employees. 
There were four full time mills operating in my county alone.
    Today there are few timber jobs and only one full time mill. And 
they truck logs in, mostly from non-federal lands. You'll hear the same 
stories from Counties containing National Forests from the Canadian 
border to mid California.
    Congress passed Owl Guarantee payments for those counties and 
schools hit with the loss of their entire economy so as to allow 
agencies to get their act together resuming some level of sustainable 
harvest. This did not happen and SRS/County Payments was passed from 
2000 through this last payment in 2012. These payments kept the county 
Governments and the Schools operating but also turned us into the 
largest employers.
    Our general fund budget for 2012 was cut from 14.5 million to 10 
million. We face another 4 million cut in 2013. Like most public land 
counties we only have a small sliver of land available for property 
tax. Our school districts are facing a similar fate. Enrollment has 
dropped by 28% over 20 years. We average 60 percent free and reduced 
lunch, a key indicator of poverty. Our unemployment rate is still near 
12% with an underemployment rate much higher.
    Three counties in Oregon face insolvency. These statistics are true 
for the highly public land dependant counties in all three states and 
across the country.
    So as the Service now suggests doubling Critical Habitat from 6 
million to 14 million acres in Washington, Oregon and California the 
counties have simply had enough. Especially when the Services indicates 
that the greatest peril to the Spotted Owl is from the Barred Owl.
    Skamania County in Washington, Douglas County in Oregon and 
Siskiyou County in California are the leads for their sister counties. 
We have requested a 90 day extension of the public comment deadline. We 
have had no official reply to as yet.
    The Service tells us they will not have their economic or 
environmental reports done until late May which leaves barely 30 days 
to reply. We are informed that their economic impact report will begin 
on the day this new Critical Habitat is final and will not look at 
historic impacts.
    Members of the Service unofficially complain that an extension is 
impossible because they are under a court ordered deadline of November 
15th. This is a gross misstatement of fact
    I quote from the federal register at page 1408:
    ``On October 12, 2010, the Court remanded the 2008 critical habitat 
designation. . .and adopted the Service's proposed schedule to issue a 
new proposed revised critical habitat rule for public comment by 
November 15, 2011, and a final rule by November 15, 2012. . ..''
    The Service created the schedule then missed the deadline for 
public comment by seven months. They can certainly move the other 
deadlines by 90 days.
    The Counties have no faith in the economic study and have 
commissioned our own. In the 1992 Final Plan at page 1815 the Service 
makes a number of estimates as to the impacts of the listing and 
critical habitat for the Northern Spotted Owl. They estimate that only 
27,000 jobs would be lost stating that this was only 3% of timber 
related jobs nationwide; as if the owl were listed nationwide. We know 
that Oregon alone lost in excess of 40,000. They further estimate the 
impact to the federal treasury at $50 million per year. We know based 
on actual payments prior to the listing that this number is closer to 
$700 million per year.
    Also the three counties I mentioned above have this morning filed 
for Cooperating Agency status on the final plan on behalf of all 
affected counties.
    This Critical Habitat makes the provisions of Chairman Hastings' 
``Federal Forests County Revenue, Schools, and Jobs Act of 2012'' House 
Bill 4109 impossible to implement across the landscape of these Owl 
impacted Forests.
    Timber harvest by the Forest Service and BLM is abysmal. Department 
of Natural Resources in Washington State manages the counties timber 
lands. DNR has a Habitat Conservation Plan including the Spotted Owl. 
DNR manages 2.2 million acres. The Forest Service 9.3 million. From 
2008 through 2010 DNR sustainably harvested 1.8 billion board feet of 
timber. The Forest Service harvested 387 million board feet. DNR. . .at 
23% of the acreage. . .harvested 465% of the volume as compared to the 
forest service.
    Finally as I speak to public lands impacted County Commissioners I 
find that no matter their political persuasion; for the most part they 
have the same message. No more wilderness, wilderness like, roadless, 
roadless like, natural preserves or other set asides, of these public 
lands until we have settled the active management, and significant 
economic questions before us.
                                 ______
                                 
    The Chairman. Next we'll call on Mr. Tom Fox, the President 
of the Family Forest Foundation.
    Mr. Fox, you're recognized.

               STATEMENT OF TOM FOX, PRESIDENT, 
          FAMILY FOREST FOUNDATION, ETHEL, WASHINGTON

    Mr. Fox. Thank you.
    In Washington state there are 215,000 family forest 
landowners. Although the parcel size is the average of 40 
acres, family forests account for over 20 percent of the 16 
million acres of forest land in the State of Washington. Family 
forests are working for us, managed and nurtured with the care 
and attention that only personal commitment and stewardship and 
a unique love of the land.
    Family forests generate nearly one-third of the state 
timber harvest, contributing to the economic, social and 
environmental health of the rural communities, but certain 
implications of the ESA and the failed Federal policy are 
forcing small landowners out of business.
    Congress amended the ESA in 1986 to mitigate the impacts of 
the Act by creating Section 10. Under the Habitat Conservation 
Planning process you're supposed to be able to negotiate a plan 
with U.S. Fish and Wildlife and National Marine Fishery 
Services to provide for the economic viability of the landowner 
and the habitat species need. This has worked OK for industrial 
landowners in the State of Washington to the extent that there 
are four companies that have HCP.
    The State of Washington State Lands has an HCP and the DNR 
Forest and Fish HCP. Most of these HCPs are working well, but 
from the prospect of most family forest landowners, the HCP, 
the Forest and Fish HCP is not working very well and is not 
meeting major portions of the agreement such as developing low 
effect prescriptions, providing adequate funding for the 
forestry occurring easement, which is mitigation for the taking 
that was promised to small landowners in the agreement.
    In 1997 the Federal Government came to four small forest 
landowners and asked them to do HCPs. In 2004 I was the only 
family forest landowner out of the original four that was 
successful after six years of working with the Services and 
paying an eight-year HCP on my 45 acres of family forest. I 
have a Safe Harbor Agreement, a conservation agreement with 
assurances and a low fixed HCP.
    In 1997, shortly after the original four began their 
individual HCPs, the Services realized its small forest 
landowners were having a hard time participating and that the 
significant work load for the services, so this U.S. Fish and 
Wildlife came to Lewis County government and a small group of 
family forest Landowners in Lewis County to develop and to 
participate in a pilot program that would develop a science-
based, county-wide programmatic HCP for small landowners. It 
was a voluntary process. People that didn't want to participate 
didn't have to.
    In 2007, ten years later, after investing over $4 million 
in public and private funds and during countless meetings, 
participating in independent scientific review, the Family 
Forest Foundation in those counties submitted the Family Forest 
Habitat Conservation Plan. The response from the Services was 
to sit on the application for an additional three-and-a-half 
years before issuing a Notice of Receipt, not a Notice of 
Intent but a Notice of Receipt. I requested public comment on 
the proposal in early 2011.
    Halfway through 2012, nearly 15 years later, the process of 
the process, the Service has yet to render a written decision. 
Requests from Lewis County and the Family Forest Foundation on 
the written comments have been ignored. This is clearly a 
conflict of the intent of Section 10 of ESA.
    The recent U.S. proposal to shotgun Barred Owls to save 
endangered Spotted Owl cousins defies common sense, logic and 
cross into a murky moral morass of human playing God. This full 
notion that we should and can try to shoot and control these 
species with a shotgun is ludicrous.
    Mr. Chairman, this probably has been made even worse by 
U.S. Fish and Wildlife's recent Spotted Owl designation of 
critical area habitat on 150 acres of private forest land. 
Also, with the forest land not having any harvest of the larger 
trees, we've lost our milling infrastructure and small 
landowners are now forced to grow their trees on a shorter 
rotation.
    Mr. Chairman, I'm not sure how to address this problem, but 
we're hoping that Congress can help us fix it. At a minimum I 
would like to recommend creating an accountability and 
appointing an omnibus coupled with an independent scientific 
review team, change agency culture and staff in addition to 
providing adequate fundings and combining two ESA 
responsibilities for two agencies into one.
    Thank you very much for allowing me to speak.
    The Chairman. Thank you very much, Mr. Fox. I appreciate 
your testimony.
    [The prepared statement of Mr. Fox follows:]

       Statement of Tom Fox, President, Family Forest Foundation

    Sadly, too many politicians and agency administrators are unaware 
that not all forest land is owned by an industrial company, a public 
agency, or a Native American tribe. Far from that is the truth. In 
Washington State there are over 215,000 family forest landowners that 
own nearly 20% of the state's 16.1 million acres of commercial forest 
land. Nationwide, the number is 59%. These family-owned forests are 
nurtured and managed with the care and attention that comes only with 
personal ownership and love of the land. These family forests 
contribute immensely to the economic, social and environmental health 
of local communities.
    One might logically believe that fostering the vitality and 
vibrancy of family forests would be an imperative goal of our nation's 
federal forest management policies. If in fact that is true, our 
federal forest policies of the last three decades have failed 
miserably, resulting in the endangering of jobs, forests and species.
    In this testimony I will describe 1.The failed Family Forest 
Habitat Conservation Plan (FFHCP), 2. The effects of the failed federal 
agencies policies, and 3.The effects of the failed Northwest Forest 
plan and it economic and social ramifications to the rural counties in 
which these forests are located.
    The first is an example of our federal agencies stubborn refusal to 
embrace and fully employ the processes embedded in the HCP provisions 
of the Endangered Species Act to support and incentivize ownership and 
sustainable management of family forests.
    Designating additional acres of critical habitat for the Northern 
Spotted Owl (NSO) as the U.S Fish and Wildlife suggest in their current 
public registry notice is the wrong path to follow. That type of action 
will only create disincentives for landowners to grow and maintain NSO 
or for that matter any type of species habitat. Forest land owners are 
getting weary of the federal services inability to work cooperatively 
with them, and see this current habitat designation as another 
misguided policy that will backfire causing additional species habitat 
loss across the landscape.
    Until recently, a more rational approach to species conservation 
was utilized by the Services and landowners. Under the Habitat 
Conservation Planning (HCP) process landowners and Services staff 
negotiated numerous conservation plans that allowed sustainable forest 
management while creating and maintaining species habitat.
    In 1997, the Services invited a small dedicated group of family 
forest landowners in SW Washington State to participate in developing 
an HCP on their individual forest ownership. Four family forest 
landowners stepped up to work with the services at the services 
request. I was the only family forest landowner out of the original 
four in that was successful and endured the over 6 years of working 
with the services in 2004 in obtaining a HCP for my then 144 acres of 
forest land in SW Washington. In fact I believe I am the only family 
forest landowner in the nation that has been successful in receiving a 
multi-species 80 year HCP in 2004 after working with the Services for 
over 6 years. My forest land is named the Tagshinny Tree Farm, which is 
a Gallic term that meaning ``Home of the Fox''. Our agreement includes 
a combination of a Safe Harbor Agreement (SHA) that covers the NSO, 
Candidate Conservation Agreement with Assurances (CCAA) with USFW, and 
a Low Effects HCP (LEHCP) with NOAA.
    The reasons I was determined to get my HCP was because I wanted to 
provide my family with a long term forest management plan into the 
future that provided certainty to my family. But also I and my family 
truly want to provide certainty for the species that currently did or 
could inhabit my land in the future. I didn't want to be managing my 
forest land in the fear of having ESA species on my ownership but 
rather I wanted to be able to welcome any and all species that lived or 
came on my ownership. I had seen the ESA listing in the 1990's when the 
NSO was listed and how it had affected the psyche of forest landowners 
by driving them to ``Manage by Fear''. Fear that a species would 
inhabit their property and that their property and investment would 
become worthless. Also fear that if they created and providing habit 
for ESA listed species on their property they would be punished for 
doing the right thing.
    My children as many other forest land owner's children have been 
discouraged by what they see as a very negative image of being a forest 
landowner that continues to be betrayed by many out of touch 
environmental organizations. The continued lies and miss-truths that 
those groups have and continue to spread have poisoned future 
generations minds. The continual misrepresentation of forest landowners 
has twisted the truth to a point where many heirs don't want anything 
to do with forest ownership as they have been brainwashed that growing 
and then harvesting trees in a sustainable manner is a bad thing.
    In 1997 after the four original forest landowners in Lewis County 
Washington stepped up to work with the Services it quickly became 
apparent to the Services that they didn't have the staff or ability to 
take on the HCP planning process on a one on one bases with family 
forest landowners. So the Services suggested that the Family Forest 
Foundation (FFF), Lewis County government work with the services and 
the family forest landowner in that county to develop a County wide 
programmatic HCP. The concept was that Lewis County would be the 
permittee of the HCP and willing landowners would be included into the 
plan with the use of a certificate of inclusion. Landowner 
participation into the HCP would be on a volunteer basis and those 
landowners that were not interested in participating would simply 
continue to follow the current set of rules and regulation that they 
were already following. The Forest and Fish agreement which is the 
state wide HCP that was implemented in 2000 included a clause that 
allowed landowners that entered into HCP's to replace portions of the 
state wide HCP with their negotiated prescriptions. After investing 
over $4 million of public and private funds, enduring countless 
meetings and participating in independent scientific review processes 
the Family Forest Foundation in cooperation with Lewis County submitted 
the Family Forest Habitat Conservation Plan (FFHCP) to the Services in 
2007. After sitting on the application for nearly three and a half 
years the Services issued a Notice of Receipt (NOR) and requested 
public comment on the proposal in early 2011. Lewis County and the FFF 
have not received any communications from the services about the 
results of the NOR. Lewis county and the FFF have repeatedly requested 
copies of the NOR comments that were submitted, but the Services refuse 
to allow us copies of the written comments. How and why have the 
services been allowed to stonewall us and not provide us with that 
information? We even filed a FOIA request in an attempt to find out the 
breath of the comments submitted on the NOR but the services have only 
provided us with minimal amounts of information. The Services are 
clearly not following the intent of Section 10 of the ESA or the 
written policies of the Services as stated in the HCP Handbook. When 
and who is going to make the Services accountable? The FFHCP, if 
implemented, could provide an enormous incentive to Lewis County 
landowners to help encourage them to keep growing trees while providing 
quality species habitat across the landscape rather than develop their 
land to other nonforest uses. Family forest landowners are struggling 
to stay on the landscape and need an alternative to the ``one size fits 
all'' Forest and Fish agreement, like the customized FFHCP if they are 
to continue to keep their land in forests.
    I believe the Services are negligent in their duty by not working 
with Lewis County and willing landowners to develop the FFHCP. Rather 
they undermine and demoralize the very land owners they are charged to 
work with. Additionally the Services are negligent in their duty to the 
species by not understanding that continuing to not provide incentives 
and alternatives that the ESA is designed to provide only drives 
landowners to not manage their property for increased species habitat. 
I do believe that sustainable working forests are compatible with 
species protection but a landowner that is growing a crop for 50-70 
years needs to have some level of certainty in order to feel 
comfortable about continuing to invest in forest ownership for decades.
    Here we are almost half way through 2012 and the Services to date 
have yet to render a decision on the FFHCP. Off the record we have been 
told that there will be no more forestry HCP's for coverage of aquatic 
species on private lands in Washington State because of the state wide 
Forest and Fish HCP agreement. We were also told by the Services that 
family forest landowners don't need a HCP because we don't have any ESA 
species issues. Now we have the Services wanting to designate 
additional NSO habitat on private land. Clearly, the HCP process in 
this region is broken. It's not that the ESA has changed, but rather 
it's because the Services staff and leadership has changed and they 
have decided they don't want to do HCP's with family forest landowners 
in Washington State. They don't want to abide by the ESA as it was 
intended to be implemented. They have decided in some dark room 
somewhere that they are not going to work with landowners that are 
interested in doing HCP's. Rather the current staff and leadership have 
taken upon themselves to basically rewrite the ESA and deny what is 
rightly due willing landowner. We need new leadership in these agencies 
that will work with and not against forest landowners with voluntary 
incentive based solutions. Putting a gun to our heads demanding more of 
our forests is not going to work. When are you the Congress going to 
hold these out of control bureaucrats accountable for their actions?
    Aquatic species conservation in Region 1 (Washington, Oregon and 
Idaho) is an enigma to say the least. Salmon lead the list of species 
under protection and spend the majority of their life cycle in the 
ocean. As an example when they swim inland up the Columbia River 
regulations vary greatly depending on the direction of travel. If the 
fish swims into Washington State the regulatory rule book for aquatic 
species conservation is four inches thick. Site potential tree height 
buffers as wide as 200' protect even water that doesn't have fish but 
could in the future be potential fish habitat. If the species swims 
south into Oregon the rules are considerably less, and if the fish can 
make their way past all the dams to their home in Idaho the regulations 
are even less.
    Where is the credit for Washington forest landowners for stepping 
up and agreeing to the Forest and Fish agreement HCP? The riparian 
buffers that are being left along all the streams in Washington State 
in perpetuity should be considered as available habitat for the NSO. 
Washington's agreement is called the ``Forest and Fish Agreement'' and 
as such does and will forever provide habitat for many upland species 
and should be part of the equation when calculating future available 
habitat for the NSO.
    In the last 12 years since the NW Forest Plan (NWFP) implementation 
the Forest Service has done a dismal job of meeting their allowable cut 
goals of the plan only producing 2% of what was agreed to in the NWFP. 
Continued pressure and threat of lawsuits from out of touch enviro 
groups have paralyzed the Forest Service. Comparing the Washington 
State DNR state lands average return of almost $400 per thousand board 
feet to the Forest Service's average return to the US Treasury of less 
than $10 per thousand board feet, one has to conclude that Forest 
Service management has been a disaster. As a result of the Forest 
Service's inability to harvest the timber that they should be 
harvesting the large log milling infrastructure of the state has been 
decimated by the lack of available timber volume. Consequently private 
forest landowners in Washington State don't have any place to sell 
their large logs. Previously, growing your timber older, larger, and 
longer was better. Better in the since that a landowner would get more 
for their logs at the mill and they could grow bigger and better 
habitat for the species. But because of the lack of milling options 
today landowners actually are penalized and get paid less for their 
larger logs. This phenomenon is driving landowners to grow their tree 
on a shorter rotation or be punished by reduced income for growing a 
longer rotation. In the past many family forest landowners enjoyed and 
were more than willing to grow their trees to 70 or 80 years of age 
creating older succession type timber. Today with the lack of large log 
milling infrastructure the incentive to grow timber on a longer 
rotation has disappeared.
    From the perspective of private forestland owners, federally driven 
constraints on management of forests both private and government 
controlled has been a dismal failure. Evidence the serious increase in 
mill closures since 1990 reported by Ehinger and Associates. Mill 
closures have mostly been caused by drastically reduced National Forest 
timber sales due to the listing of the NSO. With this precipitous drop 
in milling infrastructure thousands of jobs have been lost and the NSO 
has not been recovering in numbers or increased its range.
    Private forest landowners have been forced to stop growing what 
could have been ideal NSO forest habitat. Large log sawmills are 
closing and the forest industry has had to retool to cut smaller, more 
uniform saw logs to remain competitive in the global marketplace. The 
loss of a sustainable supply of large saw logs from USFS lands forced 
the milling industry to adapt to milling only smaller logs; logs which 
come from smaller trees, younger forests. These younger forests, 
smaller trees, and reduced NSO habitat are then a direct result of the 
failure of the NSO Recovery Plan!! Evidence all of the habitat 
destruction caused by stand replacement wildfire that has occurred on 
USFS lands since 1990. Evidence the Arizona and Colorado wildfires 
burning out of control today, May 2012! Forests are dynamic and ever 
changing; so by them setting aside or ``preserving them in perpetuity'' 
does not guarantee the `banking' of that habitat.
    By restricting USNF timber sales of large logs, in a misdirected 
attempt to save the owl, the government agencies have actually reduced 
the available acreage of potential NSO habitat except on Habitat 
Conservation Plan (HCP) Lands.
    Over time the cumulative effects of increasing regulatory 
constraints on forest management reduce yield and the incentive for 
private forest landowners to continue providing the goods and services 
society has come to expect from them (clean air, water, wood products, 
tax receipts, etc.) Private forestlands in the United States exist in 
our capitalist, democratic country because of the rights bestowed us in 
our US Constitution. The incentive to profit from the production of 
forest products is what drives investment in forestland. This is the 
American way!
    If the profit motive is taken away by the piling on of more and 
more regulations, ultimately these ever increasing constraints will 
eventually render forest management uneconomic and these forestlands 
will be converted to other uses that provide greater economic 
opportunity. These alternative uses normally degrade wildlife habitat 
quality from that provided by managed forests.
    There are ways to overcome these blunders.
        <bullet>  Promote HCP's; individual or programmatic (provide 
        fast track templates)
        <bullet>  Include economic analysis of costs in terms of 
        harvest yields and other costs
        <bullet>  Mitigate these losses and compensate for government 
        takings of private property
        <bullet>  Minimize constraints on private lands
        <bullet>  Promote incentives to provide habitat
    Below is information that shows the impact on Washington's working 
forest and was derived from the State Wide Data Base. In summary the 
information below shows that there are currently a total of 1,615 
landowners that own 10 acres or more that would be affected by the 
additional 150,000 acres of habitat that USFW is currently proposing. 
The economic effects, in an already dismal employment picture, of 
increasing the critical habitat designation will be the further 
crippling of already struggling rural counties.

[GRAPHIC] [TIFF OMITTED] 74531.001

[GRAPHIC] [TIFF OMITTED] 74531.002


    .epsFor every 1,000 acres of working forest 12 jobs are supported 
paying $523,000 in wages and $19,000 in taxes and fees, annually.
    After the proposed exclusions of HCPs and other federal agreements, 
nearly 150,000 acres of privately owned land remains within the federal 
critical habitat designation in Washington State.
        <bullet>  150,000 acres of working forests supports 1,800 jobs.
        <bullet>  150,000 acres of working forests impacts 1,615 
        landowners.
        <bullet>  150,000 acres of working forests produces $2.1 
        million in annual sales
        [GRAPHIC] [TIFF OMITTED] 74531.003
        
    .epsThe premise underlying the Services decision to shoot sea lions 
to save salmon was shaky at best. The more recent decision to shotgun 
barred owls to save its endangered spotted owl cousin defies common 
sense, logic and crosses into a murky moral morass where humans attempt 
to play god and choose which cousin shall survive. So what about the 
fact that spotted owls and barred owls are now cross breeding. How will 
the services shooters know if it's a spotted, barred or spard owl. This 
whole notion that we can control these species with a shot gun is 
ridiculous.
    Natural resource agency consolidation needs to be a top priority of 
the Congress. Negotiating a HCP with two different agencies with two 
different policies is mind boggling. All they do is point fingers at 
each other and won't cooperate with you or each other. I believe the 
Congress should cut their budgets, consolidate agencies and develop an 
all lands approach to species conservation!
    If we can't accomplish some major changes to the current system 
then we can look forward to a future where the nights are spent shot 
gunning innocent barred owls and we can watch the further fragmentation 
of family forest habitat by day.
    Scientific efforts in political processes have taken a beating. We 
clearly lack processes where by the preponderance of scientific 
information can move forward while acknowledging dissenting opinions in 
a transparent manner. Instead scientific approaches fail in stakeholder 
processes built on consensus models where political posturing is 
confused for scientific debate and progress is measured in years and 
strict adherence to protocol. The effect of this confusion is never 
more evident that in the Interdisciplinary Team review process 
currently utilized in the implementation our State's Forest Practices 
HCP. This costly and ungainly process entails representatives from 
USFWS, NOAA Fisheries, Ecology, Washington Department of Fish and 
Wildlife, affected Tribes and is spearheaded by the Department of 
Natural Resources Forest Practices forester. Any deviation from the 
current Forest Practice rule requires a visit from and ID team to 
determine whether or not the proposed deviation provides ``equivalent 
function'' to the current rule. These determinations often mire down in 
agency infighting over whose fish is the best fish etc., and rarely 
improve the proposed forest practice while spending thousands of scare 
resource dollars per visit.
    The time for regulation by committee has passed. We simply cannot 
afford this sort of agency redundancy in order for our regulatory 
system to function correctly. Forest practice foresters are highly 
qualified individuals well equipped to make functional determinations 
in the field. If additional resources are needed to make such 
determinations then field foresters can reach out to qualified resource 
professionals on a case by case basis.
    Federal critical habitat designation is the wrong conservation 
mechanism for private forestlands. Washington's private forests are the 
economic engine of the forest industry. You need to remove federal 
critical habitat designation on private working forest lands; 
otherwise, we will destroy the very landowners that should be 
encouraged to stay on the landscape. If the landowner and working 
forests become extinct none of the species will survive.
                                 ______
                                 
    The Chairman. Next we'll call on Dr. Hal Salwasser, Dean of 
the College of Forestry at Oregon State University, and let me 
explain why you are speaking this way. You will notice a little 
bit of an accident and there's some question on what the 
accident was. Some of your friends said it was other activity. 
You said you fell, so we'll take your word for it. At any rate, 
you are recognized for five minutes.

STATEMENT OF HAL SALWASSER, PH.D., CHERYL RAMBERG AND ALLYN C. 
   FORD DEAN, COLLEGE OF FORESTRY, OREGON STATE UNIVERSITY, 
                       CORVALLIS, OREGON

    Dr. Salwasser. Thank you, Chairman Hastings and 
Representative Herrera Beutler. I'm Hal Salwasser. I'm 
testifying here today as a private citizen. I have almost 20 
years of experience, starting as a wildlife ecologist in 
California and culminating as a senior executive in the 
Washington office, the Northern Rockies and California. For the 
past three decades I've been engaged with an agency trying to 
change in response to changing societal values and science.
    If I were to give what I have to say today a title it would 
be Restoring Federal Forests for Prosperity in the American 
West. In my brief time I'm going to touch on four things that 
are expanded upon in my written testimony. The first is the 
Grand Societal Resource Challenge--Meeting the needs of 30 
percent more people by mid-century with no more land or water 
than we have now and probably less access to fossil 
hydrocarbon. The Economist call this the 9 Billion People 
Challenge. It translates here in the Pacific Northwest to 30 
percent more people in the Nation to 30 percent and global with 
30 percent.
    The second is the problem in the west. Western Federal 
forest lands no longer make significant contributions to the 
grand challenge for natural resources at any geographic scale. 
They no longer serve their statutory purposes. They're becoming 
a substantial liability to the states, their rural communities 
and American taxpayers and they are now a growing threat to 
adjoining landowners due to vulnerability, to fire, insects and 
disease.
    Third thing is the inadequacy of current legislative 
approaches. While well intended, recent legislative proposals 
do not address the larger problems of statutory dissonance, 
governance dysfunction and long-term sustainability of new 
directions. The trees keep growing and dying, victims of client 
change, invasive species, uncharacteristic fire, insects and 
insufficient funds or social license to change course.
    My last theme is Options Forward. Sooner or later society 
has to confront the consequences of Federal forest land 
management dysfunction, declining land, rising health costs, 
poverty stricken rural America, hanging on through Federal 
payments because the Nation refuses to empower the responsible 
agencies to sustainably use public lands and their natural 
resources to generate wealth and jobs while improving 
environmental benefits. Meanwhile, the nation's dependence on 
foreign natural resources increases, so it's past time to try 
some novel grand experiments.
    And here are some that are being talked about right now: 
The first is technical and managerial, and the examples are the 
pilots being done on Oregon and California lands in southern 
Oregon, the Johnson Franklin ecological restoration project. 
The problem with these is that they don't address the 
fundamental ill, the lack of clarity on a mission.
    There are also some discussions about changes in 
governance. Dan Kemmis, for example, suggests local 
collaboratives, but it's going to take Cabinet or Congressional 
level authority to make those work. Several people have 
suggested a Presidential commission with broad authority to 
suggest maybe changes in policy. In my view that would merely 
kick the can down the road. What is necessary is congressional 
clarification of the statutory purposes and clear roadblocks to 
effectiveness. The core issue is not failed Federal forest 
policies, nor is it failing Federal agency. It's failure of 
Federal forest laws to address the environmental economic and 
community aspirations of western states.
    The last is to transfer the alliance to somebody else to 
manage without the current Federal policy hurdles. Oregon 
congressional delegation has proposed transferring some of the 
BLM lands to a trust. Others have suggested to transfer them 
back to the original stewards, the tribes, who have the 
capacity in many places and can provide the kind of protection 
and integrated management that meets their needs as well as 
other people.
    Thank you for this opportunity to testify and I look 
forward to further discussions.
    The Chairman. Thank you very much, Dr. Salwasser.
    [The prepared statement of Dr. Salwasser follows:]

  Statement of Hal Salwasser, Cheryl Ramberg and Allyn C. Ford Dean, 
              College of Forestry, Oregon State University

    Mr. Chairman and Members of the Committee:
    I am Hal Salwasser, Cheryl Ramberg and Allyn C. Ford Dean of the 
College of Forestry at Oregon State University. I testify today as a 
private citizen, with over 20 years of experience with the US Forest 
Service, starting as a wildlife ecologist in California and culminating 
as a Senior Executive. I was the Director of New Perspectives and 
Ecosystem Management in the Washington Office, Regional Forester in the 
Northern Region and Director of the Pacific Southwest Research Station 
in California. In my latter two roles I provided executive guidance to 
the Interior Columbia Basin Ecosystem Management Project and the 
Framework for Revising National Forest Plans in the Sierra Nevada. 
During the first decade of the 21st century, I served on the National 
Commission on Science for Sustainable Forestry and was chair from 2003-
2005. I have been Dean at OSU since 2000.
    For the past three decades I have been engaged with an agency 
trying to change in response to changing societal values and science, 
first as one of its leaders and later as a concerned colleague and 
citizen. If I were to give what I have to say today a title it would be 
this:
Restoring Federal Forests for Prosperity in the American West
    In my brief time here I will talk about four themes that, in my 
experience are relevant to your task:
    The Grand Societal Resource Challenge--Meeting the needs of 30% 
more people by mid-century with no more land or water than we have now 
and perhaps less access to fossil hydrocarbon: the 9 Billion People 
Challenge (30% more in PNW, 30% more in US, 30% more in world).
    The Problem in the West--Western federal forestlands no longer make 
significant contributions to the grand challenge for natural resources; 
they no longer serve their statutory purposes; they are becoming a 
substantial liability to the states, their rural communities and 
American taxpayers; and they are a growing threat to adjoining 
landowners due to vulnerability to fire, insects and disease.
    The Inadequacy of Current Legislative Approaches--While well 
intended, recent legislative proposals do not address larger problems 
of statutory dissonance, governance dysfunction, and long-term 
sustainability of new directions. The trees just keep growing and 
dying, victims of climate change, invasive species, uncharacteristic 
wildfires, insect outbreaks and insufficient funds or social license to 
change course.
    Options Forward--Sooner or later society must confront the 
consequences of federal forestland management dysfunction, e.g., 
declining land health, rising costs, a poverty stricken rural America 
hanging on through federal payments because the nation refuses to 
empower the responsible agencies to sustainably use public lands and 
their natural resources to generate wealth and jobs while improving 
environmental benefits. Meanwhile the nation's dependence on foreign 
natural resources increases. It is past time to try some novel grand 
``experiments.'' The following are among those suggested:
        <bullet>  Technical/managerial, e.g., Franklin/Johnson, 
        ecological restoration emphasis; but this will not address 
        underlying problem of lack of clarity on agency mission
        <bullet>  Governance, e.g., Kemmis, local collaborative; but it 
        will take Secretary or Congressional authorization
        <bullet>  Presidential Commission with broad authority to 
        suggest major change in policy (like the recent Entitlements/
        Deficits Commission); to me this just kicks the can down the 
        road;
        <bullet>  Congressional clarification of the statutory purposes 
        and to clear roadblocks to effectiveness; the core issue here 
        is not failed federal forest policies, not is it failing 
        federal forest agencies. It is the failure of a suite of 
        federal laws to address the environmental, economic and 
        community aspirations of those whose lives are so deeply 
        affected by what happens on federal forests. Only Congressional 
        action can fix this.
        <bullet>  Transfer the lands to someone else to manage without 
        current federal policy hurdles, e.g., land trust or tribes with 
        capacity--the original stewards, or at minimum charter as 
        appropriate to provide anchor forests for protection of tribal 
        forest values; this is a slippery slope that once started could 
        end up with divestiture of federal lands outside 
        Congressionally designated Wilderness Areas, National 
        Monuments, and Wild and Scenic Rivers.
Context: The 9 Billion Challenge
    We live in a world that has twice as many humans as when I was a 
kid; I am 66. We humans consume more space and resources and produce 
more pollutants than many ecosystems can sustain over the long term. To 
support this many people has required re-plumbing river systems, 
massive conversion of forests, woodlands and grasslands to agriculture, 
development of hard infrastructure, depletion of marine resources, and 
exhaustive mining of minerals and hydrocarbons. In the US, we thrive 
off the material production of others, often in exploitive ways. And, 
we tolerate a widening gap between the truly wealthy and the truly 
poor, a social justice problem that belies our rhetoric about equality. 
We are clearly not on a sustainable trajectory, let alone poised to 
handle 9-10 billion humans. But that is only the dark side. How about 
the upside?
    Most humans now live longer. Most are healthier. Many are better 
educated. We have not exhausted all renewable natural resources due to 
sustainable, science-informed professional management. These statements 
are not true for all people or resources, but things are better in many 
ways than just 50 years ago. In other words, things are not as bad as 
they might have been. So, where do forest management and forest and 
other natural resource professionals fit in this complex picture?
    Those now in their 20s and early 30s will be asked to meet the 
needs of 30% more people before their careers are over; as The 
Economist put it last year, addressing the 9 billion people question. 
They will be expected to do this with no more forested land than now 
exists, perhaps even with less. Using much of that land to grow a 
renewable material and provide substantial ecosystem service benefits 
in economically feasible and socially acceptable ways will be critical 
to future human well-being. Meeting the challenge will require highly 
skilled and motivated professionals. Producing these individuals and 
the discoveries that will help them be successful is our business at 
America's Land Grant Universities.
    But merely meeting the material needs of a growing human 
population, while necessary, will not be sufficient. Social and 
environmental justice must be part of the future to prevent societies 
from tearing themselves asunder, just as we see today where those needs 
are lacking. Future industrialized societies must also transition from 
a hydrocarbon-dependent economy to a carbohydrate-augmented economy, 
and not just in what we eat, wear and how we travel. Wood and cellulose 
will be major factors in that transition. So will optimizing every acre 
of forest for its best service to society, not every acre for wood but 
more than we currently employ in the U.S. Optimally all forests, local 
to global, should have science-informed, owner-values based 
professional management. That will not come from those who believe 
forests should be managed only for wood or those who believe they 
should be left to nature. The former is socially and environmentally 
unacceptable in our nation and in many others and the latter option 
disappeared with population growth and affluence enabled by the advent 
of agriculture 10,000 years ago, though some still live in denial of 
the reality of what it takes to support so many people on planet earth.
    So, why focus on western U.S. federal forests? They are not 
industrial forests, where wood production takes precedence in desired 
outcomes. A major reason is they dominate the Western forest scene and 
they no longer play productive roles for meeting the grand societal 
challenges of the 21st century at any geographic scale from local to 
global. Further, what happens on federal forests affects others in more 
ways than many people think. I suspect few urbanites realize the 
conditions of ``their'' federal forests threaten other nearby 
landowners and communities and that lack of management is the reason.
The Western Federal Forest Case
    Western states have lived with federal management of almost half to 
nearly all their forestland estate for over 100 years. Those forests 
have shaped much of what Westerners and others think about forestry and 
their states, not all, of course, but much. Federal forests have always 
been the West's preeminent watersheds; this will continue far into the 
future. They also are and will continue to be some of the West's 
richest habitats for native plants and animals, prominent among them 
Douglas-fir, ponderosa pine, aspen, oaks, trout, salmon, elk, deer, 
bears and an occasional owl or wolf.
    Over time, federal forests have lost a few native species, such as 
grizzlies and gray wolves which are now returning to a small part of 
their original range and they have become significant recreation and 
tourism assets. For a brief interlude, from around 1950-1990, Western 
federal forests delivered nearly a quarter of the nation's softwood 
lumber and panel production, and they supported hundreds of local rural 
communities and hundreds of thousands of jobs related to forest 
resources, significant sources for rural community vitality and 
prosperity and, because wood products are in traded sector economies, 
urban ones as well.
    Many, but not all, of the economic, environmental and community 
benefits from federal forests remain; timber supply and its associated 
jobs and wealth creation are greatly reduced. But now, due to lack of 
sustainable wealth creation from renewable resources, rising costs of 
fire management, threats to private, state and tribal forests from 
wildfires and insect and pest outbreaks and loss of wood processing 
infrastructure, federal forests are becoming a substantial liability to 
rural communities, western states, American taxpayers, and, in many 
places, non-federal timberlands. These are all unintended consequences 
of how environmental laws suited to the 1970s are interpreted and 
implemented, most notably the Endangered Species Act and the Clean 
Water Act.
    The current costs of holding federal forests as a government 
managed public trust far exceed the revenues generated, and expenses 
related to fire management exceed all other investment needs. This was 
not always the case. Who pays the bills? Every American taxpayer does. 
Who bears the impacts? Mostly local people and communities in areas 
near the forests and throughout the west. This is hardly an equitable 
condition and certainly out of alignment with the social contract 
between urban and rural America that began eroding in the 1980s. 
Counties across the west are left begging for a federal transfer of 
wealth in lieu of revenues from sustainable economic activities on 
federal forests and they do not get federal timber-related jobs and 
indirect businesses with their check. Continuing the check it is not a 
path to prosperity; it is merely a bridge from the past to, well, 
where? Meanwhile, the trees keep growing and, in fire-prone forests 
dying, victims of climate change, invasive species, uncharacteristic 
wildfires, insect outbreaks and insufficient funds or social license to 
change course. I am not the first or only person to point this out.
    Western federal forests are simply not sustainable on their current 
trajectory; they are not ecologically, economically or socially 
sustainable. Absent course correction, the situation will only worsen, 
leaving political leaders at national, state and local levels literally 
hamstrung for viable options, to wit, the suggestion by some that we 
can thin our way to economic vitality or sustainability. To me we, as a 
society, are ignoring the fundamental issue: What is/are the purpose(s) 
of lands held and managed in the public trust by agencies of the 
federal government? Marion Clawson wrote a still relevant book on this 
in 1975: Forests for Whom and for What. That is still the question.
    Very few people want to see species go extinct or water quality to 
decline. So, any path forward must guard against those outcomes and the 
latter will prove more feasible than the former. Declining political 
support for the federal check in lieu of wealth creation from federal 
forests shows that very few people support such a wealth transfer. So, 
any path forward must deal with this issue as well. Thus, the critical 
policy question must be: Are there ways to sustain/restore resilient 
federal land ecosystems that deliver desired environmental, economic 
and social benefits to society with less impact to economies and 
communities than current approaches? If so, would laws need to be 
changed? Yes and yes.
    Let's drop back to what Congress has said are the original purposes 
for federal forests. Three laws define the purpose(s) for national 
forests (Organic Act of 1891, Multiple-Use, Sustained-Yield Act of 
1960, and National Forest Management Act 1976 amendment to the 
Renewable Resources Planning Act of 1974), two for Public Lands (BLM) 
(Oregon and California Lands Act of 1936 and Forest and Rangeland 
Policy and Management Act of 1976). Other laws have overlaid purposes 
not meshed with these organic statutes: Endangered Species Act of 1973 
as amended (ESA), Clean Water Act (CWA), and Clean Air Act (CAA). Equal 
Access to Justice Act (EAJA) and Administrative Procedures Act (APA) 
give activist groups essentially a free ride to use those other laws to 
subvert the statutory purposes of federal forests, with taxpayers 
paying their bills.
    Pioneering conservation leaders of the late 1800s and early 1900s 
championed federal land tenure to promote protection and conservation 
of wild places, wild life and waterways and the shared, sustainable, 
ethical and productive uses of natural resources. There was tension in 
the balance among these purposes from the very beginning of federal 
land tenure and aggravated distortions appeared post World War II as 
the nation increasingly relied on federal forests for its home 
construction boom. The distortion now is the false notion that not 
managing forests for some wealth creation is a form of protection. In 
our nation's current financial situation it is actually a path to 
degradation of a once prime asset.
    Our current framework of resource and environmental policies, 
suited to and based on 1960s issues, and science are simply not working 
for 21st century challenges. Nor are they reflective of current 
scientific understandings of ecosystem dynamics and resilience. Perhaps 
it is time for a big Forest Policy Rummage Sale. Before a rummage sale, 
you sort through the ``stuff'' in your attic to rediscover the 
treasures you want to keep and identify the junk you want to jettison. 
Along the evolutionary course of conservation on federal forests 
several ``grand experiments'' have been, and some still are, carried 
out (though they were not thought of as experiments in the true sense). 
This is 2012, so I'll give you 12 that come to my mind. This is some of 
the stuff in the attic.
         1.  Governance by scientifically trained managers in 
        consultation with local, state and legislative leaders (1905-
        on),
         2.  Curtailment of the worst forms of domestic livestock 
        grazing and timber poaching (1905-on),
         3.  Eradication of top predators (done by 1920s),
         4.  Suppression of all wild-land fire (10 AM policy, post Big 
        Burn, 1910-on),
         5.  Development of recreation infrastructure (1920s-on),
         6.  Use of unemployed people to carry out conservation 
        projects (CCC, 1930s),
         7.  Engineering waterways for flood, irrigation and hydropower 
        control (generally 1930s-1960s),
         8.  Dedication to domestic timber supplies (1950s-1990),
         9.  Congressional creation of no-development Wilderness Areas 
        (1964-on) and agency dedication of de-facto wilderness, i.e., 
        Roadless Rule (2001-?),
        10.  Protection and conservation of at risk species (ESA 1973-
        on),
        11.  Widespread judicial enforcement of single resource 
        legislation, e.g., ESA, CWA, and CAA, at the expense of 
        multiple-use sustainability mandates, e.g., MUSY, NFMA, O&C 
        Act, and FLPMA, (mostly post 1970s) and lately
        12.  The era and euphoria of collaboration (1990s-on).
    During the course of these ``experiments'' our human population 
grew threefold and migrated from rural to urban settings, the climate 
changed, economies and technologies changed, and policies and social 
norms enabled a highly consumptive culture fed by non-domestic resource 
production. Yet, we remain saddled with laws written during an earlier 
time, based on antique science, and designed to solve yesterdays' 
challenges. Some of yesterdays' challenges are still with us and some 
or all of them may grow in magnitude. But the times are vastly 
different and new science has shown that the vitality and resilience of 
ecological, social and economic systems are ill-served by single-
species, single-industry, single-engine dominance, i.e., what we seem 
to have high-centered on with federal forest management lately as 
single-species protection is trumping all other purposes. With current 
and pending climate change it may not be possible to ``save'' species, 
one-by-one. If so, perhaps society should rethink ESA to focus on 
conserving the ecosystems, the originally stated purpose, and try to 
ensure their diversity, productivity and resilience.
    Are we, as a nation or as citizens of western states, satisfied 
with this situation? If yes, stay the course and bear the consequences. 
If not, what must we do to change course? What outcomes would we likely 
favor if options forward were put to a vote, with those most directly 
affected by the outcome given the largest number of votes, i.e., those 
living in closest proximity to federal lands? Assuming clarity of 
purposes is possible, how might we act to further those purposes? These 
questions call for more than timid legislative proposals to address 
limited technical or managerial challenges.
    The conundrum for western federal lands is not, after all is said 
and done, merely forestry, environmental or resource management 
challenges. It calls for what USFS Chief emeritus, Jack Ward Thomas and 
the National Commission for Science on Sustainable Forestry called for: 
Congressional action to clarify purposes and processes for more 
efficient and effective stewardship of some of the world's most 
remarkable natural land and resource assets. It may also call for 
experimentation beyond how forestry or other resource management is 
practiced, perhaps also experiments with more effective and equitable 
models of governance, as called for by ex-Speaker of the Montana House 
of Representatives Dan Kemmis. Or, as is currently being considered for 
some federal lands in Oregon, it may just be time to stop the 
incremental experiments and start transitioning federal lands and 
policies for those lands to states, trusts, or back into the hands of 
their original stewards. A majority of federal and perhaps even state 
political leaders appear unwilling or unable to go there at this time 
but sooner or later society must confront the consequences of federal 
forestland management dysfunction: let me repeat, declining land 
health, rising costs and a poverty stricken rural America hanging on 
through at-risk federal checks because the nation refuses to use its 
federal forest lands and resources to generate wealth and jobs. Rep. 
Hastings and Reps. DeFazio, Schrader and Walden have some proposals on 
the table. They deserve thoughtful consideration.
    Among the options forward so far are the following. Drs. Norm 
Johnson and Jerry Franklin, are championing pilot projects in fire-
prone forests on Public Lands in SW Oregon. It could be one option in 
changing course. It involves restoration of stress-resilient forests 
and structural class diversification through a combination of thinning 
and modest regeneration harvests that would produce commercially viable 
timber sales. Jobs and wealth would be created by both, though not in 
the magnitude of management activities of the mid to late 20th century. 
It is worth trying. But it may not be the only technical or managerial 
option. Their pilots do not address the fundamental underlying issues: 
lack of clarity on purpose, alignment of process to purpose, and 
governance effectiveness (though the pilots do rely on local 
collaboration). Other, well-thought proposals should also be tried, if 
someone will be bold enough to create and present them. I suggest that 
these so-called ``pilots'' not be ad hoc, anecdotal efforts; they 
should be well designed ``grand experiments'' to test ecological, 
social, managerial, and governance hypotheses.
    The current course is not a rosy path for the future of Western 
federal forest. It is certainly not focused on roles for federal lands 
on the 9 billion people question (in Oregon it is a 4 million challenge 
and in the nation it is a 500 million challenge). And it comes at a 
time when Forest Service leaders are proposing yet another new 
collaborative approach to forest planning. You may not agree with my 
assessment. Perhaps the Forest Service and BLM will find a 
collaboration pony in the pile of convoluted laws and legal precedent. 
But for me it is a sober reality check and perhaps a wake-up call. It 
is not too late to change course. It is never too late. But the longer 
we wait the greater the challenges will become and the higher the costs 
will be for future generations. Simply stated, we cannot thin our way 
to sustainability for federal forests, we cannot save single species by 
doing nothing in dynamic ecosystems, and no amount of collaboration 
will ever satisfy those who see only one purpose for federal lands, 
their purpose. So far, resistors won't let restoration happen fast 
enough, large enough or heavy enough to make much of a dent in 
disturbance vulnerability or effective governance. And if they did, one 
must ask, ok, then what? Where's the money going to come from to 
sustain mixed-use management when the federal treasury is drained every 
year by defense, health care and social security payments? Is saving 
single species even possible and would it be better for the future than 
managing for resilient, dynamic ecosystems?
Closing Thoughts
    When I was a kid my grandpa told me money doesn't grow on trees, 
you have to work to earn it. He was a mechanic. He was brilliant but he 
didn't know much about forestry. Experience has shown me he was half 
right; he got the work part right. Many, though not all, Western 
federal forests not only still have the potential to grow money, they 
have the potential to grow jobs, productive wildlife, clean water, 
happy fish and the greenest, most renewable raw material on earth. It 
is time for federal forests to re-start doing their share for the 
future well-being of our communities, states, and nation, and, yes, 
even for the health of our federal forests. From many conversations, I 
am convinced the people in our federal forest agencies would love to 
chart a more sustainable course for their future as forest stewards, as 
citizens of our communities and as contributors to addressing the 9 
billion people challenge.
    So, let's cycle back to where we started. Sustainable management of 
renewable natural resources has always been one of the keys to human 
well-being. It was and is key to all that is good about our current 
lifestyle. But staying the course in a finite world with a growing 
human population will not make the grade. We must seek continual 
improvement and change course when evidence makes the need for change 
clear. Our Endangered Species Act is not saving many species and, at 
least here in the Pacific Northwest, its social and financial costs are 
substantial. Something must change and the Congress is the only agent 
capable of meaningful change.
                                 ______
                                 
    The Chairman. Next we'll call Mr. Stephen Mealey, Vice 
President of Conserve Boone and Crockett Club.
    Mr. Mealey, you're recognized for five minutes.

 STATEMENT OF STEPHEN MEALEY, VICE PRESIDENT OF CONSERVATION, 
          BOONE AND CROCKETT CLUB, SPRINGFIELD, OREGON

    Mr. Mealey. Thank you very much, Congressman. I'm pleased 
to be here. The Boone and Crockett is the oldest hunting 
conservation organization in American, founded by Teddy 
Roosevelt in 1887. I too have a history of forest service 
management as well as state and private management.
    The Chairman. Could you pull that microphone closer to you? 
I know it's awkward sometimes. We get the full benefit that 
way.
    Mr. Mealey. Thank you.
    In the 22 years since the listing of the Northern Spotted 
Owl there are many examples of failed Federal policies--I'll 
share some today--but they're not the main problem. I'll share 
testimonies which I see as the failure in Federal laws that 
drive them. I want to give three examples of the Northwest 
Forest Plan. First of all, the effects on deer black-tailed 
deer and hunters and Oregon Department of Fish and Wildlife.
    Habitats since 1989 have declined by 90 percent, hunters by 
34 percent, and I want to read a summary of the effects of 
that. It's a powerful irony that Federal protection primarily 
for one species and its associates is undermining North 
American wildlife conservation that has restored wildlife to 
Oregon and America and is likely the most successful wildlife 
management model on earth. It is a particularly tragic irony 
since the Northwest forest in 18 years has failed to halt the 
decline in Northern Spotted Owl, indicating it's certainly an 
insufficient response to the ecological challenges of NSO 
recovery. While the costs to the Northwest Forest Plan of 
Oregon is modeled by conservation and its hundreds are 
significant and clear, the benefits for Northern Spotted Owl 
recovery, its intended purpose, remain uncertain at best.
    I want to give a couple of examples that are very specific 
and I want to say in preface that I stay in touch with the 
ranger district people, and I want to say that all the folks 
I've been in touch with are as good as they've ever been. This 
has to the Middle Fork Ranger District, the Willamette National 
Forest, and I'm going to talk quickly about two projects, the 
Jim's Creek Project and the PineGrass Project, both of which 
were planned for forest restoration in the dry oak Savanna 
ponderosa pine project of 25,000 acres.
    Jim's Creek was planned as a test, if it was successful, to 
apply to a broad area. The PineGrass Project was a restoration 
of the plantation. The simple fact is that Jim's Creek Project, 
while it had a very successful test, was precluded by a judge's 
reinstatement of survey and management standards and guidelines 
per red back bulls, and obviously there were too many bulls on 
the site for the project to go forward.
    And the PineGrass Project was precluded and planned for 
thinning. It was precluded by an extension of the revised 
Critical Habitat Rule which made it infeasible. So despite the 
revised recovery plan and the proposed revision of the Critical 
Habitat to facilitate forest restoration--in fact, in these two 
cases it actually precluded tested, ongoing projects designed 
exactly to achieve the objectives the two plans purported for 
advance.
    Let me say a quick word about Rachel Carson's and Silent 
Spring. You all know that Silent Springs was published in 1962 
and it was designed to stop things, and our whole body of 
Federal law that followed that then were patterned after the 
mentality of stopping things without ignoring the dimension of 
time to deal with the omission, that is, omitted acts, and so 
our whole body of Federal law that followed that reflected that 
same precluding mentality.
    And I just want to get to my recommendations very quick. 
The first one is that the Northwest Forest Plan has been in 
effect for 18 years with no significant external evaluation. 
I'm suggesting that it's time for Congress to ask for an 
evaluation of the Northwest Forest Plan, which would probably 
assemble a group of experienced managers as well as team 
members that wrote the plan in the first place to see if it's 
achieved its intended objectives.
    Another recommendation that I have is that for Federal 
law--you probably--I know you know, Congressman, that the 
Healthy Forest Restoration Act contains in Section 106(C)(3) a 
provision for looking at the comparative risk of action and 
inaction. There's no reason that that same provision couldn't 
be included in the Endangered Species Act and the Clean Air and 
Clean Water Act and it would extend a broader precautionary 
approach, which could be integrated simply by amending Section 
7, consultation requirements to that agency balance the impact 
to the ecosystem likely affected by the project and the short- 
and long-term effects of undertaking agency action against the 
short and long-term effects of not undertaking that action.
    In addition, I want to quote Jack Thomas, who thinks that 
it's over time now to assemble a group of folks to look at the 
whole body of Federal law and determine their function and 
dysfunction, make recommendations about how they should.
    And one final--I've got just a couple of seconds. I want to 
make a reference to Charles Darwin, who noted that individuals 
less suited to the environment are less likely to survive and 
less likely to reproduce. Individuals more suited to the 
environment are more likely to survive and more likely to 
reproduce and leave their inheritable traits to future 
generations, which produces the process of natural selection, 
and this applied to the Barred Owl. I would observe that I 
think Darwin would find it ironic and surprising that an 
informed society would fund and enforce a requirement to thwart 
such a fundamental evolutionary process by killing Barred Owls 
in the name of ecosystem preservation. At least I think he 
would likely find it another example of static versus dynamic 
management.
    Thank you.
    The Chairman. Actually, you borrowed a few seconds from Dr. 
Hal Salwasser. I'm keeping track over here.
    [The prepared statement of Mr. Mealey follows:]

    Statement of Stephen P. Mealey, Vice President of Conservation, 
                Boone and Crockett Club, Leaburg, Oregon

    Mr. Chairman and Members of the Committee:
    I am Steve Mealey, Honorary Life Member of the Boone and Crockett 
Club, and Vice President for Conservation. I am currently retired in 
Oregon. My professional career spanned 30 years and included wildlife 
(grizzly bear) research as well as management and administration for 
federal [U.S. Forest Service (USFS)], state (Idaho Department of Fish 
and Game), and private (Boise Cascade Corporation) natural resources 
based organizations. I am proud to represent the Boone and Crockett 
Club here today which was founded by Theodore Roosevelt in 1887. It is 
America's oldest hunter/conservationist organization with national 
focus. The Club's mission is to promote the conservation and management 
of wildlife, especially big game and its habitat, to preserve and 
encourage hunting and to maintain the highest ethical standards of fair 
chase and sportsmanship in North America. The Boone and Crockett Club 
has a great legacy of protecting wildlife, especially big game, as well 
as federal land habitat. It's fair to say the Club is the ``godparent'' 
of America's national forests, national parks and wildlife refuges 
having worked long, hard, and successfully for more than a century for 
their establishment, maintenance and improvement.
    I come here today to express grave concern for:
        1)  The effect of the Northwest Forest Plan (NWFP) on black-
        tailed deer and hunting and on ecosystem restoration project 
        implementation in western Oregon;
        2)  The effect on ecosystem restoration project implementation 
        of the March 2012 proposal to expand critical habitat (CH) for 
        the Northern Spotted Owl (NSO); and,
        3)  The problems associated with major federal land/regulatory 
        laws underlying the NWFP and NSO protection rules and 
        proposals.
    I'll offer some recommendations for repair.
Prelude
    In 1993, a comprehensive NWFP was initiated to end the impasse over 
management of federal forest lands in the Pacific Northwest within the 
range of the NSO. With the signing of the Northwest Forest Plan Record 
of Decision (ROD) in 1994, a framework and system of standards and 
guidelines were established to guide management of 24 million acres of 
federal forests in Oregon, Washington and northern California and 
protect the NSO listed in 1990 as a threatened species under the 
Endangered Species Act (ESA). The plan is a much less flexible version 
of its precursor, ``Option 9'', developed by the Forest Ecosystem 
Management and Assessment Team (FEMAT) led by then USFS Chief Research 
Wildlife Biologist, and later USFS Chief Jack Ward Thomas. Twenty-two 
years since listing, a Revised Recovery Plan for the NSO was issued 
June 28, 2011 which recognized ``many populations of spotted owls 
continue to decline. . .even with extensive maintenance and restoration 
of spotted owl habitat in recent years. . .it is becoming more evident 
that securing habitat alone will not recover the spotted owl. . 
.competition from the barred owl poses a significant and complex 
threat. . .''. Overall NSO numbers have been declining nearly 3%/year 
leading to an estimated 40% decline over the last 25 years. In 
February, 2012 the U.S. Fish and Wildlife Service (USFWS) announced a 
proposal identifying nearly 14,000,000 acres in Oregon, Washington and 
northern California as CH for the NSO. The proposal is a 62% increase 
over that designated in the 2008 plan.
NWFP and Deer, Elk, Hunting, and Ecosystem Restoration in Western 
        Oregon
General
    Since 1989, the year before NSO listing to present, timber harvest 
on federal forestland in western Oregon has dropped from about 3.5 
billion board feet/year to under .5 billion board feet/year, an 86% 
decline owing to the effects of environmental litigation and an 
emphasis on mature and old forest retention. Final harvest acres 
declined from nearly 100,000/year to less than 10,000/year. Creation of 
early seral (deer and elk) habitat has declined approximately 90% 
annually. In response, black-tailed deer harvest and associated hunters 
have declined dramatically. Numbers of deer hunters have dropped 34% 
from around 170,000 to about 112,000 while harvest has dropped 67% to 
around 20,000. Hunter success has declined 44% to about 18%. A similar 
trend for Roosevelt elk and related hunting is likely. Elk numbers from 
Oregon Department of Fish and Wildlife (ODFW) annual counts on the 
Willamette National Forest in the McKenzie Unit have declined to 16 in 
2012 from 114 in 2005, an 86% drop.
    This loss of early succession habitat with the sharp drop in deer 
and elk populations indicated in part by declining harvest, and 
accompanying steep declines in hunter numbers all owing to the virtual 
end of timber harvest following the listing of the NSO has been a major 
contributor to the more general problem of declining hunter 
participation in Oregon. Here, the participation rate of resident 
hunters has declined nearly 30% from about 340,000 in 1986 to around 
240,000 in 2011. Resident hunters as a percent of eligible residents 
declined about 53% to 8% in the same period. Even though Oregon's 
population has expanded by around a million during the period, the 
number of licensed resident hunters has declined in absolute numbers. 
There are similar declining trends in neighboring California and 
Washington. Nationally hunting participation also declined during the 
25 year period but only by about 5%--much less than in Oregon. 
Declining game populations and habitat combined with increased license 
fees to offset lost revenues from fewer hunters is generally seen as a 
main reason for this disturbing trend which is a clear threat to 
Oregon's and America's primary hunting heritage and legacy: the North 
American Model of Wildlife Conservation.
    The Model powered by hunters who have restored much of our nation's 
wildlife and habitat and enabled everyone who wants to--to hunt holds:
        1)  Wildlife can be owned by no individual, but is held by the 
        states in trust for all people;
        2)  Trustee states have no power to delegate trust 
        responsibilities, and;
        3)  States have an affirmative duty to fulfill their trust 
        role: take care of wildlife for the people.
    Coupled with the advocacy of sport hunters concerned with the 
dramatic declines in wildlife in the late 19th and early 20th 
Centuries, the Public Trust Doctrine, which mandates that states hold 
and manage wildlife for its citizens, is the lynchpin of the Model and 
is the legal bedrock for states to manage and regulate wildlife. 
Hunters and hunting have been the reason for the success of the Model. 
Hunters have been the main proponents of wildlife and have paid the 
bills for wildlife conservation through purchases of licenses and 
hunting equipment which have been the principal support for most state 
wildlife agencies including ODFW. Through the loss of deer and elk 
populations and habitat and the resulting loss of hunters causing 
declining license fees to ODFW and its reduced ability to carry out its 
Public Trust role, the NWFP is weakening the institution of wildlife 
management in Oregon.
    This is a powerful irony: that federal protection primarily for one 
species and its associates is undermining the North American Model of 
Wildlife Conservation that has restored wildlife to Oregon and America 
and is likely the most successful wildlife management model on earth. 
It is a particularly tragic irony since the NWFP has in 18 years failed 
to halt the decline in NSO indicating it is certainly an insufficient 
response to the ecological challenges of NSO recovery. While the costs 
of the NWFP to Oregon's Model of Wildlife Conservation and its hunters 
are significant and clear, the benefits for NSO recovery--its intended 
purpose, remain uncertain at best.
Jim's Creek Restoration Project
    While the NWFP standards and guidelines preclude most traditional 
(pre-1990) timber harvest practices, silvicultural opportunities 
including production forestry, ecological restoration and adaptive 
management are provided for in ``matrix'' and other areas in the 1994 
NWFP ROD.
    Standards and guidelines include those for ``Survey and Manage'' 
(S&M) intended to reduce or eliminate potential effects of agency 
actions on over 300 species including mosses, liverworts, fungi, 
lichens, vascular plants, slugs, snails, salamanders, great grey owl, 
and red tree voles. With some qualifications pre-disturbance surveys 
for target species are required before proposed activities can proceed. 
If evidence of a species is found (i.e. tree vole nest tree) proposed 
projects are modified to meet species management requirements 
(protection of 10 acres/Vole Habitat Area).
    The Jim's Creek Project (JCP) on the Middle Fork Ranger District, 
Willamette National Forest is a forest restoration project that has 
been planned and nearly completed. The JCP Decision Notice was signed 
in August 2006 and the project implemented through a Stewardship 
Contract in June 2008. The following were cited as primary benefits of 
the project and it's supporting Alternative:
        1.  Comprehensive and much needed ecological restoration of a 
        small part of the unique Oregon white oak/ponderosa pine 
        savanna ecosystem and gains in biodiversity;
        2.  Reduced wildfire risk;
        3.  Restored big game forage within a high emphasis Big Game 
        Management Area;
        4.  Monetary receipts for subsequent ecological restoration;
        5.  Economic values to local economies from harvest of about 10 
        million board feet of forest products;
        6.  Refugia for species associated with the oak/pine savanna.
    The JCP was seen as a small scale ``test'' to work out the 
restoration concepts and methods for subsequent application to other 
nearby oak/pine savanna landscapes critically in need of broad scale 
restoration. The project resulted in a non-significant forest plan 
amendment. While it modified and/or removed habitat or diminished its 
quality for use by NSO, the USFWS Biological Opinion found 
implementation (and effects on red tree voles as a NSO food) would not 
jeopardize the continued existence of NSO and that it could proceed. 
The project was widely supported; there were no appeals or lawsuits.
    In 2007 the USFS and the Bureau of Land Management (BLM) eliminated 
for the second time the S&M Mitigation Measure. Had this not occurred 
the JCP could not have been implemented in 2008 because of the 
abundance of red tree voles in the project area and beyond. Restoration 
of approximately 455 acres of a potential 25,000 acre landscape 
restoration project has been completed.
    On July 5, 2011 U.S. District Court Judge Coughenour issued a court 
order directing implementation of the settlement agreement restoring 
the S&M requirement. The order was implemented by the USFS July 21, 
2011. Resumption of the S&M Mitigation Measure precludes expansion of 
the JCP restoration strategy across the broader 25,000 acre Middle Fork 
Mixed Conifer Forest Type (which was an open forest type and has been 
degraded by fire suppression and tree in-growth) because of the 
abundance of red tree voles in the area (a 10 acre Habitat Area is 
protected where one or more voles are known or assumed to occur). 
Specifically, S&M measures for the red tree vole prevents 
implementation of actions needed over a 25,000 acre landscape to save 
historic Oregon white oak/ponderosa pine savannas threatened by 
encroaching Douglas fir and ultimately uncharacteristic wildfire.
    Inability to expand on the JCP success precludes reducing the risk 
of habitat loss or degradation from stand replacing wildfire over a 
broad fire-prone landscape, one of the four most important threats to 
the NSO stated in the Revised Recovery Plan (vii). Not expanding the 
JCP also contributes to the progressive loss of early forest succession 
habitat and consequent declining elk and deer numbers on the Willamette 
National Forest and other national forests in Region 6 of the USFS and 
on BLM lands and resulting lost hunting opportunity. Its loss also 
raises concerns about the likely adverse ecological effects of 
shrinking early succession habitat on other early succession dependent/
associated species including neo-tropical migratory birds, reptiles and 
amphibians. One predictable effect is reduced economic activity 
associated with less hunting and wildlife associated recreation. A 
related issue is that ODFW will likely be unable to maintain current 
herd objectives for elk and deer on federal forestland habitats in the 
Southern Willamette Watershed District because of rapidly declining 
early forest succession habitat resulting from reduced timber harvest.
    The reality of the Jim's Creek case defies common sense: 
Reinstatement of S&M for the vole, a relatively abundant ``species of 
concern'' has precluded expansion of the JCP restoration strategy while 
the JCP Biological Opinion for the NSO, a beneficiary of voles as prey, 
concluded NSO would not be jeopardized and the project could proceed.
    The Middle Fork Ranger District covers roughly 725,000 acres with 
about 60% unavailable for management because of protection reserves 
(i.e. wilderness areas, Late Succession Reserves, roadless areas, 
riparian conservation reserves, etc.). Only about 200,000 acres are 
available for active management projects such as the JCP.
    The JCP example shows clearly how the NWFP through application of 
its S&M standards and guidelines or through related litigation 
outcomes, acts as a barrier to active management of landscapes in need 
of restoration even where proposed projects occur in the < 30% of the 
District remaining for management.
    One hopeful apparent change in guidance for implementing the NWFP 
is the recognition in the Revised Recovery Plan in the section Habitat 
Conservation and Active Forest Restoration (II-10) that ``Active 
management for ecological values trades short-term negative effects for 
long-term gains. . .Collaborative management must be willing to accept 
short-term impacts and short-term risks to achieve long-term benefits 
and long-term risk reduction; overly zealous application of the 
precautionary principle often is a deliberate, conscious management 
decision to forgo long-term increases in forest health and resilience 
to avoid short-term responsibility or controversy.'' A recent paper by 
Roloff, Mealey and Bailey [Comparative hazard assessment for protected 
species in a fire-prone landscape in: Forest Ecology and Management 277 
(2012) 1-10] provides a peer reviewed process for assessing and 
comparing the short and long-term risks and benefits of management 
options. Application of such an analysis to the JCP expansion would be 
useful in determining whether to suspend the S&M Mitigation Measure and 
tree vole management requirements as a short-term risk, in deference to 
the long-term benefits of ecological restoration.
    The Jim's Creek case leads to my first recommendation:
    The NWFP has been in effect 18 years with no significant external 
evaluation of its effectiveness in achieving its goals and objectives. 
I believe it is long past time for a congressionally sanctioned 
independent review of the NWFP. One option would be to engage a highly 
respected science institution such as the National Academies in a 
review. A better option would be to request a review by a select, 
locally experienced group including past and present federal land 
managers and members of various teams-especially the lead scientists-
that would include the Interagency Scientific Committee (ISC), the 
``Gang of Four'' (Jack Ward Thomas, K. Norman Johnson, Jerry F. 
Franklin, and John Gordon) and the Forest Ecosystem Management 
Assessment Team (FEMAT).
Critical Habitat (CH) Expansion and Ecological Restoration
    March 11, 2012 the USFWS announced in a press release, a ``science 
based'' CH proposal for the NSO that revises a 2008 CH designation in 
response to a U.S. District Court order. According to the release, the 
proposal for 13, 962,449 acres of CH recommends substantially 
increasing active management of forests, consistent with ecological 
forestry principles.
PineGrass Plantation Management Project
    February 28, 2012 the Middle Fork District of the Willamette 
National Forest issued a scoping letter proposing restoration 
treatments to maintain the historic vegetative diversity within 88 
plantations totaling about 2,000 acres. The plantations with high fire 
risk are within the same 25,000 acre Middle Fork Mixed Conifer Type as 
the JCP, and were all regenerated after clearcutting 10-50 years ago. 
The purpose of the project is similar to the JCP and is designed to 
restore the forest type to its historic low density open forest 
condition. Twenty percent of the proposed treatment area was CH under 
the 2008 designation and would be managed to accelerate late forest 
conditions.
    Soon after the scoping letter was sent, the USFWS published its 
proposed rule revising CH which now would cover about 80% of the 
plantations proposed for restoration. Consultation with the USFWS on 
the proposal under the 2008 CH designation has already occurred with a 
determination that the proposal ``Would Not Likely Adversely Affect'' 
the NSO. The new rule changed the status of most of the area proposed 
for treatment and requires project modifications to develop late forest 
succession (fire-prone) conditions for NSO instead of restoring low 
fire risk open forest conditions characteristic of the type. Project 
modification to meet requirements for NSO would not meet the original 
intent of the purpose and need for the project. District personnel are 
considering reinitiating consultation on the project under the proposed 
designation but consultation is considered ``complex'' and would likely 
delay the project an ``indeterminate'' amount of time. For all intents 
and purposes the forest ecosystem restoration project appears to be on 
``long-term'' hold pending resolution of the CH proposed rule.
    While the CH proposal for the NSO purports to support and encourage 
active forest management to restore forest health, increase resilience, 
and foster diversity in fire-prone landscapes, the immediate effect in 
the case of the PineGrass Plantation Project appears to be the 
opposite.
The Problem of Major Federal Land/Regulatory Laws
Summary
        Management action and inaction or things we do and don't do 
        (acts of commission and omission), both have the potential to 
        cause serious environmental harm as well as good. On federal 
        fire-prone forests of the West, the focus of regulatory 
        environmental law has been mostly prevention of harm from 
        action. The potential for harm from inaction has largely been 
        ignored. This has contributed to the decline of the very 
        resources the laws are intended to protect. The scope of the 
        Endangered Species Act, Clean Water Act and Clean Air Act 
        should be updated and expanded to include consideration of the 
        short and long-term effects of management inaction, and 
        comparing and balancing them with short and long-term effects 
        of action. These comparative assessments would allow managers 
        to consider the full ecological contexts over space and time in 
        environmental decision-making and offer improved prospects for 
        restoring and sustaining resources.
    There are clear shortcomings in the federal forest policies 
discussed above; importantly however they appear to reflect those of 
the driving federal land and regulatory laws. Those difficulties are 
well known and discussed, most recently by Jack Ward Thomas in his 
article in the fall 2011 Boone and Crockett Club publication Fair Chase 
titled The Future of the National Forests; Who Will Answer an Uncertain 
Trumpet? In it Thomas writes ``Each of those [federal land/regulatory 
laws: i.e., National Forest Management Act (NFMA), Endangered Species 
Act (ESA), National Environmental Policy Act (NEPA), Clean Water Act 
(CWA), etc.] must have seemed a good idea in the context of time and 
circumstances. Yet in totality and considering interactions that 
evolved (especially as variously interpreted by the courts) they formed 
the threads of a now intractable Gordian knot (an intricate problem 
insoluble in its own terms) rendering national forest planning and 
management ever more costly and ineffective.''
    Donald Floyd and others elaborated the problem of overlapping and 
interacting federal land use laws in a 1999 Society of American 
Foresters booklet Forest of Discord; and the American Wildlife 
Conservation Partners a federation of hunting/conservation 
organizations recommended to President Bush in 2001 in their Wildlife 
for the 21st Century, Volume I, Recommendation to President George W. 
Bush that he initiate an assessment of federal land laws to identify 
legal and regulatory problems contributing to federal land management 
``gridlock''.
Context: Rachel Carson's Silent Spring
    There is important context for the ``federal land/regulatory law'' 
problem. The American Ecology Hall of Fame states: ``In 1992, a panel 
of distinguished Americans declared Rachel Carson's 1962 Silent Spring 
the most influential book of the past 50 years. Many argue that Silent 
Spring was instrumental in launching the American environmental 
movement. Passage of NEPA in 1969 and establishment of the CEQ and EPA 
in 1970 can be attributed to the environmental awareness that Carson 
raised. Soon after NEPA, the Clean Air Act (CAA) of 1970, the CWA of 
1972, and the ESA of 1973 were all passed, all traceable to the spirit 
of environmental awareness and concern raised by Rachel Carson.
    Common to Silent Spring and the federal regulatory laws that 
followed, was concern for documenting and reducing environmental harm 
man was causing through development actions. Environmental regulation 
focused on proposals for major actions (acts of commission), their 
environmental impacts, their adverse effects, and standards or 
alternatives to prevent or mitigate adverse effects. Most regulatory 
attention, especially related to fire-prone forests of the West, has 
been on preventing short-term adverse effects of fuels treatment 
proposals with little attention to the short or long-term consequences 
of inaction (acts of omission). The applicable theory in regulatory 
law, regulations and their implementation appears to be that 
significant environmental risks result from committed acts rather than 
from their omission. Analyses supporting the theory continue to be 
lacking.
    Jack Ward Thomas, while addressing a conference in October, 2002 in 
Bend, Oregon entitled ``Fire in Oregon's Forests'' commented on the 
problem of ``dynamic vs. static management'' in fire influenced 
landscapes covered by the NWFP. Thomas noted that the combined effect 
of the environmental laws of the 1970s, especially the ESA, was the 
predominant use of preservationist strategies defined as static or 
``hands off'' management to protect listed species (and water quality). 
He observed that reliance on static management minimizing immediate 
risks of activities has been routinely reinforced by federal court 
decisions that favor preservation. Thomas concluded that serious 
problems with static, near-term risk averse management are emerging 
because ecosystems are dynamic and change is constant in preserves. In 
fire-prone forests, unabated fuel accumulation leads to 
uncharacteristic wildfires that can ultimately harm listed species and 
water quality. Thomas saw these long-term effects of management 
inaction as either ignored or downplayed.
    In the 50 years between Silent Spring and ``static vs. dynamic 
management'' how could laws intended to protect the environment, 
actually put environmental assets at risk in fire prone forests of the 
West? A look at the precautionary nature of the ESA, and by inference 
the CWA and CAA, is instructive.
    The ESA takes a strong but narrowly defined precautionary approach 
in the face of uncertainty about risk to species. It focuses on and 
seeks to prevent ``take'' by prohibiting mainly near-term potential 
and/or uncertain harm or risks. In consultations, proponents must 
demonstrate proposals would not be harmful regardless of timeframe, 
apparently dismissing ecological change over time. The ESA and its 
application do not commonly distinguish the time dimension of risk: 
i.e., that some short-term risks to species can result in longer term 
benefits to those same species, or that short-term risk avoidance can 
lead to long-term increased risk. Rather than documenting mainly actual 
or probable risks or comparing and balancing the short and long-term 
risks and benefits of proposals and then regulating, the law takes a 
more narrow precautionary approach. In summary, the ESA compels 
regulating where any risks are believed to be likely.
    This restrictive precautionary philosophy is apparent in the 
definitions in the 1998 Consultation Handbook that governs Section 7 
consultations. The phrase ``Is Likely to Adversely Affect'' is defined 
as the appropriate finding if any adverse effect to species may occur. 
Any immediate non-beneficial, measurable effect with any possibility of 
harm, regardless of magnitude and regardless of potential offsetting 
longer term benefits is ``Likely to Adversely Affect'' the species. 
Such a finding triggers a formal and usually expensive and time 
consuming process to determine jeopardy or how to avoid it by making 
modifications to the project. To avoid the process, proponents must 
propose projects with no immediate risk. In fire-prone forests, this 
often excludes projects with long-term benefits to listed species. 
Inability to reduce fuels in fire prone forests occupied by NSO only to 
see the trees in those forests killed by intense fire and the resulting 
vegetation return to brushland, unsuitable for owls, is a case in 
point.
NWFP and NSO Recovery
    In 2002, regulating agencies issued a policy that ESA Section 7 
consultations should balance the ``long term benefits of fuel treatment 
projects''. . .``against any short or long-term adverse effects.'' It 
is a hopeful sign that the 2011 Revised NSO Recovery Plan now reflects 
this direction. There is no clear evidence however that management 
agencies have responded by routinely completing comparative ecological 
risk/hazard assessments, comparing the short and long-term effects of 
proposals with the short and long-term effects of their absence, as 
part of the consultation process.
    In the absence of such analysis, regulating agencies often appear 
to ``default'' to the highly precautionary conclusion that any short-
term adverse effects are harmful and should be avoided. In summary, in 
fire prone forests of the West, especially lands under the NWFP, 
precaution in the ESA is most often narrowly applied to acts of 
commission: management is discouraged unless there is certainty that no 
immediate harm will result, ignoring without inquiry the potential harm 
from omitted acts.
    When the USFWS completed its status review of the NSO in November 
2004, uncharacteristic wildfire was found to be the greatest cause of 
habitat loss during the nine year review period. Uncharacteristic 
wildfire remains a major cause of NSO habitat loss today. Jack Ward 
Thomas, when reviewing implementation of the NWFP in northern 
California in 2003, found that the restrictive application of the 
precautionary principle in the NWFP had increased the risk of fire and 
the risk to NSO by discouraging management to mitigate fire risks to 
NSO and their habitat. The USFS identified ESA requirements for 
consultation as a main reason for Thomas's findings. Differences with 
regulators over the importance of short-term adverse impacts versus the 
longer term benefits of treatments were a big factor. The USFS 
acknowledged designing projects to align with the risk averse 
philosophy to reach a ``Not Likely to Adversely Affect'' conclusion and 
avoid formal consultation. This often eliminated projects that had 
long-term benefits for owls and fish resulting from reduced fire risk 
in Late Succession Reserves and in riparian areas, but also had some 
near-term adverse effects.
    Highly restrictive precaution embedded in standards and guidelines 
as those for S&M has been a barrier to restoration management to reduce 
fire risk and an obstacle to achieving conservation goals. This calls 
into question the evolved practice in the West of attempting to 
maintain essentially ``static'' unmanaged conservation reserves in 
dynamic fire prone forests. Recent assessments of uncharacteristic 
wildfire risks indicate that the absence of active management to 
mitigate fire risks in such areas may be the greater risk to vulnerable 
species. Ironically, continuation of highly restrictive precautionary 
principle driven, short-term risk averse protection measures will 
likely lead to the continued deterioration of the very resources the 
environmental laws were intended to protect.
    ESA case law resulting from NWFP litigation (i.e. Case No. 03-
35279, Gifford Pinchot Task Force v. USFWS) has generally reinforced 
the precautionary features of the ESA and the requirement that 
regulators implementing the act be averse to short-term risk in 
decision-making (an exception is a May 2011 decision by the 9th Circuit 
upholding the Sierra Nevada Forest Plan and stating ``it is the 
prerogative of the Forest Service to determine that long-term effects. 
. .remain desirable despite short-term harm''.). This essentially 
``locks in'' an incomplete legal theory: one that fails to clearly and 
specifically recognize that acts of commission and acts of omission 
together are the necessary and sufficient source of environmental risk 
and benefit. Changing and completing the theory will likely require 
refining the ESA and other overly precautionary environmental laws.
Options for Broadening Ecological Context in Law
    I acknowledge and compliment the USFWS for recognizing in the 
Revised NSO Recovery Plan that management must accept short-term 
negative effects for long-term gains. I also recognize that the 
recovery plan is a ``guidance'' document and does not regulate. Agency 
consideration of comparative short and long-term risks and benefits of 
proposals will be certain only if required in law. Such a requirement 
would also likely limit litigation which could follow agencies allowing 
short-term negative effects without a legal mandate.
    This leads to my second recommendation:
    A broader precautionary approach should be integrated in ESA by 
amending it to require in Section 7 consultations:
        1)  That agencies balance the ``impacts to the ecosystem likely 
        affected by the project, of the short and long-term effects of 
        undertaking the agency action, against the short and long-term 
        effects of not undertaking the agency action,'' as in Sec. 106 
        (c) (3) of the 2003 Healthy Forests Restoration Act; and,
        2)  That agencies consider such assessments in related 
        decision-making.
    Such language could also be incorporated into appropriate sections 
of the CWA and CAA. With this mandate there would be no need to 
``default'' to an overly restrictive application of the precautionary 
principle. Not only would the standard for precaution be broadened, but 
the ecological context of the ESA and other laws would be updated and 
expanded as well.
    America's laws regulating the environment were written mostly to 
resolve the critical environmental problems of Rachel Carson's time, 
projected forward: mainly to prevent or mitigate adverse consequences 
of acts of commission. They were necessary then and remain necessary, 
but they are insufficient for today's problems of omission, especially 
in fire-prone forests of the West, and must be amended to address them.
Cleaving the Gordian Knot
    Jack Ward Thomas, in the fall 2011 Fair Chase article offers a 
solution to the Gordian knot problem of conflicting, overlapping and 
incompatible federal land/regulatory laws with which I fully agree and 
support.
    This leads to my third recommendation:
    As suggested by Thomas, Congress or the Administration should 
select a group of knowledgeable individuals experienced in the 
management of natural resources, public land law, and administration of 
land management agencies, and charge them with developing potential 
solutions with associated benefits and costs. The task should be 
completed in a year or less. Recommendations should include focus on 
revisions of present laws, repeal of those not current or redundant, 
and new laws that clearly define the mission and expectations of the 
USFS. Land use planning should be evaluated and new sources of revenues 
explored.
A Final Note
    The Revised NSO Recovery Plan in response to ESA Listing Factor E: 
Other Natural or Manmade Factors Affecting its Continued Existence 
identifies competition from barred owls (a natural factor) as one of 
the three most important threats to NSO recovery. A major step in the 
recovery strategy is to evaluate management options to reduce the 
impact of barred owls on NSO since barred owls are seen as the ``most 
significant short-term threat to spotted owl recovery.'' The barred owl 
is included as an ``invasive'' animal species and is further described 
as more likely to be a ``generalist'' than a ``specialist'' like the 
NSO and able to adapt more successfully to a new climate than natives. 
Ten Recovery Actions are devoted to protecting NSO from barred owls 
(III-62 to III-69).
    The cornerstone of Charles Darwin's theory of evolution is the 
concept of natural selection:
        Individuals less suited to the environment are less likely to 
        survive and less likely to reproduce; individuals more suited 
        to the environment are more likely to survive and more likely 
        to reproduce and leave their inheritable traits to future 
        generations which produces the process of natural selection
    I think Darwin would find it ironic and surprising that an informed 
society would fund and enforce a requirement to thwart such a 
fundamental evolutionary process by killing barred owls in the name of 
ecosystem preservation. At least I think he would likely find it 
another example of ``static'' vs. ``dynamic'' management.
                                 ______
                                 
    The Chairman. Next we'll hear from Mr. Ken Connaughton, 
Pacific Northwest Regional Forester, U.S. Forest Service.
    Mr. Connaughton, recognize you for five minutes.

   STATEMENT OF KENT CONNAUGHTON, PACIFIC NORTHWEST REGIONAL 
        FORESTER, U.S. FOREST SERVICE, PORTLAND, OREGON

    Mr. Connaughton. Thank you, Chairman Hastings, and it's a 
pleasure to meet with you and Congresswoman Herrera Beutler. 
I'm Kent Connaughton, Regional Forester for the U.S. Forest 
Service. I'm a forester and I've been with the U.S. Forest 
Service for 33 years. My responsibilities are the 16 national 
forest units here in Oregon and Washington and the Columbia 
River Gorge National Scenic area.
    I'll begin by observing that the purpose of the United 
States Forest Service is to sustain the health, productivity 
and diversity of the nation's forests for current and future 
generations. Now, those words would mean nothing more than a 
platitude if there weren't some philosophy and execution behind 
them.
    In 2009, the Secretary of Agriculture in Portland, Oregon, 
observed that the Forest Service has to be concerned about more 
than the national forest system, must look beyond the 
boundaries of the national forest system, and take care of all 
the nation's forests. That makes sense to me. How do we go 
about doing that? One of the things I want to observe is our 
dependence upon the forest products industry, the operating 
industry and the communities in which we operate is in fact a 
very necessary condition for success in conserving the nation's 
forests.
    One of the means that we have to go about conservation is a 
current emphasis on forest restoration. We have in our 
targeting an increase in forest restoration across the national 
forest system for increase of some 20 percent in the next 
couple of years. Here's what the reality is: In the United 
States we have between 65 and 82 million acres of national 
forest that are desperately in need of some kind of restoration 
treatment.
    Whether or not it's the protection from fire, insects, 
disease or forest health purposes is that we're united in 
dedicating ourselves toward these treatments. One of the means 
to do this that is the Collaborative Forest Landscape 
Restoration Act. In this year's appropriations we have some $40 
million nationally dedicated toward execution of projects under 
the act.
    The provisions of that act require that when the program is 
administered is that we jointly configure with elements of the 
public through collaboration and local government is where 
those treatments would be placed and to what ends they would be 
dedicated. In my mind this makes very, very good sense. We have 
five of these projects in the Northwest, two are in Washington, 
three are in Oregon.
    Around the United States, with $40 million, we currently 
have 20 projects and we estimate that they provide more than 
1,500 jobs. Here in the Northwest is a proportionate fraction 
of somewhere around 130 jobs directly and probably 600 jobs 
plus when one takes into account the indirect effects.
    That is the Collaborative Forestry Restoration Act. It is 
not the only element of Forest Service programs that are 
relevant to the Northwest, but I bring it to your attention 
because it represents a seed change in terms of the philosophy 
of conservation appropriate to this nation and it makes some 
very good sense to me.
    Second is, I want to point out that we are using an 
authority that Congress has granted us and been with us for 
some time, and that is the use of Stewardship Projects. A 
Stewardship Project does what? It permits us essentially to use 
exchanged goods for services. If they're of value in a 
particular project it can be used to pay for elements of the 
project over and above what normal appropriations would do. In 
other words, it's a leveraging of congressional appropriation.
    In the Northwest, since we've had this stewardship 
authority, we've had more than 200 projects. Over the last 
couple of years, depending upon which year we're talking about, 
between 20 and 30 percent of the timber volumes in providing 
the national forest in Region 6 has come from Stewardship 
Projects. For us this means a great deal because the magnitude 
of work that needs to be done for restoration purposes is 
great, so I do want you to know about the significance of that 
stewardship for authority.
    Third that I also want you to know is that following 
procedures of National Environmental Policy Act, that by 
statute, is your Forest Service and other Federal agencies must 
follow is that we have been very interested in innovative means 
that would streamline reduced costs, such that we can get more 
work done faster.
    I'll point out some work done over more than 200 thousand 
acres in South Dakota that we are looking at closely here in 
the Northwest as a model for taking a look at forest health 
needs and restoration purposes when insects and disease 
threaten our forests. If we can in fact do our work more 
cheaply and faster, we need to do so.
    Second is that we also are interested in expansion of the 
categorical exclusions under the National Environmental Policy 
Act essentially is the Council on Environmental Quality gives 
us the authority to proceed for certain kinds of forest 
practices without going through a more elaborative process of 
evaluating environmentally fit. It makes sense to do this under 
certain conditions and the expansion of that authority is 
something that I welcome.
    And my last point is, over the last five or six years, the 
wood products industry has gone through a very, very severe 
reality check with respect to the United States' economy. 
There's been a dramatic downturn in housing. We're all familiar 
with that. And we've also got a number of other factors that--
    The Chairman. Mr. Connaughton, please wrap up--your time is 
over, so please wrap up your thought.
    Mr. Connaughton. Yes. I'm sorry, I overlooked the--thank 
you very much.
    So the Northern Spotted Owl is going to affect us. We've 
been working with the Fish and Wildlife Service and we're 
looking forward to working with them further as that comes to 
affect the Northwest.
    Thank you very much.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Connaughton follows:]

  Statement of Kent Connaughton, Regional Forester, Pacific Northwest 
         Region, Forest Service, U.S.Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
regarding Federal Forest Policies related to jobs, forest management 
and wildlife. I am Kent Connaughton, Regional Forester for the Pacific 
Northwest Region of the Forest Service.
    Today, people understand forests provide a broad range of values 
and benefits, including recreation, clean air, drinking and irrigation 
water, and wildlife habitat. We have national forests in 42 states and 
Puerto Rico which comprise a land area of nearly 193 million acres. Our 
mission is to sustain the health, diversity, and productivity of the 
Nation's forests and grasslands for present and future generations. The 
Forest Service does this through working with numerous federal, state, 
and local partners, citizens, and industries.
    The Forest Service also recognizes the need for a strong forest 
products industry to help accomplish forest restoration work and 
support local economies. A vibrant industry can provide the people and 
the know-how necessary to undertake mechanical treatments and other 
restoration activities. The forest industry also lowers the cost of 
restoration to the taxpayer by providing markets for forest products. 
The Forest Service is committed to increasing the number of acres being 
mechanically treated by 20% over the next three years, through our 
Accelerated Restoration Strategy, which was announced by USDA Secretary 
Vilsack in February of this year. This strategy increases the pace and 
scale of restoration and improves both the ecological health of our 
forests and the economic health of forest-dependent communities. 
Whether the threat comes from wildfire, bark beetles or a changing 
climate, it is vital that we step up our efforts to safeguard our 
country's natural resources.
    For example, through implementation of the Collaborative Forest 
Landscape Restoration Program (including the use of stewardship 
contracts), the proponents of projects anticipate creating or 
maintaining 1,550 jobs nationally. Public lands and local communities 
both benefit from robust forest industries. The Forest Service relies 
on local forest contractors and mills to provide the work force to 
undertake a variety of restoration activities. One study has shown that 
for every $1 million spent on activities like stream restoration or 
road decommissioning, 12 to 28 jobs are generated.
    The Accelerated Restoration strategy will allow the Forest Service 
to increase the number of watersheds restored, while supporting jobs 
and increasing annual forest product sales to 3 billion board feet of 
timber. A critical part of this effort is building public support for 
forest restoration and management activities. To this end, the Forest 
Service continues to emphasize the importance of collaboration with 
diverse stakeholders when developing restoration projects on national 
forest lands. Such collaboration not only results in better projects, 
but it also reduces the risks of costly litigation.
    The Secretary described his vision for America's Forests in a 
speech given in Seattle in August 2009. He underscored the overriding 
importance of forest restoration by calling for a ``complete commitment 
to restoration''. Additionally, the Secretary highlighted the need for 
pursuing an ``all lands approach to forest restoration'' and called for 
close coordination with other landowners to encourage collaborative 
solutions through landscape-scale operations. The Collaborative Forest 
Landscape Restoration (CFLR) Act provides a means to meet this vision. 
The Forest Service is using $40 million from 2012 appropriations for 20 
CFLR projects.
    There are five landscape restoration projects selected in the 
Pacific Northwest of which one CFLR project and one High Priority 
Restoration project are located in the State of Washington. The Tapash 
Sustainable Forest Collaborative and the Northeast Washington Forest 
Vision 2020 are estimated to provide a minimum of 131 direct jobs and 
634 total jobs in FY 2012.
    One important tool the Forest Service uses to improve the health of 
America's forests and create jobs is stewardship contracting. It is a 
very successful and important program nationally, and particularly, in 
the Pacific Northwest Region. Through stewardship contracting we have 
been able to treat low value or dying vegetation caused by insect or 
disease epidemics, or other low-value hazardous fuels. This tool allows 
the Forest Service to offset the value of the services received with 
the value of forest products removed.
    Since the authority was originally enacted in 1999, the Pacific 
Northwest Region has awarded more than 200 stewardship contracts and 
task orders, treating approximately 106,000 acres. The benefits of the 
program include implementation of more restoration projects, which 
reduce fuel loading and address insect infestation. Restoration 
projects yield significant sawlog and biomass material that supports 
woods operations jobs and industry infrastructure. An excellent example 
in Washington is the Colville Mill Creek Stewardship A to Z project, 
wherein the community and the Forest Service are striving to get more 
restoration work done through an innovative, broad, forest landscape-
level approach.
    The Forest Service is constantly improving upon our National 
Environmental Policy Act (NEPA) process. The Agency has initiated a 
project to learn and share lessons of successful implementation of 
streamlined NEPA analyses. The goal of this effort is to ensure the 
Agency's NEPA compliance is as efficient, cost-effective, and up-to-
date as possible. Specifically we are looking at expanding the use of 
focused environmental assessments (EAs) and iterative environmental 
impact statements (EISs), expanding categories of actions which may be 
excluded from documentation in an environmental assessment or an 
environmental impact statement, and applying an adaptive management 
framework to NEPA documentation. Our landscape-scale NEPA analysis will 
also increase efficiencies by analyzing broad swaths of land, avoiding 
piecemeal NEPA analysis. The recently released landscape-scale Black 
Hills Mountain Pine Beetle Response Project proposes to treat 242,000 
acres of high risk forest. This is approximately 5 times the normal 
analysis area.
    It is important to remember the Forest Service supplies about 2 
percent of total domestic timber production annually. For the Pacific 
Northwest, national forests supply about 6 percent of annual timber 
production. Market conditions during the past several years have been a 
severe departure from the era before 2005. Since 2005, the new home 
construction market dropped 75 percent, resulting in the closure of 
1200 mills nationwide and the loss of a million jobs in the forest 
products sector. Today, the demand for lumber, plywood, and other 
building materials are at low levels not seen since the 1960s. The 
mills that remain open are often working only part-time because 
builders aren't buying with new housing starts so low. During the 
current down market, the Forest Service has been concentrating on 
maintaining infrastructure through relief measures in existing timber 
sale contracts, such as market-related contract term additions, and 
rate redeterminations.
    Concerning federal forest management related in the Pacific 
Northwest, in April 1994, the Northwest Forest Plan Record of Decision 
(ROD) amended the existing land and resource management plans for 
national forests and BLM Districts within the range of the northern 
spotted owl (NSO). The ``Northwest Forest Plan,'' as these amendments 
were called was developed and implemented in part to protect and 
enhance conditions favorable to late-successional and old-growth 
related species, such as the NSO, and to respond to controversy, 
litigation, and court injunctions over management of federal forest 
lands in Washington, Oregon, and northern California. The ROD included 
24 million acres of federal lands including all or parts of 17 National 
Forests. The ROD changed the course of federal land management in the 
Pacific Northwest to significantly increase protection for species that 
depend on late-successional and old growth forests, while providing for 
a reduced yet stable supply of timber. Over the past 18 years many, but 
not all, of the stated objectives of the Northwest Forest Plan have 
been met. For example, the aquatic conservation strategy has eliminated 
many of the practices which led to degraded watersheds and threatened 
fish populations. The plan has withstood legal challenges and although 
the planned timber supply is not as high as envisioned, it has 
stabilized.
    The NSO was listed as threatened under the Endangered Species Act 
in 1990. Overall, demographic studies indicate NSO populations have 
been declining approximately 2.9 percent annually, leading to an 
estimated 40% decline in population numbers over the last 25 years. 
Forest Service Research and Development (R&D) has been a key leader in 
long-term research and monitoring of the NSO. This research aims to 
improve our understanding of the effects of land management under the 
Northwest Forest Plan on NSO populations, as well as the effects from 
invading barred owls, climate and other environmental factors. At its 
implementation, the Plan anticipated spotted owl populations would 
continue to decline for a few decades, until habitat is restored in the 
network of large reserves established under the Plan.
    To date, monitoring shows a continued range-wide decline. However, 
some areas show stable populations, while others, like the northern 
portion of the range, have shown larger declines than anticipated. 
Monitoring and research have revealed wildfire appears to be the 
biggest factor in habitat loss for spotted owls on federally managed 
lands since the Plan's inception. Factors other than habitat loss are 
adversely affecting spotted owls. Competition from barred owls is a 
major threat. Forest Service research on competition between these 
species has revealed spotted owls avoid areas occupied by barred owls 
and have much lower reproductive rates than barred owls. This research 
will inform future management for spotted owls. Other Forest Service 
research focuses on modeling owl populations and habitats in relation 
to fire, climate change, and prey populations.
    Although the specific reasons for the NSO decline are not yet fully 
understood, habitat loss and increasing competition from barred owls 
appear to be key factors. In 2011, the U.S. Fish and Wildlife Service 
(FWS) completed a revision of the 2008 Recovery Plan for the NSO and 
initiated the process to re-designate critical habitat based on the new 
recovery plan. The recovery plan emphasizes active restoration of 
habitat to meet recovery goals and ecosystem conservation, both in dry 
forests and moist forests. The recovery plan recognizes that in dry 
(fire adapted) forest ecosystems; there may be short-term adverse 
effects to individual owls with long-term benefits to their habitat. 
The Plan also addresses experimental removal of barred owls from 
certain parts of the NSO range to see if this removal affects NSO 
population trends.
    In March 2012, the FWS proposal for critical habitat was released 
for public review and comment. The Forest Service supports the FWS 
proposal and believes the proposed revision of critical habitat 
reflects the intent of the 2011 recovery plan. We worked with the FWS 
to develop specific rule language, which continues protection for 
important old growth forests while recommending active forest 
management designed to restore and protect ecological processes; 
improve habitat conditions; and increase the resilience of the forests 
to fire and insect infestations.
    The Forest Service will continue to work with the FWS to assure the 
final designation provides for recovery of the owl and allows for 
appropriate timber management, which restores forest health, increases 
resilience, and meets the economic needs of our communities.
    In summary, the Forest Service continues to work toward 
accomplishing restoration objectives, maintaining a robust forest 
industry, and in turn creating jobs. We are striving to efficiently 
implement existing programs and policies, as well as pursuing a number 
of new policies and initiatives to increase the pace of forest 
restoration through collaboration and management of the national 
forests. The aim of these efforts is to move beyond the conflicts which 
have characterized forest policy in the past and toward a shared 
vision, which allows local communities, environmentalists, the forest 
industry, and other stakeholders to work collaboratively toward 
healthier forests and watersheds, safer communities and more vibrant 
local economies.
    I want to thank the committee for its interest, leadership, and 
commitment to our national forests, their surrounding communities and 
the forest products infrastructure.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    The Chairman. Next we'll call Mr. Mitch Friedman, Executive 
Director of Northwest Ecosystem Alliance.
    Mr. Friedman, you're recognized for five minutes.


  STATEMENT OF MITCH FRIEDMAN, EXECUTIVE DIRECTOR, NORTHWEST 
           ECOSYSTEM ALLIANCE, BELLINGHAM, WASHINGTON

    Mr. Friedman. Thank you, Mr. Chairman. In the mid 1980s 
prior to founding Conservation Northwest, which I now direct, I 
organized many protests against logging of ancient forest, 
including the first protest to protect Spotted Owls. My past is 
full of appeals and lawsuits on these issues and listing 
petitions under the Endangered Species Act.
    About a decade ago we at Conservation Northwest changed our 
approach. We observed that few people, even in the timber 
industry, any longer favored logging old growth. We took the 
opportunity to explore common ground to benefit ecological and 
human communities. Conservation Northwest engaged fully in one 
of the first novel collaborations in the West here on the 
Gifford Pinchot National Forest.
    A group of dedicated and diverse stakeholders transitioned 
the Forest Service away from clear cutting big, old trees by 
promoting projects to beneficially thin second growths. Appeals 
and lawsuits dwindled. Timber flowed. Ecosystems and recreation 
benefitted. A win-win-win.
    Today we're most heavily invested in the Colville National 
Forest, where we're a core partner in the Northeast Washington 
Forestry Coalition. This collaboration is behind the success of 
about 30 projects over eight years without environmental 
controversy. That's going to be expanded by one of the grants 
Mr. Connaughton just described from the Collaborative Forest 
Landscape Restoration Program.
    The collaborations we're involved in are real. They include 
people with whom we once battled but have reached accords in 
how we view forests and management. Collaboration builds trust 
and a culture of problem solving. When confronted with a new 
challenge, the process involves civil and genuine effort to 
identify common interests, evaluate science sometimes with the 
aid of experts and eventually reach agreement and action.
    I have witnessed collaboration groups reach agreement to 
address objectives like wildfire fuels management, Spotted Owl 
habitat, threats to forest and watershed health and even 
wilderness protection. I invite you to take a field trip to see 
projects created by the Pinchot Partners or Northeast 
Washington Forestry Coalition and observe how collaboration is 
working.
    My experience is not the exception but is now typical 
across the region. Federal forests in the West are producing as 
much timber as they are budgeted for and doing so with much 
less controversy or litigation expense than in the past. I have 
submitted into the record a graphic that compares budgeted 
targets and volume offered for the Forest Service and BLM units 
across Washington, Oregon and California over a 15-year period, 
and it shows that these days the Forest Service is producing as 
much timber as Congress provided funding for. If Congress 
provided more funds, the agencies could produce more 
controversy-free timber, notwithstanding protections for owls, 
salmon and other important values.
    Conservation Northwest will soon release a commissioned 
study that provides detailed estimates of uncontroversial 
timber available on Northwest Federal lands. Federal timber 
values can be substantially increased without reducing 
environmental safeguards, cutting special areas, building new 
roads or otherwise harming our natural heritage.
    If Congress wants more timber cut from Federal land, you 
need only invest more funds and allow ecological protections 
and collaborative groups to guide those funds into the most 
beneficial projects. Efficiency can be improved in 
environmental analysis and contracting procedures.
    The agencies have become somewhat risk adverse and are 
generally following the same NEPA approach for popular 
restoration projects as they would there clear cut old growth. 
Many stakeholders want reform and innovation and are working 
for it through pilot projects under authorities like the 
Collaborative Forest Landscape Restoration Program, Stewardship 
Contracting, Proof of Concept and others. I am confident that 
efficiency can be increased without reducing collaboration or 
robust protections for water, wildlife or public resources.
    With regard to timber production and jobs, the big 
constraint is the market. The economy is sluggish. Housing 
starts are a third of their boom level. British Columbia 
continues to dump subsidized soft wood. The strong markets are 
overseas.
    Private lands are now being logged heavily to meet demand 
in China, Japan and other Pacific markets. Almost 20 percent of 
logs cut in Washington and Oregon are exported whole, a volume 
that is 2.5 times that cut from Federal lands here. Those 
exported logs touch the hands of few American workers.
    I get the concerns of mill owners and workers, but the 
reason that loaded trucks bypass them on the way to export 
yards do not include protection for owls or other natural 
resources.
    On the Endangered Species Act, a recent study found that 90 
percent of 110 species listed that were reviewed, while not 
recovered, are actually on pace with expectations in their 
respective recovery plans. If you're cake is mushy, you can't 
blame the recipe unless you've allowed the full baking time. 
The Spotted Owl is a case in point.
    Continued population declines were anticipated by the 
recovery plan until such time as enough habitat is recovered to 
reverse the trend. We have a ways to go on that objective and 
some complex challenges. It isn't easy work, but I know from my 
family experiences the Spotted Owls, wolves and other rare 
species, wildlife makes a big difference in our lives, but it's 
worth the effort.
    Thank you.
    The Chairman. Thank you very much for your testimony.
    [The prepared statement of Mr. Friedman follows:]

Statement of Mitch Friedman, Executive Director, Conservation Northwest

    I am Mitch Friedman, a biologist and Executive Director of 
Conservation Northwest. I have been involved in federal forest issues 
since 1985. I believe that the path forward on federal timber policy is 
clear and full of opportunity if we apply the leadership and resources 
to follow it.
    In the mid 1980's, prior to founding Conservation Northwest, I was 
a organized many protests against logging of ancient forest, including 
the first protest to protect spotted owls. My past is also full of 
appeals and lawsuits on these issues.
    About a decade ago, we at Conservation Northwest changed our 
approach. We observed that few people, even in the timber industry, any 
longer favored logging old growth. We took the opportunity to explore 
common ground to benefit ecological and human communities.
    Conservation Northwest engaged fully in one of the first novel 
collaborations in the West, here on the Gifford Pinchot National 
Forest. A group of dedicated and diverse stakeholders transitioned the 
Forest Service away from clearcutting big, old trees by promoting 
beneficial thinning projects in stands of second growth. Appeals and 
lawsuits ended, timber flowed, ecosystems and recreation benefited: A 
win-win-win.
    Conservation Northwest is based in Bellingham and employs field 
associates in rural forest communities throughout the region. We have 
at least scrutinized most major national forest projects across the 
state for two decades. Today we are most heavily invested around the 
Colville National Forest, where we are a core partner in the Northeast 
Washington Forestry Coalition. This collaboration is behind the success 
of about 30 projects over eight years without environmental 
controversy. This work is now expanding thanks to a million dollar/year 
grant from the Collaborative Forest Landscape Restoration Program.
    The collaborations we are involved in are real. They include people 
with whom we once battled but have reached accords in how we view 
forests and management. Collaboration builds trust and a culture of 
problem solving. When confronted with a new challenge, the process 
involves civil and genuine effort to identify common interests, 
evaluate science sometimes with the aid of experts, and eventually 
reach agreement and action. I have witnessed collaborative groups reach 
agreement to address objectives like wildfire fuels management, spotted 
owl habitat, threats to forest and watershed health, and even 
wilderness protection. I invite you to take a field trip to see 
projects created by the Pinchot Partners or Northeast Washington 
Forestry Coalition, and observe how collaboration is working.
    My experience is not the exception, but is now typical across the 
region. Federal forests in the West are producing as much timber as 
they are budgeted for, and doing so with much less controversy or 
litigation expense then in past. This graphic compares budgeted targets 
and volume offered for the Forest Service and BLM in WA, OR and CA over 
a fifteen year period.
[GRAPHIC] [TIFF OMITTED] 74531.004


    .epsIf Congress provided more funds, the agencies could produce 
more controversy-free timber, notwithstanding protections for owls, 
salmon and other important values. Conservation Northwest and other 
groups will soon release a commissioned study that provides detailed 
estimates of uncontroversial timber available on Northwest federal 
lands. Federal timber volumes can be increased substantially without 
reducing environmental safeguards, cutting special areas, building new 
roads, or otherwise harming our natural heritage.
    If Congress wants more timber cut from federal land, you need only 
invest more funds and allow ecological protections and collaborative 
groups to guide those funds into most beneficial projects.
    On the other hand, efficiency can be improved in federal 
environmental analysis and contracting procedures to provide better 
return on investment for the Treasury and communities. The agencies 
have become somewhat risk averse, and are generally following the same 
NEPA approach for popular restoration projects as they would to 
clearcut old growth. Many stakeholders want reform and innovation, and 
are working for it through pilot projects under authorities like the 
Collaborative Forest Landscape Restoration Act, Proof of Concept, and 
others. I am confident that efficiency can be increased without 
reducing collaboration or robust protections for water, wildlife and 
other public resources.
    With regard to constraints on timber production and jobs in the 
region, the 800 pound gorilla is the market. The economy remains 
sluggish and housing starts are a third of their boom level. British 
Columbia continues to dump subsidized softwood. Domestic timber prices 
are therefore so weak that some federal timber sales have no bidders.
    The strong markets are overseas. Private lands are now being logged 
very aggressively to meet demand in China, Japan, and other Pacific 
markets. Almost 20% of the logs cut in Washington and Oregon are 
exported whole, a volume that is 2.5 times that cut from federal lands 
here. Those exported logs are from private lands and touch the hands of 
few American workers.
    I get the concerns of mill owners and workers. But the reasons that 
loaded trucks bypass them on the way to export yards do not include 
protections for spotted owls or other natural resources. I think it is 
wise for the committee explore ways to boost economic activity and 
timber jobs. The best opportunities for doing so are addressing raw log 
exports and investing more in programs like the Collaborative Forest 
Landscape Restoration Act that help communities by improving our 
forests and watersheds.
    Policy should be based on a review of what is working. Presently we 
have less conflict and controversy on our federal lands than we've had 
in decades. That is the result of land management policies that protect 
our assets and collaborations that identify common ground and build 
long term community equity.
    By staying the course on these successful principles while also 
exploring ways to improve returns on federal investment, we can provide 
a strong foundation for growth in timber jobs as the economy recovers, 
and improve the health of our forests and rural communities while 
protecting the landscapes, streams and wildlife that make our region 
great.
                                 ______
                                 
    The Chairman. Next we'll call on Mr. Ernie Niemi, Senior 
Economist of EcoNorthwest.
    Mr. Niemi, you're recognized.

   STATEMENT OF ERNIE NIEMI, SENIOR ECONOMIST, ECONORTHWEST, 
                         EUGENE, OREGON

    Mr. Niemi. Thank you very much.
    My name is Ernie Niemi. I've spent more than 30 years 
analyzing the relationship between national forests and the 
economy of this region. As the Subcommittee moves forward, I 
recommend that it consider three important characteristics of 
this relationship: Number one, to recognize that these national 
forests produce many, many different types of goods and 
services, timber certainly, recreational opportunities, clean 
water and the like. Each one of these goods and services 
contribute to the standard of living of the residents of this 
region and to the profitability of businesses in this region.
    The second is that the national forests in this region also 
contribute to jobs and generate jobs in different ways. 
Economists generally rank these ways into two groups. One is 
that the national forests directly contribute to the commercial 
activities that you talked about earlier, so the national 
forests generate jobs so they generate recreational 
opportunities that support the tourism industry.
    The second mechanism is known as amenity-driven growth. 
That is to say the national forests provide recreational 
opportunities, scenic vistas, clean water and a high quality of 
life. Those amenities attract productive workers, they attract 
entrepreneurs and they attract investors to this region.
    For much of this region the amenity-driven growth mechanism 
predominates. That isn't to say that the commercial-driven 
mechanism is irrelevant. Not at all. It is just that that's the 
reality in this region today. We also have 20 or 30 years of 
evidence that indicates that the amenity-driven mechanism has 
increased in importance, not just in this region but throughout 
the United States and is likely to do so.
    We also have experience in the commercial sector. A very 
natural characteristic of the commercial sector that 
investments in technology and other factors over time diminish 
the ability of those sectors to generate new jobs for any given 
unit of the national forest. So we see that the number of jobs 
per million board feet of log has diminished over time.
    We see that large mills across this region and in Canada 
have replaced the many numerous small mills that used to be in 
rural communities. Part of what that means is that any program 
designed to increase logging and generate timber-related jobs 
in small communities has a very steep uphill road to climb.
    The third factor that I hope you pay attention to is that 
because of the complexity of this relationship there are 
necessarily trade-offs. Any action to generate jobs or new 
incomes for one group or for one set of communities or for one 
industry almost certainly will diminish the jobs and the 
incomes for another group.
    For example, we've learned in this region at a hard cost 
that activities in the uplands, in the head waters, that result 
in sediment coming down in the streams increases the cost of 
communities. Businesses and households pay to remove that 
sediment downstream, and in effect that reduces the amount of 
money that businesses can invest to generate new jobs 
downstream. We also know that the impacts of sediment and other 
impacts on water quality eliminate jobs in the fishing industry 
all the way down to the coast.
    I'm very pleased to have heard the two people who preceded 
me talk about the importance of restoration and the challenge 
of restoration. One of the leaders in restoration in the State 
of Oregon commented very recently to me that a useful way to 
think about this is that the national forests in many respects 
are like Humpty Dumpty: Once it's broke, it's really very hard 
to put back together again.
    What that means is that these trade-offs persist not just 
across one group to another group but also over time. Short-run 
decisions for short-run gain can have very long lasting effects 
not just on the ability of the national forests to generate 
goods and services, their ability to generate jobs, but can in 
fact impose a cost, in effect a tax on future generations.
    Thank you very much.
    The Chairman. Thank you very much, Mr. Niemi.
    [The prepared statement of Mr. Niemi follows:]

              Statement of Ernie Niemi, Senior Economist, 
                      ECONorthwest, Eugene, Oregon

I. Introduction and Summary
    My name is Ernie Niemi. I am testifying on my own behalf before the 
Subcommittee.
    For more three decades I have analyzed the relationship between 
federal forests and the economy of the Pacific Northwest, as a Senior 
Economist with ECONorthwest, the oldest and largest independent 
economic consulting firm in the Pacific Northwest. I live and work in 
Eugene, Oregon, but have conducted economic research on natural 
resource management issues throughout the United States and in other 
countries.
    I encourage the Subcommittee, when considering the effects of 
federal forest policy, to consider the diverse nature of the 
relationship between federal forests and the economy of Oregon and 
Washington. In particular:
        1.  This region's federal forests produce many valuable goods 
        and services that make important contributions to the economic 
        well-being of workers and families, to the productivity of 
        businesses, and to the economic outlook of communities, both 
        rural and urban. These goods and services include wood fiber 
        for the wood-products industry, clean water for communities, 
        mitigation of potential flood damage for downstream property 
        owners, habitat for fish and wildlife, recreational 
        opportunities, the sequestration of carbon from the atmosphere, 
        and many more.
        2.  This region's federal forests also generate jobs and 
        incomes in many different ways. Not just through the production 
        of products, such as logs for the timber and bio-energy 
        industries, but also through the production of services, such 
        as delivering clean water that lowers the cost of living and 
        doing business in the region, recreational opportunities that 
        support jobs in the tourism industry, and scenic amenities that 
        attract productive workers, entrepreneurs, and investors.
        3.  Any policies regarding the management of the region's 
        federal forests will have both positive and negative effects on 
        the economy. With a change in policy, some residents of Oregon 
        and Washington will see their economic welfare and job 
        opportunities increase, others will experience a decrease.
    All these dimensions of the relationship between this region's 
federal forests and its economy must be fully accounted for before one 
can reasonably conclude that the existing forest-management policies 
have failed, or succeeded. Similarly, all of these dimensions must be 
considered before concluding that new policies would, on balance, 
enhance or diminish the federal forests' contribution to the Pacific 
Northwest's economy.
II. Federal Forests Provide Many Economically Important Goods and 
        Services
    From an economic perspective, the Pacific Northwest's federal 
forests are important not in and of themselves but because they provide 
goods and services that increase the quality of life for the region's 
residents and visitors. The list of these goods and services is long 
and growing, as ecological scientists learn more about the inner 
workings of the federal forests and people learn more about how they 
derive benefits from them. Figure 1 provides an illustrative list. 
Consistent with widely accepted professional standards, this list 
includes a broad suite of goods and services, including those whose 
value comes from direct use of forest resources, such as logging, 
indirect use, such as purification of stream water, or non-use, such as 
occurs when people are willing to pay to protect forest characteristics 
for future generations (USEPA 2000, National Research Council 2004, 
USEPA 2009). The list may expand or contract depending on the results 
of future research and changes in human preferences.
    A product from a forest is considered an economically important 
good or service only if humans derive a benefits from it and have a 
demand for it. Throughout this discussion, I recognize that humans are 
part of the forest ecosystem: they affect the amount of natural capital 
in federal forests, the workings of forest processes, and, hence, its 
ability to provide a set of goods and services.
    Figures 2, 3, and 4 illustrate some of the goods and services 
provided by this region's federal forests. Figure 2 shows the extent to 
which all forests are currently protecting areas important to the 
supply of drinking water. The most intense areas in Oregon and 
Washington are located on federal forests. Forest cover can explain 50 
percent of differences in water-treatment costs for ommunities in 
forested versus nonforested watersheds, and, for every 10 percent 
increase in forest cover, treatment and chemical costs decrease by 20 
percent, with these benefits maximized at 60 percent forest cover (The 
Trust for Public Land et al. 2002). The map in Figure 3 similarly shows 
that the greatest sequestration of carbon, represented by the amount of 
biomass also occurs on federal forests.
[GRAPHIC] [TIFF OMITTED] 74531.005

.eps[GRAPHIC] [TIFF OMITTED] 74531.006


    .epsThe federal forests of this region cannot be managed to 
increase the output of all goods and services at the same time. 
Increasing the output of one set will decrease the output of another. A 
change in management policies for the region's federal forests would 
improve the economic well-being of current and future generations only 
if it would increase the net economic value of all the different types 
of goods and services produced by the forests on a sustained basis. 
When weighing the potential change in the net economic value, it is 
important to consider all the different ways in which society imputes a 
value to forest goods and services: through direct use, indirect use, 
and non-use.
III. Federal Forests Generate Jobs and Income in Different Ways
    Many residents of this region can remember when federal forests 
generated jobs primarily through the timber industry. Logging and 
milling operations provided jobs for workers and supported communities, 
large and small, dispersed throughout the region. The implementation of 
the Northwest Forest Plan was accompanied by widespread fear that not 
just jobs and incomes in the timber industry but the overall the 
overall regional economy would collapse. The collapse never occurred. 
Figure 4 shows that, although the amount of timber harvested from 
federal lands in Oregon and Washington fell by about 90 percent in the 
1990s, overall employment in the timber industry declined by only about 
30 percent, while total employment and per capita income increased by 
about one-third. These trends have continued. They strongly suggest 
that future logging on federal forests will generate fewer jobs and 
lower incomes, and have less of an impact on the overall economy than 
in the past. This conclusion applies especially to small, rural 
communities. Figure 5 shows that the timber industry has shifted away 
from a large number of relatively small sawmills dispersed across the 
region to a smaller number of mills capable of processing large volumes 
of timber.
[GRAPHIC] [TIFF OMITTED] 74531.007

.eps[GRAPHIC] [TIFF OMITTED] 74531.008


    .epsIn today's economy, federal forests generate jobs and income 
primarily by providing recreational opportunities and other amenities 
that attract workers, families, entrepreneurs, and investors. The 
overall economic power of amenities, of all types, is indicated by the 
findings of research on differences in job growth among the 50 states 
to distinguish between the two growth processes (Partridge and Rickman 
2003). The researchers concluded that industry-driven and amenity-drive 
growth have roughly the same impact on job growth. This finding 
indicates, at a minimum, that federal forests may have a greater 
influence on jobs and income through their amenities and their 
influence on household-location decisions rather than through the 
production of logs. This expectation is reinforced by research showing 
that communities close to undeveloped public lands have experienced 
faster population growth than those lacking these amenities. (Power et 
al. 2001 and Kim et al. 2005).
    Federal forest generate some jobs and income through direct 
consumption of recreational amenities. In Oregon, in 2006, the last 
year for which these data are available, outdoor recreation accounted 
for 73,000 jobs, $310 million in state tax revenue, and sales that 
represented 3.4 percent of the state GDP (Outdoor Industry Foundation 
2006a). During the same year, the outdoor recreation industry created 
115,000 jobs in Washington, $650 million in state tax revenue, and 
sales that accounted for 3.5 percent of the state GDP (Outdoor Industry 
Foundation 2006b). Much of this recreation occurred on or was dependent 
on federal forest lands.
    Restoration of ecosystems damaged by past management of federal 
forests also can generate significant jobs and income. For example, a 
recent report shows that, for every $1 million invested in restoration 
projects, 15.7-23.8 jobs are created in Oregon directly and indirectly, 
with average payroll costs per worker ranging between $31,000 and 
$55,000 annually (Nielsen-Pinkus and Moseley 2010). The total economic 
output of the same $1 million investment ranges between $2.2 million 
and $2.5 million. The reason for the high multiplier effects of 
investments in forest and watershed restoration projects is that 95-
99.5 percent of the initial investment goes towards hiring Oregon-based 
businesses for contracted work. The indirect impacts on the state's 
economic output from these types of projects range between about 
$735,000 and $985,000 for every $1 million spent on restoration.
IV. Any Change in Federal Forest Policy Will have Both Positive and 
        Negative Impacts on the Economy
    The demands for goods and services produced by this region's 
federal forests far exceed the supply. As a consequence, competition--
for resources, land-uses, goods, and services--is an essential 
characteristic of the relationship between federal forests and the 
Pacific Northwest's economy (Niemi and Whitelaw 1999).
    Some of this competition occurs over short time periods. Changes in 
the amount of logging on federal lands, for example, might alter the 
price of logs in the regional log market, and induce off-setting 
effects on logging on other lands. A marked increase in federal log 
production, for example, might depress log prices so that private 
landowners receive less for the logs they sell to the market. Or, if 
activities on federal lands that are the headwaters for municipal water 
supplies result in higher levels of sediment in the water, the 
businesses and households will incur additional costs to remove it. 
This added cost can reduce the funds businesses have available for new 
investment and force households to reduce their local spending, 
resulting in further reduction in business investment.
    Many of the overall effects on the regional economy of changes in 
the competition for federal forests play out over longer time periods. 
Past experience suggests that using federal lands as a source of logs 
for the timber industry will continue to exhibit a declining ability to 
generate increases in jobs and incomes, while using these lands as a 
source of amenities attractive to workers, entrepreneurs, and investors 
will continue to exhibit a rising ability to generate economic growth. 
Actions today that increase the supply of logs but reduce the 
attractiveness of amenities thus can have an overall negative effect on 
economic growth for decades, an effect that may intensify over time.
V. References
Bureau of Economic Analysis. 2012. State Annual Personal Income & 
        Employment. Retrieved May 19, 2012 from http://www.bea.gov/
        regional/index.htm
Kim, K.-K., D.W. Marcouiller, and S.C. Deller. 2005. ``Natural 
        Amenities and Rural Development: Understanding Spatial and 
        Distributional Attributes.'' Growth and Change 36 (2): 273-297.
Nielsen-Pincus, M. and C. Moseley. 2010. Economic and Employment 
        Impacts of Forest and Watershed Restoration in Oregon. 
        Institute for a Sustainable Environment, University of Oregon. 
        Spring. Retrieved May 17, 2012, from http://ewp.uoregon.edu/
        sites/ewp.uoregon.edu/files/downloads/WP24.pdf
Niemi, E., and E. Whitelaw. 1999. Assessing Economic Tradeoffs in 
        Forest Management. U.S. forest Service, Pacific Northwest 
        Research Station, General Technical Report PNW-GTR-403. July.
Oregon Department of Forestry. 2011. 25-Year Harvest History Data 
        (1986-2010). Retrieved May 19, 2012 from http://www.oregon.gov/
        ODF/STATE_FORESTS/FRP/Charts.shtml
Outdoor Industry Foundation. 2006a. The Active Outdoor Recreation 
        Economy Report: Oregon. Retrieved May 18, 2012, from http://
        www.outdoorindustry.org/pdf/OregonRecEconomy.pdf
Outdoor Industry Foundation. 2006b. The Active Outdoor Recreation 
        Economy Report: Washington. Retrieved May 18, 2012, from http:/
        /www.outdoorindustry.org/pdf/WashingtonRecEconomy.pdf
Power, T.M. and R.N. Barrett. 2001. Post-Cowboy Economics: Pay and 
        Prosperity in the New American West. Island Press.
Stein, S.M., R.E. McRoberts, L.G. Mahal, M.A. Carr, R.J. Alig, S.J. 
        Comas, D.M. Theobald, and A. Cundiff. 2009. Private Forests, 
        Public Benefits: Increased Housing Density and Other Pressures 
        on Private Forest Contributions. Gen. Tech. Rep. PNW-GTR-795. 
        U.S. Department of Agriculture, Forest Service, Pacific 
        Northwest Research Station. p. 41 Retrieved 8 November 2010 
        from http://www.fs.fed.us/openspace/fote/benefits_files/pnw-
        gtr795_pt3.pdf.
Todd, A.H. and E. Weidner. 2010. ``From Forest to Faucet: Drinking 
        Water as and Ecosystem Service.'' Presentation to ACES: A 
        Community of Ecosystem Services, Gila River Indian Community, 
        Arizona. December 6. Retrieved 2 June 2011 from http://
        conference.ifas.ufl.edu/aces/Presentations/Tuesday/Plenary%20D-
        G/pm/Yes/0430%20A%20Todd.pdf.
The Trust for Public Land and American Water Works Association. 2002. 
        Protecting the Source. Retrieved May 19, 2012, from http://
        cbey.research.yale.edu/uploads/
        Conservation%20Finance%20Camp%202011/agenda/Tuesday/
        protecting_the_source_04-1.pdf
U.S. Forest Service, Pacific Northwest Research Station. various years. 
        Production, Prices, Employment and Trade in Northwest Forest 
        Industries.
Washington Department of Natural Resources. 2011. Washington State 
        Timber Harvest. Retrieved May 19, 2012 from http://
        www.dnr.wa.gov/BusinessPermits/Topics/EconomicReports/Pages/
        obe_washington_timber_harvest_reports.aspx
                                 ______
                                 
    The Chairman. Next we'll call on Mr. Kelly Kreps of Kreps 
Ranch, LLC.
    Mr. Kreps, you're recognized.

          STATEMENT OF KELLY KREPS, KREPS RANCH, LLC, 
                    WHITE SALMON, WASHINGTON

    Mr. Kreps. Thank you, Congressman Hastings.
    The Chairman. Pull the microphone closer to you, please. 
Speak right into it.
    Mr. Kreps. Thank you, Congressman Hastings and 
Representative Herrera Beutler for this opportunity to share 
how the Northern Spotted Owl designation has affected my 
family. The Kreps family homesteaded in Western Klickitat 
County in the State of Washington in----
    The Chairman. Bring it closer and tilt it up if you can. 
There you go. Thank you very much.
    Mr. Kreps. They started as a cattle ranch with 160 acres. 
Today my two brothers and I run 6,400 acre cattle and timber 
ranch. Besides the three of us, we have two full-time employees 
and also use some seasonal help.
    We started actively logging in 1989. In 1990 we were 
hearing about the Northern Spotted Owl, but this did not 
concern us because he liked old-growth forests on the west side 
of the Cascades according to the biologists. Our timber was 
second growth with some pre-merchantable stands. Besides, 
Federal recommendations limited harvests on private property to 
70 acres adjacent to the owl nest during the mating season.
    The problem with the Endangered Species Act is that special 
interest groups in liberal states like Washington have a lot of 
power, so the State of Washington now tries to maintain 2,500 
acres of habitat for each owl nest site. With these 
circumstances, by 1992 we had 400 acres restricted for owl 
habitat. I wrote a letter to the Washington Forest Practice 
Board at that time suggesting that the property be leased by 
the state or Federal government, whomever was responsible for 
implementing the owl recovery on private property.
    Currently we have approximately 550 acres of timberland 
restricted for Spotted Owl habitat. We are small forest 
landowners with 3,200 total acres of timber. Only about 1,600 
acres of this would be prime timbered ground which has good 
slope, good soils. The proposed new Critical Habitat Listing 
would restrict an additional 660 acres of our timberland. If 
this does not affect--if this does take affect, we would then 
have 1,210 acres of timberland reserved for owl habitat that we 
would then be maintaining for a public resource. 800 acres are 
part of our prime timberland.
    With the potential loss of this additional timber base, we 
as a business would most likely have to lay off both of our 
employees, but not only will two of our full-time employees be 
affected, this also has a trickle-down effect. We do our on 
logging, except we hire mechanical felling and we get 
independent log haulers to ship our trees to the mills.
    When we harvest less timber, we buy fewer seedlings to 
plant. With fewer acres to harvest, we need less equipment or 
need to upgrade it less often. We were strongly urged by a 
logger and friend in 1992 to clear cut or at least cut below 
habitat standards all of our timberland that was not affected 
by owls at that time. We chose not to because that is 
management from fear and not best management practices, which 
we have tried to do on our ranch for over 125 years.
    However, with the current proposal, I feel anyone that does 
not manage their land so that the Endangered Species Act or any 
other bureaucratic policy that may inhibit them is probably a 
fool. This type of condemnation without compensation should be 
illegal. If a public resource is to be protected by private 
property owners, then the public should have to lease their 
resources.
    This not only affects jobs but it affects livelihoods that 
have been passed down through generations. We are part of the 
few which still use and grow natural resources as a way of 
life. My brothers and I hope that our children, the sixth 
generation of Kreps, will be able to follow in our footsteps.
    With the continuing squeeze on private property owners to 
protect public resources as deemed by a specialist, it can be 
crippling. If every person in the United States had to donate 
$10 for every $100 they spent to protect public resources on 
private property, I think there would be a lot less regulations 
and habitat protected on private lands. Perhaps the public 
would prefer protecting those resources on the lands they 
currently have.
    Thank you.
    The Chairman. Thank you very much, Mr. Kreps.
    [The prepared statement of Mr. Kreps follows:]

  Statement of Kelly Kreps, Kreps Ranch LLC, White Salmon, Washington

    The Kreps family homesteaded in Western Klickitat County in the 
State of Washington in 1883. They started as a cattle ranch with 160 
acres. Today, my two brothers and I run the 6400 + acre cattle and 
timber ranch. Besides the three of us, we have two full time employees 
and also use some seasonal help.
    We started actively logging in 1989. In 1990 we were hearing about 
the Northern Spotted Owl, but this did not concern us much because he 
liked old growth forests on the other side of the Cascade Range (west 
side) according to the biologists. Our timber was second growth with 
some pre-merchantable stands. Besides, federal guidelines limited 
harvests on private property of the 70 acres adjacent to the owl nest 
during the mating season.
    The problem with the endangered species act is that special 
interest groups in a liberal State like Washington have a lot of power 
and so the State of Washington now tries to maintain 2500 acres of 
habitat for each owl nest site. With these circumstances, by 1992 we 
had about 400 acres restricted for owl habitat. I wrote a letter to the 
Washington Forest Practice Board at that time suggesting that the 
property be leased by the State or Federal government, whomever was 
responsible for implementing the owl recovery on private property 
(attachment A). I did receive a phone call (unofficial) sometime later, 
and the person told me that if the State paid what I suggested to every 
private property owner who was maintaining owl habitat, the dollar 
value would break the State.
    Currently we have approximately 550 acres of timberland restricted 
for spotted owl habitat. This has grown since 1992 mostly because the 
State of Washington has a statewide HCP (Habitat Conservation Plan) and 
that enables them to harvest timber that is habitat in one owl circle 
because they have property somewhere else in the State that now can be 
considered habitat and that leaves the burden of habitat back to the 
private property owners.
    We are small forest land owners with 3200 total acres of timber. 
Only about 1600 acres of this would be prime timbered ground (good 
soil, mild slope, etc.). The proposed new Federal Critical Habitat 
listing would restrict an additional 660 acres of our timberland. If 
this does take effect we would then have 1210 acres of timberland 
reserved for owl habitat that we would then be maintaining for a public 
resource. Eight hundred acres are part of our prime timberland.
    With the potential loss of this additional timber base, we as a 
business will most likely have to lay off both of our employees. Our 
timber is our primary source of income and has subsidized our cattle 
operation 8 of the last 10 years. Not only will two of our full time 
employees be affected, but this has a trickledown effect. We do our own 
logging except we hire mechanical felling and we get independent log 
haulers to ship our trees to the mills. When we harvest less timber, we 
buy fewer seedlings to replant. With fewer acres to harvest, we don't 
need to upgrade equipment as often.
    We were strongly urged by a logger and friend in 1992 to clear cut 
or at least cut below habitat standards all of our timberland that was 
not affected by the owls at that time. We chose not, because that is 
management from fear and not best management practices which we have 
tried to do on our ranch for over 125 years. However, with the current 
proposal I feel that anyone that does not manage their land so that the 
ESA or any other bureaucratic policy that many inhibit them is probably 
a fool. This type of condemnation without compensation should be 
illegal. If a public resource is to be protected by private property 
owners, then the public should have to lease these resources. This not 
only affects jobs, but it affects lively hoods that have been passed 
down through generations. We are part of the few, which still use and 
grow our natural resources as a way of life. My brothers and I hope 
that our children, the 6th generation of Kreps', will be able to follow 
in our footsteps. With the continuing squeeze on private property 
owners to protect public resources as deemed by a specialist, it can be 
crippling. If every person in the United States had to donate $10 for 
every $100 they spent to protect public resources on private property, 
I think there would be a lot less regulations and habitat protection on 
private lands. Perhaps the public would prefer protecting those 
resources on the lands they currently have.
    Thank you for your consideration.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 74531.009
                                 
                                 
                                 
    The Chairman. And last we'll go to Mr. Tom Nelson, who is 
the Washington Timberland Manager for Sierra Pacific 
Industries.
    Mr. Nelson, you're recognized for five minutes.

STATEMENT OF TOM NELSON, WASHINGTON TIMBERLAND MANAGER, SIERRA 
           PACIFIC INDUSTRIES, MT. VERNON, WASHINGTON

    Mr. Nelson. Thank you very much.
    For the record, my name is Tom Nelson. I live about four 
miles north of here in a tiny community of Bayview, Washington, 
Skagit County. I'm here today to speak on behalf of Sierra 
Pacific Industries. We're here to urge the congressman and 
whoever else can help us to ask the U.S. Fish and Wildlife 
Service to abandon this plan for implementation of the current 
proposed critical habitat designation.
    Our three main reasons for this are that, number one, the 
proposed critical habitat does not meet the definition of 
essential for the bird's survival. Number two, the economic 
effects of this action have not have been adequately analyzed 
and they would undoubtedly add to the ongoing deleterious 
effects currently being endured throughout the Pacific 
Northwest. And three, the proposed actions would inevitably be 
futile anyway since the Northern Spotted Owl's fate will 
largely be determined by the evolution of future populations 
and territories of the Barred Owl and how much habitat might 
being lost to forest fires, not by how much forest habitat is 
going to be set aside.
    I'd like to expand on each of these briefly, though not to 
the extent I have in my submitted written testimony. Fist of 
all, critical habitat, at the time of the listing suitable 
habitat was deemed necessary for the recovery of this species 
and it consisted of large blocks of high-quality habitat, 
primarily old coniferous forest land.
    As such, the recovery plan since 1990 has focused on 
setting aside large blocks of essential habitat and eliminating 
timber management altogether in these areas. After more than 20 
years of locking up type of land and nearly a total devastation 
of our industry within a lot of these communities, it appears 
this was not really the right answer.
    Spotted Owl numbers have continued to decline in spite of 
these sweeping changes. We now have fewer owls than we did in 
1990 in spite of all of this and we've dedicated more than 21 
million acres of Federal forest land to the Northern Spotted 
Owl and yet the Fish and Wildlife Service most recently studied 
that the population has declined by an average of 2.8 percent 
per year since 1995. This simply hasn't worked.
    Number two, the economic effect, I won't dwell on them 
because a lot of the previous speakers have covered it, but I 
would like to add that many of us pleaded back in 1990 that 
perhaps the Northern Spotted Owl is not really so dependent on 
old growth forest for its survival as some would have us 
believe. Perhaps we should be more certain of our predictions 
before we impact an entire generation of people within our 
region, but yet, the proposal before us now is to essentially 
double down on this same risky theory and set aside even more 
productive timber as owl habitat. That seems like a really bad 
idea to us.
    The last reason is the Spotted Owl competition and 
displacement. We now know that competition from Barred Owls is 
a significant threat to the continued existence of Northern 
Spotted Owl. This is something we didn't know back in 1990. We 
also know that both Barred Owls and Spotted Owls select very 
similar habitat for breeding, feeding and shelter. Given this, 
does it really make sense to set aside even more essential 
habitat for Spotted Owls before we figure out how to deal with 
the threatening cousin, the Barred Owl, and I'm not talking 
about a 12-gauge shotgun.
    I'd like to summarize briefly. The current theory that we 
must designate massive chunks of Federal timberland in order to 
save the Spotted Owl seems to be, at best, highly questionable. 
It has not worked for the past 20 years. Why should it work 
now? Moreover, even if you expect it to change course and begin 
to increase these populations immediately, we've never closely 
looked at the severe economic conditions that the previous 
listings caused. Shouldn't we review this carefully before we 
compound these effects?
    And finally, aren't we simply trying to interject our own 
personal values in this case by trying to override evolution 
and natural selection? Given what we have learned since the 
listing of the Northern Spotted Owl in 1990, any objective 
review of these events would have to conclude that the Northern 
Spotted Owl is going extinct. Regardless of how much forest 
land we set aside for preservation, Barred Owls appear to be 
replacing them at a fairly rapid rate.
    The sensible approach would be to reject the proposal for 
more set asides of essential habitat until and unless the U.S. 
Fish and Wildlife Service can actually demonstrate how this 
habitat will reverse the Spotted Owl's decline and that an 
adequate Barred Owl control program has been implemented. 
Unless we look at all the variables in this complicated 
equation, the answer will always be incorrect.
    Thank you.
    The Chairman. Thank you very much, Mr. Nelson.
    [The prepared statement of Mr. Nelson follows:]

       Statement of Tom Nelson, Washington Timberlands Manager, 
                       Sierra Pacific Industries

Background
    SPI is a 3rd generation, family-owned and operated business with 
(3) manufacturing facilities, (2) biomass cogeneration facilities and 
over 217,000 acres of working forestland in Washington state. We employ 
nearly 600 crewmembers at these facilities and we are, historically, 
one of the top three purchasers of State Trust timber sales. We also 
own more than 438,000 acres of timberland in northern California that 
lie within the range of the northern spotted owl and operate an 
additional 10 sawmills and millwork plants within this region that 
employ more than 2900 employees. We are here today to urge you to 
direct the US Fish and Wildlife Service (USFWS) to abandon their plans 
for implementation of the current proposed ``Critical Habitat'' 
designation for the northern spotted owls. Our primary reasons for this 
request are that:
        1.  the proposed critical habitat does not meet the definition 
        of ``essential'' for this bird's survival,
        2.  the economic effects of this action have not been 
        adequately analyzed and would undoubtedly add to the ongoing 
        deleterious effects currently being endured throughout the 
        Pacific Northwest, and
        3.  the proposed actions would inevitably be futile anyway, 
        since the northern spotted owl's fate will largely be 
        determined by the evolution of future populations and 
        territories of the barred owl, and how much habitat will be 
        lost to forest fires, not how much forest habitat is set aside 
        by this proposed action for the northern spotted owl.
    As noted in the Federal Register for this proposed action, the 
original rationale for listing the northern spotted owl (NSO) as 
threatened under the Endangered Species Act (ESA) was a widespread loss 
of its old growth forest habitat and a declining population (55 FR 
26114, June 26,1990). This resulted in an 85% reduction in historic 
timber sale levels from Federal lands, the closure of hundreds of 
mills, the loss of thousands of family wage jobs and the virtual 
elimination of generated timber receipts to pay for county governments.
Critical Habitat
    Critical habitat is defined within the Endangered Species Act (ESA) 
as that which is ``essential to the conservation and recovery'' of the 
owl. At the time of listing, suitable habitat that was deemed necessary 
for recovery of this species consisted of large blocks of suitable, 
high-quality habitat--primarily old-growth coniferous forest land. As 
such, the recovery plans for the NSO since 1990 have primarily focused 
on setting aside large, contiguous areas as essential habitat for the 
NSO (and eliminating timber management altogether in these areas). 
After more than 20 years of locking up public timber land as owl 
habitat--and nearly total devastation of the timber industry within one 
of the world's richest timber-growing regions--it now appears that this 
was not the right answer. Spotted owl numbers have continued to 
decline, in spite of these sweeping changes to the culture and 
infrastructure of the Pacific Northwest. We have fewer owls now than we 
did in 1990 despite effectively dedicating much of the 21 million acres 
of Federal land to the NSO.
    It is also impossible to determine what habitat is ``essential'' to 
the conservation and recovery of the owl when the USFWS lacks reliable 
information on how many northern spotted owls are alive today and where 
they are located. In fact, very little monitoring has taken place since 
the early 1990's. The limited population trend estimates and owl site 
data that is being relied upon results in significant errors. The 
USFWS' most recent studies claim that the population has declined by 
2.8% per year since 1985. This critical habitat designation is based 
upon data for 3,439 owl pair sites. Taking into account the 2.8% annual 
population decline this would mean that there were over 6,300 owl pairs 
in 1990, which is over three times the 2,000 reported in the 1990 
listing document. If there actually were 2,000 owl pairs in 1990 and if 
the population has declined by 2.8% annually, then there would be only 
1,071 remaining. How can the public have any confidence in this 13 
million acre critical habitat designation with this type of 
uncertainty?
Economic Effects
    The economic effects brought on by this listing have been 
catastrophic to the rural communities within this region. The annual 
amount of Federal timber being harvested has dropped by 85% since the 
listing, demands for public assistance are up sharply, and entire 
communities have fallen into a state of deep economic recession as 
public timber (the lifeblood of many of these communities) was 
withdrawn for essential owl habitat--rather than sustainable timber 
management.
    As many of us pleaded in 1990, perhaps the NSO is not really so 
dependent on old growth forests for its survival as some would have us 
believe. Perhaps we should be more certain of our predictions before we 
impact an entire generation of people within this region. And now the 
proposal before us is to ``double down'' on the same risky theory and 
set aside even more productive timber land as owl habitat?
Effects of Barred Owl Competition and Displacement, Forest Fires
    Over the past 50-60 years, the barred owl (Strix varia) has 
expanded its range from the eastern US and Canada into western North 
America. The range of the barred owl now intermingles and overlaps that 
of the NSO in the western US, where they compete for habitat (and 
appear to be winning).
    As the Service states in their recent announcement for this 
proposal, ``We now know that the suite of threats facing the northern 
spotted owl differs from those at the time it was listed; in addition 
to the effects of historical and ongoing habitat loss, the northern 
spotted owl faces a new, significant, and complex threat in the form of 
competition from the congeneric (referring to a member of the same 
genus) barred owl (USFWS 2011, pp. I-7 to I-8). Emphasis added.
    We now know that competition from barred owls (not a listed 
species) is a significant threat to the continued existence of northern 
spotted owls--something that was not considered or acknowledged at the 
time of listing in 1990. We also know that both barred owls and spotted 
owls select very similar habitat for breeding, feeding, and shelter. 
Given this, does it really make sense to set aside even more 
``essential habitat'' for spotted owls before we figure out how to deal 
with their threatening cousins, the barred owl? Wouldn't this simply 
amount to more land precluded from sustainable forest management so 
that the barred owl can expand while the NSO continues to decline in 
numbers?
    In addition, even if the barred owl threat were somehow solved, the 
additional threat of essential habitat loss due to forest fires is 
ignored (or, at best, grossly underestimated) in this analysis. This is 
especially true in the Klamath province, central Cascade range, and 
eastside owl habitats. And, it is compounded in areas of these 
provinces where there is an ownership pattern dominated by 
``checkerboard'' sections, a remnant of the original railroad land 
grants. Checkerboard blocks of owl habitat in private ownership will 
eventually fall victim to fires as non-management of adjacent Federal 
land continues--rampant fires will not adhere to property boundaries. 
The lack of forest management brought on by single species-focused 
management for the NSO has actually compounded the risk of catastrophic 
wildfires.
Summary
    In short, the current theory that we must designate massive chunks 
of federal timber land in order to save the northern spotted owl seem 
to be highly questionable--it has not worked over the past 20 years, 
why should it work now? Moreover, even if you expect it to change 
course and begin to increase NSO populations immediately, we have never 
closely looked at the severe economic effects that the previous listing 
action caused--shouldn't we review this carefully before we compound 
these effects with even more land withdrawals in the name of the 
spotted owl?
    And, finally, aren't we simply trying to interject our own personal 
values in this case by trying to ``override'' evolution and natural 
selection? Given what we have learned since the listing of the NSO in 
1990, any objective review of these events would have to conclude that 
the northern spotted owl is going extinct--regardless of how much 
forest land we set aside for preservation. Barred owls appear to be 
replacing them at a fairly rapid rate.
    The sensible approach would be to reject this proposal for more set 
asides as ``essential habitat'' for the northern spotted owl until, and 
unless, the USFWS can actually demonstrate how this habitat will 
reverse spotted owl declines and that an adequate barred owl control 
program has been implemented. Unless we look at all the variables in 
this complicated equation, the answer will always be incorrect.
    Thank you for the opportunity to comment on this important issue.
                                 ______
                                 
    The Chairman. That concludes our testimony, and I know I 
have a few questions and I'm sure that Mrs. Herrera Beutler has 
some questions. I do want to mention when I mention this is an 
official committee hearing that your input is welcome, and 
there are forms at the table at the back that I understand are 
pretty self-explanatory. If any member of the audience has 
comments, you're certainly welcome to pick up one of those 
forms and fill it out.
    Let me start with just a couple of questions, and, frankly, 
after hearing the testimony, I'm not sure there's so much to 
start with, but Commissioner Pearce, let me ask you first, you 
mentioned in your testimony that about the time that the 
Spotted Owl was listed there were almost four times as many 
private jobs on the Gifford Pinchot than Forest Service jobs.
    What would that ratio look like today in your estimation?
    Mr. Pearce. Well, the last time that I spoke with our 
Economic Development Commission, their estimate of jobs on the 
forest, private jobs on the forest, were less than 15 total, 
and to be honest with you, I don't know how may Forest Service 
folks work on the Gifford Pinchot. What I do know is that 
there's not a single office or ranger station in my county, and 
I don't believe any of them are actually on the forest any 
longer. I know that there are two people that report to work on 
the forest at the Land River Station from the Forest Service.
    The Chairman. But the ratio certainly isn't four to one?
    Mr. Pearce. No, sir. It's much, much, much higher Forest 
Service to----
    The Chairman. So it's reversed, Forest Service higher than 
private?
    Mr. Pearce. Absolutely.
    The Chairman. That's the point.
    Dr. Salwasser, the national forest in the Region 6 I 
understand are currently growing at an annual rate in excess of 
9 billion board feet but they sold only about 550 million board 
feet, so what is going to happen with that ratio if it 
continues to the health of the forest and what sort of risks 
are associated with that imbalance that I just described?
    Dr. Salwasser. Congressman Hastings, that question might be 
a better question for Dr. Connaughton, who would know what's 
going to happen. I can give you the general story.
    The Chairman. Well, give me the general and we'll ask Mr. 
Connaughton.
    Dr. Salwasser. The general story is, on the wetter west 
side forest they will simply accumulate the biomass on the 
land. Fire is very rare. Insects don't appear to be a major 
problem, with the exception of some invasive species. On the 
drier side, though, that amount of annual growth with no 
natural removal from fire, for example, or harvest makes those 
forest more vulnerable to drought stress, insects and fire.
    The Chairman. Mr. Connaughton, would you respond to the 
question I had there with that imbalance of what the projected 
growth is as it relates to harvest?
    Mr. Connaughton. Hal Salwasser's answer was a good answer. 
Desiccation of these forest will occur and then they can become 
vulnerable to recess. That's one of the reasons we prioritize 
our treatments where we do, particularly is to reduce the 
influence of fire that that might have an unfavorable effect on 
communities.
    The Chairman. Mr. Connaughton, you mentioned treatments and 
you mentioned restoration. Harvest, is that part of the 
treatment and restoration?
    Mr. Connaughton. Oh, yes. It's an essential element.
    The Chairman. How much flexibility do you have to, say, 
increase harvest if the demand is there under current law?
    Mr. Connaughton. Outside the range of the Northern Spotted 
Owl is we have----
    The Chairman. Outside the range of the Northern Spotted 
Owl--Northern Spotted Owl makes up how much of the range 
percentage-wise.
    Mr. Connaughton. Wild guess on my part is 60 percent.
    The Chairman. 60 percent is off limits essentially then?
    Mr. Connaughton. Not entirely off limits because the new 
recovery plan calls for greater flexibility for managing those 
forest that are vulnerable to fire.
    The Chairman. And that flexibility, I assume--the reason 
I'm here rubbing you is because I want to--the thought comes. 
And that flexibility, I assume, is subject to lawsuit.
    Is that correct?
    Mr. Connaughton. Yes.
    The Chairman. That's subject to lawsuit under the 
Endangered Species Act; is that correct?
    Mr. Connaughton. And several other acts.
    The Chairman. OK. That brings me then to another 
observation that, Mr. Friedman, I congratulate you for saying 
that in your past for self--I don't know if I should say self, 
but for full disclosure, but you suggested, at least I got you 
suggested that collaboration is the new mantra rather than 
litigation.
    Is that correct?
    Mr. Friedman. Yeah, I think that shows up in the record.
    The Chairman. With that in mind, Hal, is it correct that 
you have filed five lawsuits, you and your organization in the 
last five years regarding that?
    Dr. Salwasser. Sure, but that's a substantial decrease from 
the past.
    The Chairman. It's still five, however, right? OK. Well, I 
mean, in other words, a city could conclude, well, OK that's in 
the past, but my goodness, if we start harvesting, that five 
could increase. Could it increase?
    Dr. Salwasser. Yeah, but those lawsuits aren't necessarily 
related to timber harvest. For instance----
    The Chairman. Well, I'm talking about timber harvest.
    Dr. Salwasser. Then it's not an accurate statement. Those 
five lawsuits are more general than just those related to----
    The Chairman. They're related to the Endangered Species 
Act, though, aren't they?
    Ms. Herrera Beutler. Sure.
    The Chairman. Well, my time has expired, and I'll recognize 
the gentlelady from Washington, as we say in the other 
Washington.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. I'm going to 
speak fast. I might have to cut some of you all off because I 
have many questions--I have more questions to ask than we 
probably have time.
    But, you know, I am going to start with following along the 
Chairman's line for Mr. Connaughton. One of the things he was 
saying I think is very important and I want wanted to bring up 
the Wild Cats Sale. A recent lawsuit involving Wild Cats Sale 
on the Gifford Pinchot was ruled in favor of the U.S. Forest 
Service on all points, but the agency failed to defend the sale 
when an appeal was filed and instead negotiated with the 
plaintiff. This resulted in a substantial reduction of harvest. 
I believe we got down to about 3 million board feet. It was 
substantial.
    Why didn't the agency defend this? If you're talking about 
areas where we could potentially harvest, that could be part of 
restoring the forest.
    Mr. Connaughton. First, it's my knowledge that the Wild Cat 
Sale is limited, so I don't have a specific answer.
    Ms. Herrera Beutler. It's the only sale that I think we 
were talking about in the Gifford Pinchot in our region for 
several years. I mean, it's like the only one.
    Dr. Salwasser. The appeal is instructive because during the 
appeal period there is an expectation that the Forest Service 
and other Federal agencies will enter into a negotiation with 
the appellant. If we find common ground that there is a grounds 
for concern over one of the Federal laws being either broken or 
in some way or another discharged, we make a change.
    Ms. Herrera Beutler. But it was ruled--you were ruled in 
favor of on all points, so that yes, there's always going to be 
someone who throws rocks, but as far the courts were concerned, 
the Forest Service was right with the first sale we were going 
to have, in my knowledge, in a long time, and you all backed 
away.
    Is that going to be your approach when it comes to managing 
the non-set-aside land where it's appropriate, where it's not 
within owls circles, where it's not environmentally sensitive? 
You're not even going to push forward on those areas?
    Mr. Connaughton. Our intent is to very much obey the law, 
and that is in the eye of multiple participants.
    Ms. Herrera Beutler. But in the issue of a court case, the 
eye of the law should be, I would assume, the judicial review.
    Mr. Connaughton. Certainly.
    Ms. Herrera Beutler. So moving forward, my office has been 
informed--and this is also to Mr. Connaughton--my office has 
been informed that biologists within your own agency are 
raising the alarm because of the rapid decline of species 
dependent upon young forest growth. You know, one of the panels 
is talking about a 2.8 percent per year decline in Spotted 
Owls, but another panelist, Mr. Mealey, spoke to the decline of 
other species, I think about elk and deer who need some of that 
foraging habitat. You know they're starving and unable to 
produce and take care of their offspring.
    Do you believe that the management of our forest for a 
single species has been beneficial for the health of our 
forests and the multiple species of wildlife within them?
    Mr. Connaughton. I think that's a very questionable 
approach, because I think that we've learned that the 
conservation of species occurs at best landscape scales and 
therefore doing one species at a time ends up as being a 
logical outcome in terms of public policy, nobly motivated, but 
the execution becomes exceptionally----
    Ms. Herrera Beutler. So with that, having basically 
admitted that no, managing for one species hasn't necessarily 
proven beneficial for all species or the overall health of the 
forest, why then would you double down on an expanded critical 
habitat taking basically more private forest land if you're 
admitting that that species has not done well for the health of 
the owl, forest or the species?
    Mr. Connaughton. Well, first, it's Fish and Wildlife 
Service's obligation to designate critical habitat. The 
coordination we have on that is what can the Federal estate 
bring to that obligation that they have? If in their 
determination that that's an appropriate thing to do even 
though the population has declined by 40 percent, and that also 
protects some other owner. If you have restrictions Federally, 
then you don't need to impose them elsewhere.
    Ms. Herrera Beutler. So then you don't support what U.S. 
Fish and Wildlife is doing then? The Forest Service does not 
support that expansion?
    Mr. Connaughton. Oh, no. We're with the Fish and Wildlife. 
We understand the law they need to apply, too.
    Ms. Herrera Beutler. So you, the Forest Service, support 
the expansion of the critical habitat even though you just 
admitted that it doesn't necessarily protect the Spotted Owl?
    Mr. Connaughton. The critical habitat obligation is theirs 
and definitely we have been part of those negotiations.
    Ms. Herrera Beutler. So I understand that to be yes.
    I'm going to switch over to Dr. Salwasser. I'm so sorry if 
I'm saying that wrong. Unfortunately some people who see this 
hearing, and may even be here today, they'll see it as an 
attack on the Spotted Owl. That is not the case. There is a 
thought that preserving as much old growth habitat as possible 
is the only way to help the owl. Although, it sounds like we're 
hearing different even from our regional forester. It appears 
to me that over the last 20 years of this type of management 
hasn't necessarily helped the owl, considering that the numbers 
do continue to drop.
    If you were to propose a plan to save the Spotted Owl, 
would this be it? And if not, how you would change it?
    Dr. Salwasser. Congresswoman, you have posed a very 
difficult question for me as a wildlife biologist. I support 
the Endangered Species Act whose purpose was to preserve 
ecosystems and the species that depend on them. I do not 
support plans to save a single species. I am more concerned 
about the resiliency, diversity and productivity of ecosystems 
at a landscape scale to provide the environmental, economic and 
social benefits that we need from our forest lands.
    Ms. Herrera Beutler. Very good. Thank you.
    The Chairman. Second round.
    Ms. Herrera Beutler. We'll have to do the second round.
    The Chairman. Well, let me ask--Mr. Fox, let me ask you a 
question here. As you know, President Obama has directed the 
Department of Interior to come up with an economic analysis of 
the spotted oil critical habitat that's due very shortly.
    This is not a clear question, but as this is being 
developed, what do you think needs to be in there to accurately 
reflect the impact on private timber owners and others? In 
other words, we may have a report. We don't know what's going 
to be in it, but if there's something missing or added, give me 
your--what do you think needs to be in that plan?
    Mr. Fox. Well, I think that what I spoke about, which was 
Section 10 of the USA, and I think we need to get a true 
implementation of that and make it available for private forest 
landowners to get a habitat conservation plan, thereby creating 
an incentive for them to continue to be in forestry and to 
create the species habitats that we need. Otherwise, folks are 
not going to invest in private forest land. They're being 
scared. They're managing by fear and they are not going to 
continue to do this. We're not going to get what we need at the 
end of the day. In other words----
    The Chairman. Let me try to put it in kind of layman's 
terms. If there is not something in this plan that provides 
some certainty that can be counted on, then the report would be 
inadequate?
    Mr. Fox. That's correct.
    The Chairman. That's correct, OK.
    Mr. Nelson, you're in the commercial business and you heard 
my observation that I thought that public lands should be 
multiple purposes. The Forest Service has recently claimed that 
there is insufficient demand for timber sales, thus leading to 
reduced harvest and so forth.
    Would Sierra Pacific be interested in purchasing more 
Federal timber in your marketing area if it were offered.
    Mr. Nelson. That's an easy one. Yes.
    The Chairman. I thought it would be an easy one, but I 
thought it would be good to have it on the record because we 
hear so much about different economies and so forth.
    Mr. Nelson. If I could expand upon the ``yes.'' Our company 
expanded into Washington six or seven years ago and we expanded 
out of California. We own 1.7 million acres down there. We 
expanded largely because of the public timber supply stability 
in the State of Washington, but it wasn't from the U.S. Forest 
Service. It's from the DNR.
    The Chairman. Were you part of the Quincy Library 
Agreement?
    Mr. Nelson. Yes, I was one of the original three.
    The Chairman. You painfully understood how that broke down. 
Now, what you just made an observation on is important, so I 
want to ask you, Region 6 of the Forest Service has in excess 
of 50 million acres of forest land and yet they sold--what came 
off those lands were around 575 in million board feet. In 
contrast, Washington State DNR has little over 2 million acres. 
That's 52 million compared to 2 million acres yet they sold 550 
million board feet.
    How could there be such a discrepancy on that?
    Mr. Nelson. A couple of reasons: First of all, the DNR--I 
wanted to add to that. The DNR also has in place a HC2, a 
Habitat Conservation Plan. They have a plan that covers all of 
us that own private land for aquatic species, largely fish. 
They have their own plan that covers Spotted Owls and other 
species as well as fish, so they not only have the stability of 
the Timber Sale Program, but they have the stability of these 
Federal assurances.
    I think the real reason that the state is doing that and 
not so much the feds, my own opinion, is that the state has it 
in trust. There are some very tight restrictions. They must 
manage their lands for the beneficiary of the trust but to be 
with inside all of the environmental regulations.
    The Forest Service on the other hand has about umpteen 
conflicting and overlapping rules, regulations, policies, et 
cetera, that are all geared toward not doing stuff. That's 
basically what they do, and so there's a different approach to 
it entirely between the state and the Federal implements.
    The Chairman. Would that be part of the reason why the 
yield on state lands is over $300 per thousand board feet and 
yet on Forest Service lands it's less than $50 per thousand 
board feet? Would you say that would be a reason for that?
    Mr. Nelson. Yes, I would, and in addition to that, the 
overhead is codified by the state legislature of Washington, so 
they can only have 30 percent overhead to do something. The 
Forest Service is kind of a blank check.
    The Chairman. So let me ask you this--I just asked Dr. Fox 
what should be in that plan.
    Is it fair to say that you as a commercial operator have 
more certainty dealing with state lands than you do with 
Federal lands?
    Mr. Nelson. Yes.
    The Chairman. That is affirmative. OK. My time has run out. 
I'll recognize the gentlelady from Washington.
    Ms. Herrera Beutler. Thank you. We're kind of coming up to 
what I think a big part of the reason we're here. We also want 
to talk about the impacts it has on jobs and the economy. We're 
talking about small forest landowners. We're talking about 
timber and forest management companies. That has an impact on 
our counties and our communities locally, which is one of the 
reasons I wanted to raise a question to you, Commissioner, with 
regard to tax receipts, and specifically will you please go 
into detail about the amount of Federal dollars the county or 
counties who are timber dependent receive through Secure Rural 
Schools and PILT, and with both of those set to expire, how 
would you like to see those programs addressed in lieu of this 
conversation?
    Mr. Pearce. Well, the Secure Rural Schools was based on 
actual timber harvest between 1986 and 1996, the three highest 
years' average, and that began in 2000, following the Owl 
Guaranteed Payment. That, of course, ramped down in the last 
four years. That was part of the agreement in Congress. And so 
my county, as just an example, is 5 and a half million a year.
    Now, during logging, back in 1990, we made $7 million in 
actually receipts. '91 we made 7 million. So we actually went 
down significantly with these payments. Last year the payment 
was 1.8 million. Our DNR receipts are county by county. We 
happened to be in the HCP, one of the counties hardest hit by 
the Spotted Owl. I know that comes as a surprise. But the state 
has actually begun a program to buy that land which is 
encumbered and to pay the county for the timber value, so our 
legislature, our Governor and the commissioner have recognized 
that those trust monies are very important to us and they 
developed a program to buy those lands. The schools are 
absolutely dependent on it. It's how they construct schools in 
this state.
    Ms. Herrera Beutler. I think it's important for folks to 
realize and believe this is the case, we're not talking about--
I think in certain agencies in certain areas even in 
Washington, D.C., and central planning offices, I don't think 
there's an understanding of there was a good faith trade made 
here between the county and the Forest Service. The counties 
are not asking for welfare payment. This is not something for 
nothing. This was a trade. When 90-plus percent of the county 
is completely off limits, it makes it difficult for counties to 
have economic viability to pay for school districts and fire, 
so on and so forth, and I believe this is the situation that 
Skamania is in.
    Mr. Pearce. Well, yes, ma'am. The fact is in 1908 with the 
Federal Forest Act, the reality is there was an agreement 
between--and it specifically was between counties and the 
Federal government, and that agreement was that to begin with 
we would get ten cents of every dollar it received. Of course 
that went to 25 cents.
    The fact is in 2010 the Forest Service on 193 million acres 
nationwide only made $180 million in total receipts. Had we 
shared in that, it would have been a quarter of 180 million. So 
yes, the counties are very much left out in the cold and our 
schools are as well because we've lost that contract.
    Ms. Herrera Beutler. Can you speak to under the new plan 
almost all Skamania County will be covered, I believe, almost 
all. I mean, it is almost there now, but under the new plan, 
believe it or not they're even expanding it and what will 
that--what will the economic impact be? Do you think that will 
be on Skamania, your ability to produce?
    Mr. Pearce. Well, we're very concerned because obviously 
Secure Rural Schools and county payments has not been 
reauthorized. Even if it is, it's going to be significantly 
less. As I said earlier, we cut 4 million from a 14 million 
dollar budget last year. We're looking at another 4 million 
dollar cut. The fact is at this time if this plan goes into 
effect, it affects 45 or 50 percent of our matrix land that is 
left, which is supposed to be the land that we actually get to 
go past, and it does in fact, as you look at the map, pretty 
much cover the entire Gifford Pinchot National Forest except 
for those areas that are already no touch, wilderness and so.
    I believe and--you and I met with our mill owner. I believe 
our mill is finding it very hard to stay profitable, having to 
ship logs--while they're right in the middle of a national 
forest, having to ship logs from so far away, so it's going to 
have a profound impact.
    Ms. Herrera Beutler. I yield.
    The Chairman. There are a lot of questions here that I want 
to ask.
    Let me ask first, Commissioner Pearce, in the testimony 
that we have heard from several of our witnesses, they 
testified that the national forests provide a number of jobs 
and other valuable goods such as recreation, biomass energy and 
ecosystem services. Your county is probably the poster child as 
to where that sort of activity is supposed to come because of 
that.
    Give me your assessment of those observations.
    Mr. Pearce. Well, certainly preservation of the forest is 
important. The problem is that our forest is very close to the 
Portland metropolitan area, so for the most part we don't get 
overnight stays outside of the forest. Folks will come to stay.
    Just to give you an idea of how hard it is in our forest, 
there has been a moratorium on our forest for guide services 
for 11 years. Literally you can't get a permit to take people 
out on bikes, you can't get a permit to go caving, you can't 
get a permit to take people on hikes, let alone hunting, 
fishing, so on.
    We're working very hard to get that lifted because our 
large private employer, which is the Skamania Lodge, would very 
much like to offer those sorts of services, so I would have to 
disagree, sir, that we are not seeing an economic vitality out 
of serving the forest.
    The Chairman. So that's what one could largely call a 
theory that hasn't been put into place, is not yielding, but 
the theory is supposed to be?
    Mr. Pearce. Yes, sir.
    The Chairman. Theory as opposed to axiom for math majors.
    Mr. Mealey, you quoted Jack Ward Thomas that Federal 
agencies have developed the hands-off management approach. Now, 
my question to you, taking that at its worth, is the flaw in 
the implementation, the hands-off approach, or is it a flaw in 
the law itself?
    Mr. Mealey. In my opinion it's a flaw in the law.
    The Chairman. It is?
    Mr. Mealey. I talk a lot about the overly precautionary 
nature of the Endangered Species Act, and what I mean by that 
is that the act itself provides for the elimination of harm to 
a species, and so that means that any harm in the short term 
should be avoided, regardless of the long-term benefits.
    So I hope this wouldn't be too long, but let me give an 
example of actually how this applies, and this is a real 
example: When I was on the Boise Forest, for example, if 
there's a watershed that's at risk from uncharacteristic 
wildfire and it requires access or road access that crosses a 
stream to do the necessary actions to reduce the risk and that 
road would produce sediment in crossing a stream, you would 
have to consult--if the agency, the Forest Service, found that 
that may affect the species, you would consult with Fish and 
Wildlife Service, and if they conclude it likely to adversely 
affect, it would have an effect and in the short term that 
would require formal consultation, which is time consuming, and 
so what happens is that knowing that and knowing the back log 
of those activities, the agency would propose actions that 
would have no effect, so they wouldn't have to formally 
consult, but the law itself requires the agency conclude likely 
to adversely affect to avoid any short-term harm, and so that's 
why I recommended that Section 7, Consultations, require a 
balancing of risks, balancing the short-term effects of an 
action against the long-term benefits so that there could be 
some weighing and some rational conclusions about actions.
    The Chairman. Should there be when you're doing that, 
recognizing that certainly people have a right to disagree and 
have a right to go to court, but, I mean, it seems to me in the 
instance you described in Idaho as ripe for litigation. Am I 
correct?
    Mr. Mealey. Yes.
    The Chairman. So it's ripe for litigation. Is there a way 
to do it where you can speed up the litigation yet people can 
still be heard if they have concerns? But you have to address 
issues in a timely manner. Is there a way to do that in your 
mind.
    Mr. Mealey. I don't know what they would be. Of course, we 
all know that there's an appeals process and if you appeal you 
get standing to sue, and then if you sue, that case is on the 
docket, and I don't know how that can be changed except to 
remove the litigation points.
    The Chairman. Well, listen, I know that was not a fair 
question, because that's a question that we have to wrestle 
with on our side, and my time has run out. I'll recognize Mrs. 
Herrera Beutler and then I'll make a closing remark, but I'll 
address that particular issue because I think that is the 
important part as we go forward.
    I'll recognize Mrs. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And this is for Mr. Connaughton: In Washington state, do 
you believe that the current 2 percent of the forest harvests 
in our 9 million acres that you manage, do you think that 2 
percent harvest is adequate and is it sustainable over the long 
term?
    Mr. Connaughton. We're getting as much from the 
appropriations that we have currently as we can make happen. Is 
there more work to be done? Indeed there is, and I'd like to do 
it.
    Ms. Herrera Beutler. So you believe that the 2 percent is 
not adequate over the long term?
    Mr. Connaughton. We're at 6 percent in Oregon and 
Washington in the national forests.
    Ms. Herrera Beutler. I was speaking to just Washington. I 
apologize. I don't know the Oregon numbers.
    Mr. Connaughton. So I'd have to verify with the court. The 
take-home message that you asked me about, is there more work 
to be done, the answer to that in my mind is yes.
    Ms. Herrera Beutler. Absolutely. Let me also speak to, with 
regards to the areas of forest that have been designated as 
critical habitat for the last 20 years, do you believe that 
those areas are healthier today than they were before the 
designation?
    Mr. Connaughton. It depends on what one means by healthier. 
If they're contributing to the recovery of the Northern Spotted 
Owl, the answer to that is probably going to be yes, and 
several of the speakers have raised the issue but that has 
consequences for other environmental services and benefits, and 
the question in that would be yes in terms of aquatic 
conditions and our river basins. In terms of timber harvest, 
that would be part of local economy, so the answer to that 
would probably in general be no, so there is a gradient based 
on service itself.
    Ms. Herrera Beutler. And kind of skipping over to a 
different question that since I have you here I wanted to bring 
up. Recently the EPA, presumably in response to last year's 
Ninth Circuit Court ruling, that runoff from logging roads are 
considered point source indicated that it will begin to draft 
regulations, and I wanted to know if the Forest Service raised 
concerns about the impacts of this ruling to the Administration 
and the Justice Department, in large part because some of the 
numbers I've seen, the amount of permits that you all have to 
get will take upwards of ten years for the 400,000 permits.
    How do you know all--dealing with the Administration, do 
you personally believe that runoff is a point source?
    Mr. Connaughton. First is, have we weighed in with the 
Administration? The answer to that is yes, and there's been an 
awful lot of discussion about what is implied. The idea of 
point source is also a matter of contention, and here's where I 
am when it comes to that issue, is, for forest practices we 
want to be very aware of any adverse effects that we have on 
our watersheds and our river basins, and I'm very content with 
the way in which we're going about managing the National Forest 
System, and I've seen some very good things off the National 
Forest System, too, in terms of conservation.
    Does that then justify the need for a permit? The answer to 
that is very much in front of you folks in congress, and for an 
EPA, my intent is, I wind up in the same place whether I have 
to ask for or request a permit or not. It is the protections of 
those watersheds. Whether I've got a permit or not is a 
procedural event. I hope that makes sense.
    Ms. Herrera Beutler. Yeah.
    The Chairman. Well, thank you very much. I just want to ask 
one more question and then I'll make a closing remark here, but 
in fairness, this is a question to all of you, and it's really 
the basis for which we have this hearing here today, and I'm 
going to ask if you will just give a ``yes'' or ``no'' answer.
    As we describe what you have all described, the Northwest 
Forest Plan was developed based on essentially five principles, 
and I'll just paraphrase what those principles are: Social and 
economic balance to protect forests' health, wildlife and 
water; sound science; predictable and sustainable timber 
harvest; and ending gridlock. That was essential the five 
principles.
    Now, based on this, let me ask what we used to call the $64 
question: Does anybody there, yes or no, believe that the 
Northwest Forest Plan has achieved any success?
    Start with you, Commissioner Pearce.
    Mr. Pearce. Absolutely not.
    The Chairman. Mr. Fox?
    Mr. Fox. No.
    The Chairman. Dr. Salwasser?
    Dr. Salwasser. Yes and no. You changed the question at the 
tail end.
    The Chairman. I did? OK.
    Dr. Salwasser. Yeah. The Northwest Forest Plan has achieved 
some successes, but it has not achieved its five set of the 
principles.
    The Chairman. Got you.
    Mr. Mealey?
    Mr. Mealey. In response to the five principles, the answer 
is clearly no.
    The Chairman. Mr. Connaughton?
    Mr. Connaughton. Same as Mr. Salwasser's comment.
    The Chairman. OK. Very good.
    Mr. Friedman?
    Mr. Friedman. I'm with Salwasser and Connaughton.
    The Chairman. You moved.
    Mr. Niemi?
    Mr. Niemi. I'm with Mr. Salwasser as well.
    The Chairman. Mr. Kreps?
    Mr. Kreps. No.
    The Chairman. Mr. Nelson?
    Mr. Nelson. Not even close.
    The Chairman. Split decision.
    Again, I want to thank Mrs. Herrera Beutler for allowing 
this Committee to come into her district. I think this is a 
very, very important Committee meeting to try to get 
information, and I certainly I want to thank the panel for 
coming here. As Chairman of the Natural Resources Committee, I 
have determined after a great deal of working on this to look 
at the Endangered Species Act, because if there's one constant 
thread that we have heard throughout all this testimony is that 
this is being driven by the Endangered Species Act and the 
implementation of that act.
    Now, just for the record, I don't think there's anybody in 
America that wants to see species become extinct. We should do 
everything in our power to see that they are recovered, and 
that ought to be a goal, and I think that's one of the reasons 
why when the Endangered Species Act passed, it passed with 
strong bipartisan support in both houses, but like every act 
that Congress puts in place, there's a time limit we should go 
back and review to see if it's working.
    The Endangered Species Act was passed in 1983. The last 
time it was reauthorized was in 1988. That's 24 years ago. And 
if the goal is to recover species, let me just give you some 
figures, round figures on what the act has done and why 
probably there's a lot of controversy about it. There are 
roughly, round figures, 2,00 listing of species. The amount 
that's been recovered again is roughly 20, 20 out of 2,000.
    If one were to equate that to baseball in batting averages, 
I can tell you 20 out of 2,000 would not qualify you for Class 
D baseball. It probably wouldn't classify you for little league 
baseball, to be very honest. Yet we are working under this law, 
and it's for that reason that my Committee has decided to look 
into the Endangered Species Act with the goal of recovering 
species and not get tied up into litigation.
    So much--we can't get the exact figure from the Federal 
government--is tied up. Their dollars are not recovering 
species but rather defending lawsuits, and that to me seems to 
be a focal point that we're going to look on, and we've already 
had hearings on that and we'll have more hearings, but this 
Committee hearing here allows us to get testimony from 
obviously the panel, and welcome you again if you have 
testimony of something that sparked your interest, please fill 
out the form, and we'll proceed forward, but I want to do it, 
again, in the sense that the idea ought be recover species and 
yet still have the way of life that we Americans enjoy so much.
    And I'll go back to what I said in my opening statements: 
When I became Chairman of this Committee, I strongly felt then 
and that feeling hasn't diminished a bit that our public lands 
ought to be, unless otherwise designated, for multipurpose use, 
and that includes obviously commercial and recreational 
activity.
    So, again, I want to thank the panel very, very much for 
appearing today. Your testimony is very, very valuable. And, 
again, I invite the audience if you have something that you 
want to add to this, please do so. The record will be held open 
for ten days.
    The Chairman. And once again, I want to thank my colleague 
from Southwest Washington for being here and being such a great 
host. Do you want to say something? I know better. I know I'm 
going to yield to the hostess. You are recognized.
    Ms. Herrera Beutler. Thank you, Mr. Chairman, thank you so 
much for bringing your team here and for listening. We have 
tremendous resources in our area. I'm not just talking about 
the forests. I'm not just talking about the species. I'm 
talking about our region as a whole, our community, and yes, 
healthy forests are part of our DNA. It's part of our blood. We 
all chose to live here. The quality of life that we have, I 
believe, is unparalleled, and we want to protect it. We want to 
recover what has been lost, but we need to do so in a way that 
both respects wildlife and, I said it before a little tongue-
in-cheek, but I believe the endangered American wage earner.
    We have very rural areas. We act as though we are resource 
poor, but we are resource rich, and I believe with the goal of 
managing in a sustainable, healthy way wildlife and forests, 
we're all going to benefit, and I agree that a collaborative 
approach is important. As I look across this room today, the 
folks who have come to this hearing and the folks who have come 
to testify, I'm looking at a lot of collaborators.
    I don't know if you've ever been on private and on forest 
land, but it's some of the best managed habitat you will see, 
period, bar none. Comparing that with Federal lands makes you 
go, ``OK, what's the difference here?'' And I think it's 
because we love our land and we love our resources, and so we 
want to make sure that what we got out of today is taken back 
to Washington, D.C., as this reconsideration of the forest 
policy is considered, that we recognize where we can make 
changes to better improve our forest health, our habitat and 
the economy for our region.
    So with that, thank you so much for coming.
    The Chairman. Again, thank all of you for coming. I 
certainly appreciate your attendance being here.
    If there's no further business coming before the 
Subcommittee, the Subcommittee stands adjourned.
    [Whereupon, at 10:53 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

   Statement submitted for the record by the U.S. Department of the 
                                Interior

Introduction
    The Department of the Interior (Department) takes this opportunity 
to submit a Statement for the Record on Federal forest policies and 
their effects on local economies and natural resources. Because the 
oversight hearing is being held in the state of Washington, our 
statement addresses the Department's policies for public forests and 
natural resources in the Pacific Northwest, as well as the economic 
contributions in the states of Washington and Oregon from the 
Department's forest management activities.
Background
    The public lands and natural resources managed by the Department of 
the Interior play an important role in American lives, economies, and 
communities, and include some of our Nation's greatest assets. The 
forests of the Pacific Northwest have provided, for more than a 
century, the timber which Americans have used to build countless homes, 
schools, and factories. The rivers traversing these forests create 
hydropower that has supplied electricity to generations of Americans. 
Within the public lands today are also preserved the last areas of old-
growth forest that link the current generation of Americans back 
through millennia.
    The mission of the Department is to protect and manage the 
responsible use of many of America's most significant natural 
resources. Within the Department, both the Bureau of Land Management 
(BLM) and the U.S. Fish & Wildlife Service (FWS) play a role in the 
public forests in the Pacific Northwest. The FWS carries out its 
mission of working with others to conserve, protect, and enhance fish, 
wildlife, plants, and their habitats for the continuing benefit of the 
American people. The BLM, meanwhile, is responsible for managing 245 
million surface acres of public lands in 11 western states. Of these 
lands, the BLM manages 2.2 million acres of commercial forest in 
western Oregon and California (O&C), which is allocated for a variety 
of multiple uses, including conservation of northern spotted owl and 
riparian habitat as well as for traditional forest products such as 
lumber, plywood, and paper.
    In December 2010, Secretary of the Interior Ken Salazar hosted a 
Forest Summit in Washington, D.C. Dozens of stakeholders voiced 
familiar concerns and desires: conserve old-growth, recover threatened 
species; sustain local communities; provide jobs, and reduce wildfire 
risk. The Secretary renewed the Department's commitment to a strong 
working partnership with open lines of communication in order to tackle 
the long-standing challenges of achieving these complex goals.
    This Administration's policies reject the false choice between the 
environment and our communities. Rather, the Department has embraced a 
multiple-use concept that supports traditional jobs in the forestry 
industries by providing for sustainable timber harvest while restoring 
ecosystems for environmental benefits and recreation. We are committed 
to continuing our work with stakeholders and interested members of the 
public to find ways to balance the economic potential of the Pacific 
Northwest forests with protecting watersheds and providing habitat for 
endangered species.
Forest Management
    Under the Oregon and California (O&C) Grant Lands Act of 1937 (43 
U.S.C. Sec. 1181a), the BLM administers its 2.2 million-acre O&C 
forests ``in conformity with the principle of sustained yield for the 
purpose of providing a permanent source of timber supply, protecting 
watersheds, regulating stream flow, and contributing to the economic 
stability of local communities and industries, and providing 
recreational facilities''.
    For the better part of the past 17 years, the BLM's management of 
the O&C lands has been framed by the Northwest Forest Plan and the 
BLM's 1995 Western Oregon Resource Management Plans (RMPs). In managing 
timber activities on public forestlands, the BLM's objectives are to:
        <bullet>  Provide timber-based economic opportunities for rural 
        communities;
        <bullet>  Ensure the long-term health and productivity of these 
        lands; and
        <bullet>  In coordination with the FWS and other agencies and 
        partners, create multiple environmental benefits--including 
        recovery and conservation of species and habitat--that result 
        from healthy forests and watersheds.
Economic Activity/Timber Sales
    The BLM's timber management activities have direct effects in terms 
of employment and income in the Pacific Northwest, as well as induced 
effects in the local economy, such as the activities of other 
businesses required to support timber operations. In Oregon, which has 
seen a marked decline in traditional forestry jobs, BLM's forest 
management activities supported over 2,700 jobs in 2010 and produced 
almost $600 million in economic activity (The Department of the 
Interior's Economic Contributions; June 21, 2011).
    Although timber purchases as well as harvest levels are driven by 
market forces, the BLM continues to offer a predictable, sustainable 
supply of timber sales in western Oregon of approximately 200 million 
board feet (MMBF) per year. In recent years the BLM's timber volumes 
offered for sale have ranged from highs of 236 MMBF in 2008 and 233 
MMBF in 2010, to 198 MMBF in 2007.
    The BLM offered 198 million board feet of timber for sale in 
FY2011, including 28 MMBF from the Roseburg District and 22 MMBF from 
the Medford District, and in addition, re-offered 12 million board feet 
from previous contracts that had been mutually cancelled. In FY 2012, 
the BLM plans to offer the program target volume of 193 MMBF of timber 
for sale; the Roseburg target is 28 MMBF and the Medford target is 19 
MMBF. The BLM also plans to reoffer additional volume from eight more 
contracts that were mutually cancelled. For FY 2013, the BLM budget 
proposal also includes an increase of $1.5 million in the O&C Forest 
Management program to increase the volume of timber offered for sale.
Forest Health & Productivity
    The Department's highest priority activities are directed toward 
reducing risks to communities by ensuring the long-term health of these 
forests and their watersheds. In recent decades, prolonged droughts and 
the spread of insect infestation have devastated millions of acres of 
trees in the Northwest. Through Federal forestry management, we are 
working to improve the health of these forest ecosystems, which, in 
turn, makes the forested lands more resilient against the risk of 
wildfires and invasive species, and preserves key wildlife habitat that 
will aid in conserving and recovering threatened and endangered 
species.
    The BLM, in collaboration with the FWS, is working to refine its 
implementation of active management, which employs science-based 
``ecological forestry' practices that are carefully tailored to restore 
localized forest areas to healthy conditions. In the dry forests of 
southwestern Oregon, for example, a prescription for active management 
may require intervention to reduce the buildup of fuels. In the wetter 
forests on the west side of the Cascades, a prescription may include 
patchy regeneration harvests in addition to thinning to better mimic 
natural forest processes. In addition to restoring forest health, these 
techniques allow for sustainable timber harvests for local mills and 
the communities who rely on the timber industry for jobs and economic 
strength.
Pilot Projects
    As a result of the December 2010 Forest Summit, Secretary Salazar 
set in motion a plan to apply the principles of active forest 
management, as suggested by Professors Norm Johnson and Jerry Franklin, 
on BLM lands within the Coos Bay, Roseburg, and Medford Districts in 
Oregon. Professors Johnson and Franklin--in collaboration with the BLM, 
FWS, the National Marine Fisheries Service, and the Coquille Indian 
Tribe--are demonstrating the ecological and economic merits of 
ecological forestry principles in Oregon's moist and dry forests. The 
Medford pilot project, the first of the three sales and the one 
furthest along in implementation, received no protests or 
administrative appeals and sold for more than four times the appraised 
value. Commercial harvest is underway in that Pilot. The Coos Bay and 
Roseburg Pilots are at various stages of the sale and environmental 
assessment process.
    Based on the promise of these pilot projects described by 
Professors Johnson and Franklin in a report on Ecological Forestry 
pilot projects, in February Secretary Salazar announced that the BLM 
will plan five additional timber sales using ecological forestry 
principles in 2012 and 2013. Drs. Johnson and Franklin estimate that 
the BLM's use of ecological forestry practices would sustainably yield 
an annual harvest of approximately 217 to 286 MMBF for the next 15 
years from the public forests in Oregon.
Moving Forward/Planning
    As part of the commitment to restoring healthy habitat and 
providing sustainable timber harvest and revenues--in March of 2012, 
BLM announced that it will undertake Resource Management Plan (RMP) 
revisions which will provide goals, objectives, and direction for the 
management of approximately 2,500,000 acres of BLM-administered lands 
in western Oregon. The revisions to the existing RMPs will determine 
how the BLM will actively manage BLM-administered forests in western 
Oregon for multiple objectives including contributing to the recovery 
of threatened and endangered species, to provide clean water, to 
restore fire adapted ecosystems, to produce a sustained yield of timber 
products, and provide for recreation opportunities. Finding a balanced, 
sustainable approach is critical in western Oregon. The Department 
encourages citizens to participate in discussions about management of 
public forests in western Oregon and to be part of the solution. The 
first step in the BLM's process to revise RMPs is a formal public 
scoping period to seek public input regarding the range of issues to be 
addressed in the planning process, including the management 
alternatives that should be examined. The public scoping period ends on 
July 5, 2012.
    We expect that with participation from members of the public and 
stakeholders in this scoping process as well as throughout the planning 
process, the agency will be better able to determine which forest 
management practices and activities will help achieve our goals.
Northern Spotted Owl Recovery Efforts
    The U.S. Fish and Wildlife Service (FWS) is working to recover the 
northern spotted owl in coordination with the U.S. Forest Service, BLM, 
National Park Service, and many other state, tribal, and private sector 
partners. Recovery efforts currently encompass recovery planning, 
critical habitat designation, and barred owl management. The recently 
released 2011 Recovery Plan for the Northern Spotted Owl includes 34 
recovery actions and makes three overarching recommendations: 1) 
protect the best of the spotted owl's remaining habitat; 2) conserve 
forest ecosystems through active management; and 3) reduce competition 
from the encroaching barred owl. Specifically:
        <bullet>  To protect the best of the spotted owl's remaining 
        habitat, FWS recommends conserving spotted owl sites and high 
        quality habitat across the landscape. This means the habitat 
        protections provided under land use plans on Federal lands will 
        continue to be a focus of recovery, but protection of other 
        areas is likely needed to achieve full success. FWS is 
        currently seeking public comment on the proposed critical 
        habitat designation and an economic analysis will be made 
        available for public review and comment.
        <bullet>  To conserve forest ecosystems through active 
        management, FWS recommends actions that make forest ecosystems 
        healthier and more resilient to the effects of climate change 
        and catastrophic wildfire, disease, and insect outbreaks. This 
        involves an ``ecological forestry'' approach in certain areas, 
        which may include carefully applied prescriptions such as fuels 
        treatment to reduce the threat of severe fires, thinning to 
        help older trees grow faster, and restoration to enhance 
        habitat and return the natural dynamics of a healthy forest 
        landscape. FWS also recommends continually evaluating and 
        refining active forest management techniques. This effort 
        includes the BLM's pilot projects, supported by Secretary 
        Salazar.
        <bullet>  To reduce competition from the encroaching barred 
        owl, FWS recommends managing barred owl populations to give the 
        spotted owl a chance to rebound sufficiently that the two 
        species may eventually be able to co-exist. To test the 
        feasibility and effectiveness of barred owl management, the FWS 
        is proposing experimental removal of barred owls in certain 
        portions of the spotted owl's range to see how this may affect 
        spotted owls. If the experiment proceeds and the effects on 
        spotted owls are positive, the FWS may consider the efficacy 
        and feasibility of barred owl removal on a broader scale.
Northern Spotted Owl Recovery Plan and Critical Habitat Proposal 
        Minimizes Impact to Private Landowners and States
    The 2011 Recovery Plan for the Northern Spotted Owl acknowledges 
that certain areas on non-Federal lands play a critical role in 
recovery and recommends working collaboratively with key conservation 
partners such as state agencies, private landowners, and tribes. FWS is 
pursuing ongoing dialogue and collaborative decision-making with state 
agency partners and citizens to determine the best way forward. FWS 
will also continue to consult and collaborate with tribal governments 
that have long worked to monitor and conserve spotted owls on their 
lands, thus making valuable contributions to recovery. The goal is to 
work with partners and citizens to evaluate the potential contribution 
of state and private lands to recovery in areas where Federal lands are 
limited. If any areas are to be included, FWS will work together to 
develop economic and other sensible incentives for voluntary habitat 
conservation partnerships such as Safe Harbor agreements and Habitat 
Conservation Plans.
    For the current critical habitat proposal, FWS is considering the 
exclusion of several categories of land from the final designation, 
including state and private lands which are already managed for 
conservation. When a critical habitat designation includes non-Federal 
lands with no Federal connection, there is no direct effect on 
landowners (though there may be indirect effects). The designation 
helps to inform state and local government agencies and private 
landowners about the value of the habitat. As a result, a critical 
habitat designation may help facilitate voluntary conservation 
partnerships such as Safe Harbor agreements and Habitat Conservation 
Plans.
    A Safe Harbor is a voluntary agreement between FWS and a private 
landowner that encourages private landowners to carry out habitat 
conservation measures on their land to benefit species listed under the 
Endangered Species Act. In exchange, FWS provides assurances that 
future land use restrictions will not be imposed. Under Safe Harbors, 
some impacts to individual species may occur in return for the 
landowner's commitment to conservation measures that contribute to the 
species' population overall. This provides landowners with more 
certainty for their land use planning. There are currently five Safe 
Harbor agreements for the northern spotted owl--two in Washington, one 
providing statewide coverage in Oregon, and two in northern California.
    Similarly, Habitat Conservation Plans are used for non-Federal 
landowners (usually government agencies, private organizations, or 
businesses) whose otherwise lawful activities are expected to impact 
listed species. The FWS works with these landowners to develop 
provisions for monitoring, minimizing, and mitigating for potential 
incidental take. There are currently 12 Habitat Conservation Plans for 
the spotted owl--six in Washington covering more than 2 million acres, 
two in Oregon covering 200,000 acres, and four in California covering 
more than 200,000 acres.
Addressing Forestry Needs
    The BLM has a target of 197 million board feet of proposed sales in 
western Oregon in FY 2013. The Secretary announced that as part of this 
target, BLM will plan for at least five additional timber sales 
(totaling approximately 15 million board feet) using ecological 
forestry principles. By using ecological forestry principles, 
addressing the growing impact of the invasive barred owl and expanding 
the scientific foundation for wise management of our forests, the 
Department of the Interior seeks to give communities, foresters, and 
land managers the additional tools they need to forge healthier and 
more resilient forests. The Department is also working closely with the 
Forest Service, which recently announced steps to improve forest 
restoration through active management and to increase forest products 
sold by the National Forests from 2.4 billion board feet in 2011 to 3 
billion board feet no later than 2014.
    The current critical habitat proposal for northern spotted owl 
encourages increasing active management of forests, consistent with 
ecological forestry principles and practices within critical habitat 
when it promotes forest restoration and ecosystem health. This is a 
major change from previous critical habitat designations. Many Pacific 
Northwest forests are out of balance due to an interaction of natural 
and human influences. In the drier and diseased forests, FWS supports 
intervention to protect older trees, reduce unnatural fire risk, and 
better manage insect outbreaks. In the moist forests west of the 
Cascade Mountains, FWS supports thinning and patchy regeneration 
harvests that better mimic natural forest processes. Application of 
such science-based forest treatments could provide significant economic 
and employment opportunities in many areas and should be compatible 
with the goals of northern spotted owl recovery. It may also reduce the 
potential for litigation of some timber harvest proposals that apply 
these methods.
    The Endangered Species Act requires the FWS to identify all areas 
essential to the conservation of a species and that may require special 
management, and then to take other factors, such as economic impacts, 
into consideration to refine proposals before critical habitat 
designations are finalized. The critical habitat proposal that 
identifies areas that may be considered for the final designation also 
emphasizes the significant benefits of excluding private lands, and 
that consideration, along with the economic assessment, will help 
inform which areas will be excluded from the final critical habitat 
designation. The FWS is contracting with economics experts to develop a 
thorough economic analysis of the critical habitat proposal, which will 
evaluate timber harvest-related and other potential economic impacts. 
The economic analysis will be made available for public review and 
comment, prior to the finalization of the northern spotted owl critical 
habitat designation.
Conclusion
    By working in partnership with local communities, forest industry, 
and conservation groups, this Administration is moving toward a long-
term strategy for forest management that is environmentally sound and 
economically sustainable. The Department's science-based planning 
activities, informed by economic analysis and public feedback, will 
provide greater certainty for timber mills and communities while 
conserving our land, water and wildlife.
                                 ______
                                 
    The documents listed below have been retained in the 
Committee's official files.

        <bullet>  Anderson, Emily, Grayland, Washington, Comment form 
        submitted for the record
        <bullet>  Bonagofsky, Jerry, Comment form submitted for the 
        record
        <bullet>  Cowlitz County, Board of Commissioners, Letter 
        submitted for the record
        <bullet>  Dubrashich, Mike, Lebanon, Oregon, Letter submitted 
        for the record
        <bullet>  Edwards, Karla Kay, Willamina, Oregon, Comment form 
        submitted for the record
        <bullet>  Forsberg, R. Lynn, Ridgefield, Washington, Letter 
        submitted for the record
        <bullet>  Graham, Darren, Comment form submitted for the record
        <bullet>  Gross, Commissioner Lee, on behalf of the National 
        Forest Counties and Schools Coalition, Letter submitted for the 
        record
        <bullet>  Hallanger, Bill, Email submitted for the record
        <bullet>  Jensen, Carol, Longview, Washington, Comment form 
        submitted for the record
        <bullet>  Krug, Larry, Stevenson, Washington, Comment form 
        submitted for the record
        <bullet>  Linde, Thomas, Carson, Washington, Letter submitted 
        for the record
        <bullet>  McKeirnan, Leigh, Letter and email submitted for the 
        record
        <bullet>  Mitchen, Darcy, Comment form submitted for the record
        <bullet>  Newton, Dr. Michael, Professor Emeritus of Forest 
        Ecology and Management, Oregon State University, Letter 
        submitted for the record
        <bullet>  Oregon State Delegation, U.S. House and Senate, 
        Letter to Secretary Salazar
        <bullet>  Pickell, William, Hoquiam, Washington, Letter 
        submitted for the record
        <bullet>  Revesz, Peter & Jane, Battleground, Waashington, 
        Letter submitted for the record
        <bullet>  Richter, Jeff, Letter and comment form submitted for 
        the record
        <bullet>  Smith, Larry F., Mossyrock, Washington, Comment form 
        submitted for the record
        <bullet>  Spencer, Paul, Letter submitted for the record
        <bullet>  Stubblefield, Ted, Former Forest Supervisor, Gifford 
        Pinchot National Forest, Letter submitted for the record
        <bullet>  Teitzel, David, Carson, Washington, Comment form 
        submitted for the record
        <bullet>  Whipple, Darrel, Rainier, Oregon, Comment form 
        submitted for the record
        <bullet>  Woods, Richard I., Kelso, Washington, Letter 
        submitted for the record

                                 <all>

</pre></body></html>
